APPENDIX

1a

APPENDIX A

RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 21a0045p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
TERRANCE MILES,
Petitioner-Appellant,
No. 19-5340
v.
SCOTT JORDAN, Warden,
Respondent-Appellee.

Appeal from the United States District Court
for the Western District of Kentucky at Louisville.
No. 3:17-cv-00558—Joseph H. McKinley, Jr., District Judge.

Argued: January 29, 2021
Decided and Filed: February 24, 2021
Before: COOK, GRIFFIN, and LARSEN, Circuit Judges.

2a

COUNSEL
ARGUED: Ilana B. Gelfman, JONES DAY, Boston,
Massachusetts, for Appellant. Thomas A. Van De
Rostyne, OFFICE OF THE KENTUCKY ATTORNEY
GENERAL, Frankfort, Kentucky, for Appellee.
ON BRIEF: Louis K. Fisher, Kathryn Kimball
Mizelle, JONES DAY, Washington, D.C., for
Appellant. James C. Shackelford, OFFICE OF THE
KENTUCKY ATTORNEY GENERAL, Frankfort,
Kentucky, for Appellee.
OPINION
GRIFFIN, Circuit Judge.
Petitioner Terrance Miles claims that the Kentucky
Supreme Court erred in adjudicating his federal
speedy-trial and ineffective-assistance claims. The
district court disagreed and denied his habeas corpus
petition. Because the district court appropriately
deferred to the Kentucky Supreme Court’s reasonable
resolutions of Miles’s claims, we affirm.
I.
A Kentucky jury convicted Miles of murder, wanton
endangerment, tampering with physical evidence, and
being a persistent felony offender in the second degree.
Miles v. Commonwealth, No. 2007-SC-000298-MR,
2009 WL 160435, at *1 (Ky. Jan. 22, 2009). The
Kentucky Supreme Court summarized the facts of his
crimes:
On the night of February 27, 2005, Michael
Teasley, a bouncer at Club 502, was shot and
killed outside the club as he attempted to clear

3a
the parking lot after the club had closed. Earlier
that same evening, after another bouncer had
removed Terrance Miles from the club for
smoking marijuana, Miles and Teasley got into a
fight. Teasley’s wife, Crystal, who also worked at
the club, testified that after the fight, Miles
grinned and said to her husband, “you might have
whipped my ass, but I’m going to get you.”
Officer Frank Hill of the Louisville Metro Police
Department, who was working extra security for
the club while off duty, observed the fight
between Teasley and Miles. While Hill did not
witness the actual shooting, he heard the
gunshots and then looked in the direction of the
gunshots and saw a male running across the
parking lot dressed in all dark clothing and
wearing a toboggan hat. Officer Hill testified that
the man he observed running across the parking
lot was the same man who had been fighting with
Teasley earlier in the night. Hill gave chase in
his patrol car with the assistance of another
bouncer and at one point located the suspect
behind a dumpster in back of the club. However,
Hill eventually lost sight of the suspect.
A number of items were collected from the
crime scene, including a black toboggan hat and a
cell phone. The number of the cell phone matched
the number Miles gave to Enterprise Rent–a–Car
when he switched his rental vehicle the day after
the murder.
Id. In March 2005, Miles was indicted for Teasley’s
murder and other charges related to the shooting. Id.
At that time, he was already in custody on unrelated

4a
state charges. Eight months after Miles’s indictment,
law enforcement sent the toboggan hat recovered at
the crime scene to a lab for DNA testing. Id. at *2.
Before trial, the prosecutor requested, and the state
trial court granted, several continuances.
The
prosecutor asked for these delays because the lab had
not yet returned the DNA results for the hat. In the
prosecutor’s view, these results were a “vital piece of
evidence which could prove to be either inculpatory or
exculpatory.” Id. Miles’s counsel did not initially
object to the delay and at one point agreed that the
results were a “crucial piece of evidence.” Id. But
Miles himself filed a speedy-trial motion and told the
court that he viewed the DNA testing as a “stall
tactic.” The state court denied Miles’s pro se motion
and others filed by his counsel as the delay continued
for about a year after Miles’s initial pro se objection.
Eventually, the testing results arrived and showed
that the hat was “negative for Miles’ DNA.” Id. at *1.
Miles’s trial began approximately twenty-one
months after he was indicted. Id. at *2. On appeal,
two evidentiary aspects of the trial—a gun and Miles’s
nicknames—are at issue. Regarding the gun, the
prosecutor told the jury in his opening statement that,
during a search of Miles’s apartment, the police “found
a gun under [his] mattress, which . . . was not the same
gun used in the murder, but [Miles] did, in fact, have
a gun.”
Moreover, during trial, the prosecutor
repeatedly referenced this gun, but also reiterated
that it was not connected to the nightclub shooting.
For example, when the police officer in charge of the
investigation testified, the following exchange
occurred:

5a
Q. Well, let’s talk about that hand gun real
quick. Was that hand gun sent off for testing?
A. Yes, it was.
Q. And did it match the bullets?
A. No, it did not.
...
Q. That is not the gun that was used to shoot
Michael Teasley?
A. No, it was not.
Defense counsel also emphasized that the gun was not
used in the murder. During his cross examination of
the officer-in-charge, he asked “[D]oes that gun have
anything, anything to do with this case?” The officer
responded, “It doesn’t now, no.” And during his closing
argument, defense counsel reiterated that the gun was
“[c]ompletely unrelated to the case.” Although defense
counsel did not object to the prosecutor’s references to
the gun, he successfully opposed a motion to admit a
picture of the gun into evidence.
With respect to the nicknames, the prosecutor’s
closing argument repeatedly referenced Miles’s two
nicknames, “Cat Daddy” and “Old Gangsta,” which he
had elicited from a defense witness during crossexamination.1 Defense counsel did not object to the
prosecutor’s use of the nicknames. All told, the
prosecutor used “Cat Daddy” six times and “Old
Gangsta” four times. The prosecutor used both

The prosecutor mischaracterized part of the witness’s
testimony. The witness actually testified that Miles’s nickname
was “O.G.” and that these initials stand for “Original Gangster,”
not “Old Gangsta.”
1

6a
nicknames when arguing that Miles had killed
Teasley because Teasley had “disrespected” him by
throwing him out of “his” club:
 “They’re not going to kick him out. This is his
club. This is Cat Daddy, Old Gangsta He’s
angry.”
 “That night, he was embarrassed in front of a
lot of people on his turf. Okay. What’s his state
of mind? He’s known as Cat Daddy there. He’s
known by Old Gangsta.”
 “[This case is] about Mike Teasley. He’s a
loving father, husband, and son. And he was
killed because Cat Daddy got his feelings hurt.”
He also used both nicknames to downplay the
significance of the hat’s negative DNA test:
 “He wants to make a big deal about that hat.
Saying we want to distance ourselves from the
hat. I would, if I thought the hat played any
role at all. . . . It’s covered in leaves. It’s
covered in crusty old dirt. Do you think the Old
Gangsta Cat Daddy’s going to be wearing this
thing to the club?”
Finally, the prosecutor used both nicknames to
generically refer to Miles:
 “What do you know about Cat Daddy? You
know he’s 5, 10. You know he’s got a lean
build.”
 “The evidence points to the man with the black
on, the man that had the motive, the man that
fits the identification to a tee. Points to Cat
Daddy. It points to the Old Gangsta. Who done
it? He’s sitting right there.”

7a
After a two-and-a-half-day trial, the jury convicted
Miles of all charges. Id. Miles appealed to the
Kentucky Supreme Court, arguing, among other
things, that the 21-month delay between his
indictment and trial violated his Sixth Amendment
right to a speedy trial. Applying the four-factor test
established in Barker v. Wingo, 407 U.S. 514 (1972),
the Kentucky Supreme Court “adjudge[d] that Miles
was not denied his right to a speedy trial in this case,”
and affirmed his convictions. Miles, 2009 WL 160435,
at *3, *7.2
Miles then sought relief in collateral proceedings.
In a habeas corpus petition filed in Kentucky state
court, Miles argued that his trial counsel was
ineffective for failing to object to the prosecutor’s
references to the gun found at his apartment and to
the prosecutor’s use of his nicknames. After an
evidentiary hearing, the trial court denied his petition.
The Kentucky Court of Appeals reversed, concluding
that these failures—collectively and in conjunction
with other errors—constituted ineffective assistance
of counsel. Miles v. Commonwealth, No. 2012-CA001240-MR, 2014 WL 4177446 (Ky. Ct. App. Aug. 22,
2014).
The Kentucky Supreme Court granted
discretionary review and reversed the Kentucky Court
of Appeals, concluding that there was not a reasonable
probability that the verdicts would have been different
if his counsel had objected to the gun or nickname
references. Commonwealth v. Miles, Nos. 2014-SC-

The Warden moved for us to take judicial notice of an
unsuccessful motion to supplement the record that Miles filed
with the Kentucky Supreme Court on direct appeal. In view of
our disposition of this appeal, we dismiss this motion as moot.
2

8a
000580-DG & 2015-SC-000321-DG, 2017 WL 5504212,
at *3–5 (Ky. Mar. 23, 2017). After exhausting statecourt remedies, Miles unsuccessfully petitioned the
District Court for the Western District of Kentucky for
a writ of habeas corpus pursuant to 28 U.S.C. § 2254.
II.
“This Court reviews de novo the legal conclusions
involved in the district court’s decision to deny the writ
under § 2254, and reviews for clear error its findings
of fact.” Reiner v. Woods, 955 F.3d 549, 554 (6th Cir.
2020) (citation omitted). Under the Antiterrorism and
Effective Death Penalty Act of 1996 (“AEDPA”), we
can overturn a state conviction for an issue
adjudicated on the merits only if the relevant statecourt decision was (1) “contrary to . . . clearly
established Federal law, as determined by the
Supreme Court of the United States;” (2) “an
unreasonable application of[] clearly established
Federal law, as determined by the Supreme Court of
the United States;” or (3) “based on an unreasonable
determination of the facts in light of the evidence
presented.” 28 U.S.C. § 2254(d).
To prevail under the “contrary to” clause, Miles
must show that the state court “arrive[d] at a
conclusion opposite to that reached by [the Supreme]
Court on a question of law” or that it “confront[ed]
facts that are materially indistinguishable from a
relevant Supreme Court precedent and arrive[d] at a
result opposite” to that reached by the Court.
Williams v. Taylor, 529 U.S. 362, 405 (2000). To
prevail under the “unreasonable application” clause,
Miles must show that “the state court identifie[d] the
correct governing legal principle from th[e] Court’s

9a
decisions but unreasonably applie[d] that principle to
the facts of [his] case.” Id. at 413. To prevail under
the “unreasonable determination of the facts” clause,
Miles must show an unreasonable determination of
fact and “that the state court decision was ‘based on’
that unreasonable determination.” Rice v. White, 660
F.3d 242, 250 (6th Cir. 2011).
Under AEDPA, “unreasonable” is not equivalent to
“incorrect.” See Renico v. Lett, 559 U.S. 766, 773
(2010). Indeed, “[a] state court’s determination that a
claim lacks merit precludes federal habeas relief so
long as fairminded jurists could disagree on the
correctness of the state court’s decision.” Harrington
v. Richter, 562 U.S. 86, 101 (2011) (internal quotation
marks omitted). And, “the more general the rule at
issue—and thus the greater the potential for reasoned
disagreement among fair-minded judges—the more
leeway state courts have in reaching outcomes in caseby-case determinations.” Renico, 559 U.S. at 776
(brackets and internal quotation marks omitted). In
short, AEDPA imposes a “highly deferential standard
for evaluating state-court rulings,” and “demands that
state-court decisions be given the benefit of the doubt.”
Id. at 773 (quotations omitted).
In this appeal, Miles raises three issues adjudicated
on the merits by the Kentucky Supreme Court: (1)
whether his Sixth Amendment right to a speedy trial
was violated by the 21-month delay between his
indictment and trial; (2) whether his trial counsel was
ineffective for failing to object to the prosecution’s
reference to the gun; and (3) whether his trial counsel

10a
was ineffective for failing to object to the prosecution’s
use of his nicknames.3 We address each in turn.
III.
First, Miles argues that the Kentucky Supreme
Court’s adjudication of his speedy-trial claim was
contrary to, and an unreasonable application of, the
Supreme Court’s holdings in Barker and Doggett v.
United States, 505 U.S. 647 (1992). We disagree.
The Sixth Amendment guarantees that, “[i]n all
criminal prosecutions, the accused shall enjoy the
right to a speedy and public trial[.]” U.S. Const.
amend. VI. The speedy-trial right is “amorphous,”
“slippery,” and “necessarily relative,” so any claimed
violation must be evaluated on an “ad hoc basis.”
Barker, 407 U.S. at 522, 530. In Barker, the Supreme
Court established four factors for courts to consider
when evaluating a speedy-trial claim: (1) whether the
delay was uncommonly long; (2) the reason for the
delay; (3) whether the defendant asserted his right to
a speedy trial; and (4) whether prejudice to the
defendant resulted. 407 U.S. at 530. “No one factor is
dispositive. Rather, they are related factors that must
be considered together with any other relevant
circumstances.” United States v. Sutton, 862 F.3d 547,
559 (6th Cir. 2017) (citing Barker, 407 U.S. at 533).
The first factor is a “threshold” requirement.
Doggett, 505 U.S. at 652. The rationale here is that
judicial examination of a speedy trial claim is needed
only where the delay crosses the line dividing the
The district court also granted a certificate of appealability
on a fourth issue: whether Miles’s counsel was ineffective for
failing to object to certain hearsay testimony. Miles, however,
waived this claim on appeal.
3

11a
“ordinary” from the “presumptively prejudicial.” Id. at
651–52. The Supreme Court has never clearly drawn
that line, but has noted that “[d]epending on the
nature of the charges, the lower courts have generally
found
postaccusation
delay
‘presumptively
prejudicial’” once the delay “approaches one year.” Id.
at 652 n.1, 658. Although “presumptive prejudice
cannot alone carry a Sixth Amendment claim without
regard to the other Barker criteria, it is part of the mix
of relevant facts, and its importance increases with the
length of the delay.” Id. at 656 (internal citation
omitted).
The second Barker factor looks at “whether the
government or the criminal defendant is more to
blame for th[e] delay.” Id. at 651. “Governmental
delays motivated by bad faith, harassment, or
attempts to seek a tactical advantage weigh heavily
against the government, while neutral reasons such as
negligence are weighted less heavily, and valid
reasons for a delay weigh in favor of the government.”
United States v. Robinson, 455 F.3d 602, 607 (6th Cir.
2006) (citing Barker, 407 U.S. at 531). Thus, “different
weights should be assigned to different reasons.”
Barker, 407 U.S. at 531.
The third factor relates to “the defendant’s
responsibility to assert his right,” and its effect will
depend on the other factors. Id. “The strength of his
efforts will be affected by the length of the delay, to
some extent by the reason for the delay, and most
particularly by the personal prejudice, which is not
always readily identifiable, that he experiences. The
more serious the deprivation, the more likely a
defendant is to complain.” Id.

12a
The fourth and final Barker factor is actual
prejudice to the accused.
“Prejudice ‘should be
assessed in the light of the interests of defendants
which the speedy trial right was designed to protect,’
of which there are three: ‘(i) to prevent oppressive
pretrial incarceration; (ii) to minimize anxiety and
concern of the accused; and (iii) to limit the possibility
that the defense will be impaired.’” United States v.
Ferreira, 665 F.3d 701, 706 (6th Cir. 2011) (quoting
Barker, 407 U.S. at 532).
Although the Kentucky Supreme Court correctly
identified the four Barker factors, Miles takes issue
with its analysis of the second and fourth factors.4 We
agree with the district court that Miles cannot
overcome AEDPA deference.
A.
The Kentucky Supreme Court addressed the second
Barker factor as follows:
As for reason for the delay, the Commonwealth
argued that the toboggan hat was vital evidence
in the case and that they could not go forward
with the trial without the DNA testing being
completed. Nevertheless, after the testing came
back negative, the Commonwealth still proceeded

4
Miles also faults the state court for not “stating whether,
and to what degree, each of the factors weigh in favor or against
a conclusion that the Commonwealth violated [his] speedy-trial
right.” But as the Warden correctly notes, the United States
Supreme Court has never required courts to so precisely define
the weighing of the Barker factors. Thus, he cannot show that
the Kentucky Supreme Court’s failure to do so was contrary to,
or an unreasonable application of, law established in the holdings
of the Supreme Court. 28 U.S.C. § 2254(d).

13a
with the trial and obtained a conviction against
Miles. In fact, at trial the prosecutor elicited
testimony from the lead investigator on the case,
Detective Chris Ashby, that the hat had no
relevance in the case and argued such in his
closing argument.
Miles asserts that this
demonstrates that the testing on the hat was not
a legitimate reason for the delay in this case and
that the prosecutor intentionally misled the court
as to the importance of the hat to the case.
The black toboggan hat in question was found
and collected by the police as potential evidence
at the scene. Officer Hill and two other witnesses
testified at trial that the man who shot Teasley
was wearing a toboggan hat. Simply because the
testing came back negative on the hat and the
prosecution subsequently argued at trial that the
hat was not significant to the case, does not mean
that the Commonwealth acted in bad faith in
seeking DNA testing on the hat. After the hat
tested
negative
for
Miles’
DNA,
the
Commonwealth had no choice but to minimize the
evidentiary value of the hat at trial. In reviewing
the record, there is no indication that the
Commonwealth acted in bad faith. At the pretrial hearings wherein the status of the testing on
the hat was discussed, the prosecutor reported
that he was regularly calling the lab to inquire
about the status of the testing. Defense counsel
admitted that the hat was crucial evidence and
stated no objection to having the hat tested,
although he sought to have their own expert
present for testing.

14a
Miles, 2009 WL 160435, at *2–3. Miles takes issue
with this analysis, arguing that it failed to answer “the
relevant legal question”: “whether the government or
the criminal defendant is more to blame for th[e]
delay.” In his view, the Kentucky Supreme Court
reduced this factor to an inquiry of whether the
government acted in bad faith and failed to consider
whether the government exercised “reasonable
diligence” in waiting to test the hat and allowing the
hat to languish at the lab.
The state court’s treatment of this issue was not
contrary to, or an unreasonable application of, a
clearly established holding of the Supreme Court.
Despite Miles’s attempt to challenge the framing of
this issue, state courts are not required to use specific
language in addressing the Barker factors. See
Barker, 407 U.S. at 530 (“[S]ome might express [the
Barker factors] in different ways.”) And the Kentucky
Supreme Court clearly did not limit its analysis to just
a bad-faith inquiry5 or ignore the question of who bore
responsibility for the delay. It noted that “[d]efense
counsel admitted that the hat was crucial evidence.”
Miles, 2009 WL 160435, at *3.
Given the
representations from both sides that the hat could be
decisive either way, the court could have reasonably
concluded that there was a valid reason for the delay.
See Barker, 407 U.S. at 531 (providing the example of
5
We note, moreover, that the only argument Miles presented
to the Kentucky Supreme Court was that the prosecution had
acted in bad faith by sending the hat for testing. He made no
argument, as he does now, related to prosecutorial negligence. As
such, the Kentucky Supreme Court was not treating a lack of bad
faith as dispositive; it was responding to Miles’s only argument
on this issue.

15a
a “missing witness” as a valid reason for delay). Such
a reason weighs in favor of the government and
“justif[ies] appropriate delay.” Id.
The Kentucky Supreme Court also noted that
Miles’s counsel did not initially object to the testing
(even though the testing process started months after
indictment), and the prosecutor was regularly calling
the lab to inquire about the status of the results. This
recognition supports the reasonable conclusions that
testing was at first agreeable to both sides; that the
government was diligent once the hat was sent to the
lab, see Doggett, 505 U.S. at 656; and that the resulting
delay was appropriate, Barker, 407 U.S. at 531.
In sum, the Kentucky Supreme Court’s decision is
not contrary to, or an unreasonable application of,
Barker’s second factor.
B.
The Kentucky Supreme Court provided
following analysis of the fourth Barker factor:

the

As for prejudice to Miles as a result of the delay,
Miles alleges that he lost a key witness for trial,
Steven Edwards, who died on June 25, 2006 in a
motorcycle accident. Upon review of the record,
the only references to Edwards were in a March
2007 motion to dismiss indictment for speedy trial
violation and as an alias for Miles. According to
the record, no subpoenas were issued for
Edwards’ appearance at either of the two trial
dates prior to Edwards’ death. Further, Miles
does not allege what Edwards’ testimony would
have been and why he was so crucial to his case.
Finally, although Miles was convicted, the
negative test results on the hat were favorable to

16a
Miles’ case at trial. The negative DNA results on
the hat were a large part of Miles’ defense and
were repeatedly referred to by defense counsel at
trial as proof that Miles was not the shooter.
Miles, 2009 WL 160435, at *3. Miles argues that the
state court erred by requiring him to show “affirmative
proof of particularized prejudice” when he had
established presumptive prejudice under the first
Barker factor. Miles also contends that the court failed
to consider this presumptive prejudice in its Barker
analysis and failed to account for the other forms of
prejudice that Miles suffered—oppressive pretrial
incarceration and anxiety and concern.
Miles’s arguments are meritless. Finding actual
prejudice based on length of delay alone is the
exception, not the rule. See Doggett, 505 U.S. at 655;
see also Robinson, 455 F.3d at 608 (“In the absence of
particularized trial prejudice, delay attributable to the
government’s negligence has typically been shockingly
long to warrant a finding of prejudice.” (internal
quotation marks omitted)). And when the government
acted with reasonable diligence or the delay was for a
valid reason, a speedy-trial claim fails “no matter how
great the ensuing delay.” Robinson, 455 F.3d at 608
(citation omitted); see Doggett, 505 U.S. at 656. Even
if the government acted negligently, we have declined
to conclude that presumptive prejudice resulting from
delays similar to that experienced by Miles justified an
inference of actual prejudice. See United States v.
Jackson, 473 F.3d 660, 667–68 (6th Cir. 2007)
(collecting cases and holding that a nearly two-year
delay between a defendant’s indictment and his arrest,
attributable to the government’s negligence, did not
satisfy the actual prejudice factor of Barker); see also

17a
Barker, 407 U.S. at 533–34 (finding that “prejudice
was minimal” despite delay “well over five years”).
Nor can we conclude that the state court failed to
consider presumptive prejudice in its weighing of the
Barker factors. Applying the first Barker factor, the
Kentucky Supreme Court concluded that the 21month delay in this case was “presumptively
prejudicial.” Miles, 2009 WL 160435, at *2. The court
then held that “[u]pon consideration of all of the above
factors in Barker, we adjudge that Miles was not
denied his right to a speedy trial.” Id. at *3. We take
the Kentucky Supreme Court at its word and conclude
that the state court considered presumptive prejudice
in its Barker decision.
Finally, Miles’s other prejudice concerns are not
sufficient to invalidate the state court’s conclusion.
For one, AEDPA requires “deference to be given even
in cases, such as this one, where the state court’s
reasoning is . . . abbreviated.” Holder v. Palmer, 588
F.3d 328, 341 (6th Cir. 2009); see Johnson v. Williams,
568 U.S. 289, 300 (2013). That the state court did not
expressly weigh the two less “serious” forms of actual
prejudice, Barker, 407 U.S. at 532, does not mean that
it “arrive[d] at a conclusion opposite to that reached by
[the Supreme Court] on a question of law,” Williams,
529 U.S. at 405. Indeed, to receive AEDPA deference,
a state court does not even have to “explicitly address
the factors outlined in Barker” at all, “as long as the
court does not apply a test or standard that is contrary
to federal law.” Brown v. Bobby, 656 F.3d 325, 330
(6th Cir. 2011). In any event, Miles was already
incarcerated on other state charges while he awaited
trial on his murder charges. We have held that being
“ineligible for certain placements and programs in the

18a
state prison” because of the charges underlying a
speedy-trial claim is “not the type of prejudice
cognizable under the Sixth Amendment.” Robinson,
455 F.3d at 609. And Miles did not provide any
indication to the Kentucky Supreme Court that his
anxiety was “beyond that which is inevitable in a
criminal case.” Hakeem v. Beyer, 990 F.2d 750, 762 (3d
Cir. 1993) (internal quotation marks omitted); see
Smith v. Commonwealth, 361 S.W.3d 908, 918
(Ky. 2012); Norris v. Schotten, 146 F.3d 314, 328 (6th
Cir. 1998).
For these reasons, the Kentucky Supreme Court’s
decision was not contrary to, or an unreasonable
application of, Barker’s fourth factor.
C.
Barker’s “balancing test necessarily compels courts
to approach speedy trial cases on an ad hoc basis.” 407
U.S. at 530. Given the Barker inquiry’s generality, see
Sutton, 862 F.3d at 559, we cannot conclude that the
Kentucky Supreme Court’s decision “was so lacking in
justification” as to require habeas relief. Harrington,
562 U.S. at 103. We therefore reject Miles’s speedytrial claim.
IV.
Next, Miles asserts that his trial counsel was
ineffective by failing to object to the prosecutor’s
references to the gun found in his apartment and to
the prosecutor’s references to his nicknames in closing.
AEDPA, coupled with the Supreme Court’s decision in
Strickland v. Washington, 466 U.S. 668 (1984),
provides the proper framework for assessing these
claims. Under Strickland, Miles must show that his
counsel provided “deficient” performance that

19a
“prejudiced the defense.” Id. at 687. Prejudice
requires “a reasonable probability that, but for
counsel’s unprofessional errors, the result of the
proceeding would have been different,” id. at 694, and
a reasonable probability is a “substantial, not just
conceivable, likelihood of a different result,” Cullen v.
Pinholster, 563 U.S. 170, 189 (2011) (internal
quotation marks omitted). This standard is “highly
demanding,” Kimmelman v. Morrison, 477 U.S. 365,
382 (1986), and when, as here, an ineffectiveassistance-of-counsel claim is subject to AEDPA’s
constraints, our review is “doubly deferential,”
Knowles v. Mirzayance, 556 U.S. 111, 123 (2009).
The Kentucky Supreme Court identified and
applied Strickland, so the question is whether its
decision involved an “unreasonable application of”
Strickland or was based on an unreasonable
determination of the facts. To meet that standard,
Miles must show far more than that the state court’s
decision was “merely wrong” or “even clear error.”
Virginia v. LeBlanc, 137 S.Ct. 1726, 1728 (2017) (per
curiam) (internal quotation marks omitted). He must
show that the state court’s decision is so obviously
wrong that its error lies “beyond any possibility for
fairminded disagreement.” Richter, 562 U.S. at 103.
Congress “meant” this standard to be “difficult to
meet.” Id. at 102. And Miles has not satisfied that
standard here.
A.
Miles argues that the Kentucky Supreme Court
committed two legal errors in considering the
prejudice prong of his ineffective-assistance claim
based on failure to object to the gun. First, he contends

20a
that the court “set[] the bar higher” by applying a
harmless-error standard under its decision in Harris
v. Commonwealth, 384 S.W.3d 117 (Ky. 2012), rather
than Strickland.
This argument misreads the
Kentucky Supreme Court’s opinion. The court cited
Harris only for the proposition that “[t]he Court of
Appeals correctly noted that weapons unrelated to the
crimes charged are generally inadmissible.” Miles,
2017 WL 5504212, at *4. And that is all that the cited
portion of Harris stands for. See Harris, 384 S.W.3d
at 123–24 (collecting cases where weapons with no
connection to the crime were held to be inadmissible).
Although Harris confronted the issue of an unrelated
gun in the context of harmless-error review, the
Kentucky Supreme Court clearly applied Strickland’s
prejudice standard in Miles’s case. Miles, 2017 WL
5504212, at *2–5.
Miles also faults the state court for failing to
undertake a “probing and fact-specific” prejudice
inquiry. See Sears v. Upton, 561 U.S. 945, 955 (2010)
(per curiam). But it noted that the officer-in-charge
had admitted that the gun was not connected to
Teasley’s murder, that the jury was repeatedly
informed that the gun was unrelated to the murder,
and that the gun itself was not admitted into evidence.
To be sure, the Kentucky trial court could have done
more to ensure that the gun did not factor into the
jury’s decision, such as giving a specific curative
instruction. But the Kentucky Supreme Court clearly
understood the facts of Miles’s case and reasonably
concluded that he had not met Strickland’s prejudice
prong. This is all that is required to satisfy AEDPA
deference on this issue, so we reject this ineffectiveassistance claim.

21a
B.
Finally, Miles alleges two points of error regarding
the use of his nicknames. First, he contends the
Kentucky Supreme Court miscounted the number of
times the prosecutor referred to his nicknames, which
means its no-prejudice conclusion was based on an
unreasonable determination of fact. In arguing the
nickname issue before the Kentucky Supreme Court,
Miles relied on United States v. Farmer, 583 F.3d 131
(2d Cir. 2009), where the Second Circuit held that the
district court should not have allowed the Government
to repeatedly reference the defendant’s nickname
when “identity was not an issue,” the nickname “had
no legitimate relationship to the crimes charged,” and
it was “suggestive of a criminal disposition.” Id. at 146
(internal quotation marks omitted). The Kentucky
Supreme Court distinguished Farmer from this case
as follows:
Miles and the Court of Appeals cite cases that
found the use of an alias created so much
prejudice that it created an unfair trial. For
instance, United States v. Farmer, in which the
Second Circuit Court of Appeals found the use of
the defendant’s nickname “Murder” was overly
prejudicial. In Farmer, the court stated, “In our
prior cases, the government’s use of a defendant’s
nickname was ‘occasional’ or ‘brief and isolated.”
But Farmer’s nickname was the main rhetorical
trope used by the prosecution to address the jury
and was used no fewer than thirty times.”
Miles’s facts are distinct from those in Farmer.
Miles’s nickname was used a total of three times
after it was first mentioned in the testimony of a

22a
defense witness. The present case is a far cry
from the “rhetorical trope” in Farmer.
Miles, 2017 WL 5504212, at *3 (footnotes, brackets,
and ellipses omitted). Miles is correct that the court
miscounted the instances where the prosecutor used
his nicknames—the prosecutor used the name “Old
Gangsta” four times, not three.6 Nonetheless it is
immaterial.
Despite the state court’s miscalculation, Miles has
not shown that its prejudice finding was based on
there being only three uses of “Old Gangsta,” or that
its conclusion would have been different had it
properly considered the additional use. Even with four
uses, the prosecutor’s conduct remained a “far cry . . .
from Farmer.” Id. There, the prosecution used the
nickname “no fewer than thirty times during the
rebuttal summation in a presentation that occupies
only sixteen transcript pages.” Farmer, 583 F.3d at
147. In contrast, the prosecutor here used “Old
Gangsta” four times in a summation spanning
eighteen transcript pages. As the Kentucky Supreme
Court recognized, this case is closer to instances where
the prosecutor’s misuse of a nickname was
“occasional” or “brief and isolated” than it is to
instances were a nickname became a “rhetorical
trope.” Id. (citations omitted). Thus, the Kentucky
6
We focus on “Old Gangsta” because “Cat Daddy” is not
suggestive of criminal disposition. See Farmer, 583 F.3d at 146.
Although it is unclear why Miles was called “Cat Daddy,” there is
no indication that this nickname has a criminal connotation,
which is presumably why defense counsel was comfortable using
it in his opening statement. In addition, Miles never argued to
the state courts that his counsel should have specifically objected
to the prosecution’s use of “Cat Daddy.” Nor did he do so below.

23a
Supreme Court’s prejudice decision was not based on
an unreasonable determination of the facts in light of
the record before it. See Rice, 660 F.3d at 250.
Second, Miles again contends that the state court
failed to undertake a “probing and fact-specific”
prejudice inquiry. See Sears, 561 U.S. at 955. We
disagree. The court’s opinion shows that it had
reviewed the factual and procedural history of the case
and concluded that the nickname references “in the
context of [the] entire trial, were de minimis,” and that
“[b]elieving the reference to Miles’s nickname
somehow would have changed the course of his verdict
is speculative.” Miles, 2017 WL 5504212, at *3. This
approach and conclusion are consistent with
Strickland. Thus, the Kentucky Supreme Court’s
treatment of the nickname references survives
AEDPA review, and Miles’s ineffective-assistance-ofcounsel claim fails.7
V.
For these reasons, we affirm the district court’s
judgment and deny the pending motions.

7
After Miles filed his appeal, prison officials transferred him
from a prison located in the Western District of Kentucky to a
prison located in the Eastern District of Kentucky. We previously
concluded that this transfer “clearly violated” Federal Rule of
Appellate Procedure 23(a) because the Warden did not obtain the
district court’s permission before initiating the transfer. We deny
petitioner’s motion for a transfer without prejudice to its refiling
in the district court.

24a

APPENDIX B

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 19-5340
TERRANCE MILES,
Petitioner - Appellant,
v.

FILED
Feb 24, 2021
DEBORAH S. HUNT,
Clerk

SCOTT JORDAN, Warden,
Respondent - Appellee.

Before: COOK, GRIFFIN, and LARSEN, Circuit Judges.

JUDGMENT
On Appeal from the United States District Court
for the Western District of Kentucky at Louisville.
THIS CAUSE was heard on the record from the
district court and was argued by counsel.
IN CONSIDERATION THEREOF, it is ORDERED
that the district court’s denial of Terrance Miles’s
petition for a writ of habeas corpus is AFFIRMED.
ENTERED BY ORDER OF THE COURT
s/Deborah S. Hunt
Deborah S. Hunt, Clerk

25a

APPENDIX C

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
LOUISVILLE DIVISION
CIVIL ACTION NO. 3:17CV-00558-JHM
TERRANCE MILES

PETITIONER

VS.
SCOTT JORDAN, Warden
of Luther Luckett Correctional
Complex

RESPONDENT

ORDER
The above matter having been referred to the
United States Magistrate Judge, who has filed her
Findings of Fact and Conclusions of Law. Both
Petitioner and Respondent have filed objections.
Petitioner has also filed a motion for leave to file
supplemental objections and the Court being
sufficiently advised;
IT IS ORDERED as follows:
1. Petitioner’s motion for leave to file
supplemental objections [DN 63] is GRANTED. The
Clerk is directed to file in the record the supplemental
objections tendered with the motion.
2. Respondent’s
OVERRULED.

objections

[DN 59]

are

3. Petitioner’s
objections
[DN 61]
and
supplemental objections [DN 63] are OVERRULED.

26a
4. The Court adopts the Findings of Fact and
Conclusions of Law as set forth in the report submitted
by the United States Magistrate Judge.
IT IS THEREFORE ORDERED that the Petition
for Writ of Habeas Corpus [DN 1], Petition for Actual
Innocence [DN 23], and Motion for Summary
Judgment [DN 45] are DENIED.
IT IS FURTHER ORDERED that a Certificate of
Appealability is GRANTED as to Grounds One,
Three, Four, and Five, but DENIED as to Grounds
Two, Six, Seven, Eight, Nine, Ten, and Eleven.
Copies:
Counsel of Record
Terrance Miles

27a

APPENDIX D

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
LOUISVILLE DIVISION
CIVIL ACTION NO. 3:17CV-00558-JHM
TERRANCE MILES

PETITIONER

VS.
SCOTT JORDAN, Warden
of Luther Luckett Correctional
Complex

RESPONDENT

JUDGMENT
In accordance with the order of the Court it is
hereby ORDERED AND ADJUDGED as follows:
(1) The Petition for Writ of Habeas Corpus [DN 1],
the Petition for Actual Innocence [DN 23], and the
Motion for Summary Judgment [DN 45] are
DISMISSED with prejudice and judgment is entered
in favor of Respondent.
(2) A Certificate of Appealability is GRANTED as
to Grounds One, Three, Four, and Five but DENIED
as to Grounds Two, Six, Seven, Eight, Nine, Ten, and
Eleven pursuant to 28 U.S.C. § 2254; and
(3) This is a FINAL judgment and the matter is
STRICKEN from the active docket of the Court.

28a

Copies:

Counsel
Terrance Mile

29a

APPENDIX E

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
LOUISVILLE DIVISION
CIVIL ACTION NO. 3:17CV-00558-JHM-RSE
TERRANCE MILES

PETITIONER

VS.
SCOTT JORDAN, Warden
of Luther Luckett Correctional
Complex

RESPONDENT

Findings of Fact, Conclusions of Law
and Recommendation
Terrance Miles (“Miles”) is a Kentucky prisoner
presently serving a 50-year sentence following
convictions for the murder of Michael Teasley, for
first-degree wanton-endangerment, for tampering
with physical evidence, and for being a second-degree
persistent felony offender. Miles has now filed a pro
se petition for writ of habeas corpus pursuant to 28
U.S.C. § 2254. (DN 1). Respondent Scott Jordan
(“Warden”) has responded (DN 16), and Miles has filed
a reply (DN 20). Miles has also filed several motions
related to his petition, including a “petition for
declaration of actual innocence and to rebut the state
court’s presumption of correctness” (DN 23) and a
motion for summary judgment (DN 45).
The District Judge referred this matter to the
undersigned United States Magistrate Judge

30a
pursuant to 28 U.S.C. §§ 636(b)(1)(A) and (B) for
rulings on all non-dispositive motions; for appropriate
hearings, if necessary; and for findings of fact,
conclusions of law, and recommendations on any
dispositive matter. (DN 7). These matters are ripe for
review.
***
innocence is speculative at best, and the Court
concludes it is not required to provide discovery
because Miles has not demonstrated that if the facts
were fully developed he would be able to demonstrate
he is entitled to relief. Miles’ request for discovery
should, once more, be denied.
III. Merits Evaluation
Miles’ Claim from Direct Appeal
Claim 1: Violation of the Right to Speedy Trial
Approximately twenty-one months passed from the
time Miles was indicted in March of 2005 to the time
of his trial in December of 2006. In Claim 1, Miles
argues this delay violated the Sixth Amendment’s
guarantee of a speedy trial. Miles raised this claim on
direct appeal, but the Kentucky Supreme Court denied
relief, finding no violation of Miles’ right to a speedy
trial under Barker v. Wingo, 407 U.S. 514, 92 S. Ct.
2182, 33 L. Ed. 2d 101 (1972). Miles, 2009 WL 160435,
at *2–3.
In Barker, the Supreme Court established a fourfactor test for evaluating whether a defendant’s Sixth
Amendment right to a speedy trial has been violated:
(1) the length of the delay; (2) the reason for the delay;
(3) the defendant’s assertion of his right; and
(4) prejudice to the defendant. 407 U.S. at 530. None

31a
of these factors is “a necessary or sufficient condition
to the finding of a deprivation of the right of speedy
trial. Rather, they are related factors and must be
considered together with such other circumstances as
may be relevant.” Id. at 533.
The first factor, the length of the delay, is a
threshold requirement. See Maples v. Stegall, 427
F.3d 1020, 1025 (6th Cir. 2005). If the length of the
delay is not “uncommonly long,” then the judicial
inquiry ends. Doggett v. United States, 505 U.S. 647,
652, 112 S. Ct. 2686, 120 L.Ed.2d 520 (1992). The
length of the delay is measured from either the date of
the indictment or the date of the arrest, whichever is
earlier. See United States v. Marion, 404 U.S. 307, 320,
92 S. Ct. 455, 30 L.Ed.2d 468 (1971). A delay
approaching one year is presumptively prejudicial and
triggers application of the remaining three factors.
Doggett, 505 U.S. at 652 n.1. Here, Miles suffered a
delay of twenty-one months from the time of his
indictment to the time of his trial, and the Warden
does not dispute that this period meets the
“uncommonly long” standard. Because this period of
delay is presumptively prejudicial, examination of the
other three factors is warranted.
The second Barker factor requires consideration of
the reason for the delay.
Some reasons, like
government delays motivated by bad faith,
harassment, or attempts to seek a tactical advantage,
weigh heavily against the government; while “more
neutral” reasons, like negligence or overcrowded
dockets weigh less heavily against the state. Maples,
427 F.3d at 1026 (citing United States v. Schreane, 331
F.3d 548, 553–54 (6th Cir. 2003) (citing cases)). Valid
reasons for a delay, such as locating witnesses or

32a
resolving a defendant’s pretrial motions—weigh
against a violation. Barker, 407 U.S. at 531. The
inquiry is geared at determining “whether the
government or the criminal defendant is more to
blame for [the] delay.” Doggett, 505 U.S. at 651.
In this case, the sole reason for the twenty-onemonth delay was that the Commonwealth sought
multiple continuances in trial for forensic testing on a
toboggan hat found at the crime scene to be completed.
During three pre-trial hearings, held on March 3, 2006,
April 11, 2006, and September 26, 2006, the
Commonwealth represented to the court that the lab
had not completed forensic testing on the hat. The
Commonwealth indicated the DNA testing of the hat
was a vital piece of evidence which could prove to be
either inculpatory or exculpatory. Miles, 2009 WL
160435, at *2. Ultimately, after waiting months for
the results, the DNA on the toboggan hat was not a
match for Miles and did not assist the
Commonwealth’s case against him.
Miles argues the Commonwealth’s delay was in bad
faith since it sought a tactical advantage in testing the
DNA of the toboggan hat from the crime scene. (DN
1-2, at p. 2). Miles feels that the Commonwealth
committed perjury and flagrant prosecutorial
misconduct by attempting to justify its delay of trial
by waiting on the “critical” DNA evidence from the
toboggan hat but then later eliciting testimony from
law enforcement at trial stating that the
Commonwealth never believed the hat had anything
to do with the case, after learning the DNA from the
hat did not match Miles. (Id. at p. 3). The Warden
argues that Miles’ trial counsel agreed at the pre-trial
hearings that the hat was crucial evidence, whether it

33a
was inculpatory or exculpatory, and stated no
objection to having the hat tested. (DN 16, at pp. 29–
30). Further, the Warden asserts that once the hat
tested negative for Miles’ DNA, the Commonwealth
had no choice but to minimize the evidentiary value
of the hat at trial. (Id.).
At first blush this factor appears to weigh both for
and against the Commonwealth. On the one hand, the
Commonwealth’s decision to repeatedly continue the
case to test the toboggan hat for DNA evidence is a
valid reason for delay since the results of this “crucial
evidence” could have favored either party. On the
other hand, the Court agrees that three continuances,
resulting in a twenty-one-month period between
indictment and trial, to test one piece of evidence is
problematic. Even so, Miles has not proven that the
Commonwealth acted in bad faith in having this
evidence tested. The evidence of the toboggan hat
ended up being detrimental to the prosecution’s case
and, if anything, made proving its case beyond a
reasonable doubt more difficult. Additionally, Miles’
characterization that the Commonwealth gave
conflicting statements at trial regarding whether it
believed the hat had anything to do with the case is
somewhat flawed. When the prosecution questioned
Detective Ashby on direct examination about locating
and testing the hat, Detective Ashby stated that he
sent the hat off for testing because the Commonwealth
asked him to, not because he thought it was used in
the crime. (DN 17, Trial Tape 1, 12-13-06, 12:52:38–
12:55:00). This testimony reveals that the prosecution
and law enforcement disagreed as to the potential
relevancy of the hat to the crime but does not
demonstrate that the Commonwealth committed

34a
misconduct by requesting the hat be tested. Although
this factor can cut both ways, it weighs more in favor
of the Commonwealth because the “reason for the
delay” was valid and neutral and does not appear to be
motivated by bad faith, as Miles alleges.
The third Barker factor is whether the defendant
asserted his speedy trial right. This factor “is entitled
to strong evidentiary weight” because “[t]he more
serious the deprivation, the more likely a defendant is
to complain.” Barker, 407 U.S. at 531–32. Miles sent
a pro se letter to the trial court on November 25, 2005,
roughly nine months after he was indicted, asserting
his Sixth Amendment right to speedy trial. The next
month, Miles’ trial counsel made a motion for speedy
trial under the Kentucky Constitution and the Sixth
Amendment of the U.S. Constitution. Then, in
September of 2006, Miles filed a pro se motion to
dismiss the indictment pursuant to KRS § 500.110.
The Kentucky Supreme Court noted in its decision
that “defense counsel did not initially object to the
motions for continuance based on the testing of the hat
not being completed.” Miles, 2009 WL 160435, at *3.
The Court notes, however, that at the April 11, 2006
pre-trial conference, Miles’ counsel indicated to the
Court that the Commonwealth was not offering
justification for its delay and that Miles was ready for
his day in Court. Because Miles asserted his rights on
at least four occasions, whether pro se or through
counsel, this factor weighs in favor of Miles.
The final Barker factor requires the defendant to
show that “substantial prejudice” resulted from his
delayed trial. The Supreme Court has identified three
relevant forms of prejudice in speedy trial cases: (1)
“oppressive pretrial incarceration”; (2) “the anxiety

35a
and concern of the accused”; and (3) “‘the possibility
that [the accused’s] defense will be impaired’ by
dimming memories and loss of exculpatory evidence.”
Doggett, 505 U.S. at 654 (quoting Barker, 407 U.S. at
532). Of these three forms, “the most serious is the
last, because the inability of a defendant adequately to
prepare his case skews the fairness of the entire
system.” Barker, 407 U.S. at 532.
Miles claims that he suffered from all three forms of
prejudice due to the twenty-one-month delay. First,
Miles states that the pending indictment prevented
him from going to a halfway house, working in the
community, and participating in rehabilitation
programs for his unrelated parole violation. (DN 1-2,
at p. 4). Second, the delay allegedly caused him
psychic injury because as time went by his anxiety
increased, requiring higher dosages of Paxil for
anxiety and Elavil for depression and sleep
deprivation from his psychiatrist. (Id. at p. 5). And
finally, Miles claims that because of the delay, he lost
a key witness that was planning to testify at trial,
Steven James Edwards. (Id. at pp. 5–6). Miles
explains that Edwards passed away in a motorcycle
accident on June 25, 2006, and would have testified
that: “Miles rented him a rental car; that he was at
the club and saw the shooting; that the shooter ran in
a different direction than alleged by the
Commonwealth & that Miles was wearing all tan the
night of the crime, amongst other testimony.” (Id. at
p. 6). Miles submits an affidavit outlining the
testimony that Edwards would allegedly have
presented at trial. (DN 1-3, at pp. 14–15).
None of this evidence is sufficient to satisfy the
prejudice required under Barker and Doggett. As for

36a
his pretrial incarceration, Miles was already being
held in prison on other charges and the indictment in
this case only caused him “to be housed in a more
secure facility” and prevented his participation “in
programs for rehabilitation.” (See DN 16, at p. 30
(citing DN 16-2, at Page ID # 300) While it is true that
delays may prejudice a defendant by adversely
affecting the conditions of confinement, period of
incarceration, or opportunities for rehabilitation,” see
Smith v. Hooey, 393 U.S. 374, 89 S. Ct. 575, 89 S. Ct.
575, 21 L. Ed. 2d 607 (1969); see also Strunk v. United
States, 412 U.S. 434, 439, 93 S. Ct. 2260, 37 L.Ed.2d
56 (1973), Miles fails to demonstrate that had he not
been indicted in this case that he would have qualified
for the rehabilitation privileges, such as entry into a
halfway house, that he presently asserts.
Nor is Miles’ argument regarding his “anxiety and
concern” persuasive. To establish prejudice based on
anxiety and concern over the outcome of the litigation,
a petitioner must show that his anxiety extended
beyond that which “is inevitable in a criminal case.”
Hakeem v. Beyer, 990 F.2d 750, 762 (3d Cir. 1993)
(quoting United States v. Dreyer, 533 F.2d 112, 116 (3d
Cir. 1976)). Vague allegations of anxiety are
insufficient to establish prejudice. Id. Instead, a
petitioner must establish evidence of a “psychic injury.”
Id. (citing Dreyer, 533 F.2d at 115–16). Other than
Miles’ bare assertions that his anxiety increased,
requiring higher dosages of medication, there is no
evidence of unusual anxiety or concern which extends
beyond that inevitable in a criminal prosecution and,
therefore, no meaningful prejudice to consider.
The real crux of Miles’ prejudice argument lies in
the third “form of prejudice,” the allegation that his

37a
defense was impaired by a trial that did not begin until
December of 2006. Miles believes his defense was
damaged because a key witness, Steven James
Edwards, passed away in June of 2006, while Miles’
trial was delayed. A defendant can suffer prejudice
from a delayed trial if witnesses are no longer
available to testify. See, e.g., Dixon v. White, 210 F.
App’x 498, 502 (6th Cir. 2007); Maples v. Stegall, 427
F.3d 1020, 1034 (6th Cir. 2005). Unfortunately, the
Court can only rely on Miles’ own statements as to the
content of Edwards’ testimony as Miles never obtained
a declaration from Edwards or otherwise attempted to
preserve Edwards’ testimony. See Rennie v. Martin,
No. 2:09-cv-698-WBS TJB, 2011 WL 4006575, at *16
(E.D. Cal. Sept. 8, 2011).
Furthermore, as noted by the Kentucky Supreme
Court, the only references made to Edwards before the
trial were in a March 2007 motion to dismiss
indictment for a speedy trial violation and as an alias
for Miles, and no subpoenas were issued for Edwards’
appearance at either of the two trial dates prior to
Edwards’ death. Miles, 2009 WL 160435, at *3. Also
noteworthy is the fact that Miles did not submit any of
Edwards’ alleged proposed testimony to the Kentucky
Court of Appeals. Id.
Now Miles has explained in an affidavit what he
believes Edwards’ testimony would have been and why
such testimony was crucial to his defense. Miles
swears that Edwards agreed before his death to testify
that Miles did not shoot Teasley and that he saw the
actual shooter kill Teasley and then run eastbound
and jump the fence around the rear of Club 502. (DN
1-3, at pp. 14–15). Although it may be true that Miles’
inability to call Edwards as a witness at trial hurt his

38a
defense, Miles cannot prove that he suffered actual
prejudice because of Edwards’ death during the period
of delay.
In light of the split between the four Barker factors,
the Court cannot find the Kentucky Supreme Court’s
denial of Miles’ speedy trial claim was an
unreasonable application of clearly established federal
law. Speedy trial determinations are a “slippery” and
“difficult and sensitive balancing process” that cannot
be quantified into a specified number of days or
months.” Barker, 407 U.S. at 522–23. Two of the
speedy trial factors, the first and the third, weigh in
favor of a violation. But the first of these is simply a
threshold factor. While the other two factors, the
second and the fourth, weigh against a violation.
Again, on balance, the Court cannot say that the
Kentucky Supreme Court unreasonably applied
federal law in denying Miles’ claim. See Bowling v.
Parker, No. 03-28-ART, 2012 WL 2415167, at *31 (E.D.
Ky. June 26, 2011) (finding no speedy trial violation
when second and fourth factors weighed against
violation) (citing Brown v. Bobby, 656 F.3d 325, 337
(6th Cir. 2011); United States v. Love, 178 F.3d 1279,
1999 WL 115523, at *6–8 (6th Cir. Feb. 8, 1999)). As
a result, the Court recommends that Miles be denied
relief as to Ground One in his petition.
Miles’ RCr 11.42 Ineffective Assistance of
Counsel Claims
Next, Miles challenges the Kentucky Supreme
Court’s ruling on the seven ineffective assistance of
counsel claims he raised in his RCr 11.42 motion.
Claims of ineffective assistance of counsel are
evaluated under Strickland v. Washington, 466 U.S.

39a
668, 687, 104 S. Ct. 2052, 80 L.Ed.2d 674 (1984). To
establish ineffective assistance of counsel, a defendant
must show deficient performance and resulting
prejudice. Knowles v. Mirzayance, 556 U.S. 111, 122,
129 S. Ct. 1411, 173 L.Ed.2d 251 (2009); Strickland,
466 U.S. at 687. The performance inquiry requires the
defendant to “show that counsel’s representation fell
below an objective standard of reasonableness,” and
the court “must judge the reasonableness of counsel’s
challenged conduct on the facts of the particular case,
viewed as of the time of counsel’s conduct.” Strickland,
466 U.S. at 688, 690. Surmounting Strickland’s high
performance bar is never an easy task. Premo v. Moore,
562 U.S. 115, 122, 131 S. Ct. 733, 178 L.Ed.2d 649
(2011) (quoting Padilla v. Kentucky, 559 U.S. 356, 371,
130 S. Ct.1473, 1485, 176 L.Ed.2d 284 (2010)). When
the Court assesses counsel’s performance, it must
make every effort to “eliminate the distorting effects of
hindsight, to reconstruct the circumstances of
counsel’s challenged conduct, and to evaluate the
conduct from counsel’s perspective at the time.”
Strickland, 466 U.S. at 689. “The question is whether
an
attorney’s
representation
amounted
to
incompetence under prevailing professional norms,
not whether it deviated from best practices or most
common custom.” Harrington v. Richter, 562 U.S. 86,
88, 131 S. Ct. 770, 178 L.Ed.2d 624 (2011).
Establishing the required prejudice is a likewise
high bar. The prejudice inquiry compels the defendant
“to show that there is a reasonable probability that,
but for counsel’s unprofessional errors, the result of
the proceeding would have been different.” Strickland,
466 U.S. at 694. “A reasonable probability is a
probability sufficient to undermine confidence in the

40a
outcome.” Id. The Court need not conduct the twoprong inquiry in the order identified above or even
address both parts of the test if the defendant makes
an insufficient showing on one part. Id. at 697.
Claim 2: Counsel’s Failure to Call Heather St.
Clair to Testify at Trial
In his RCr 11.42 motion, Miles argued his trial
counsel performed deficiently in failing to call Heather
St. Clair to testify at trial. (DN 16-2, at Page ID #384–
86). The trial court found that Miles’ trial counsel
made a deliberate decision not to call St. Clair based
on trial strategy rather than a lack of preparation or
forgetfulness. (DN 16-3, at Page ID #453). The
Kentucky Court of Appeals affirmed this decision,
stating that the “evidence submitted at the
evidentiary hearing supports the trial court’s finding
that trial counsel did not call St. Claire [sic] . . . as [a]
witness as a matter of trial strategy because [her]
testimony was not in accordance with the defense
strategy being pursued.” (Id. at Page ID # 544). On
appeal, the Kentucky Supreme Court once again found
that Miles’ trial counsel’s failure to call St. Clair as a
witness was not error. (DN 16-4, at Page ID # 747–48).
The Kentucky Supreme Court noted that:
At Miles’ RCr 11.42 evidentiary hearing, trial
counsel testified that he purposely chose not to
call St. Clair to testify. He stated that he initially
believed St. Clair’s testimony would be helpful to
the defense, but after the bond hearing he came
to believe that calling her as a witness at trial
would be inconsistent with the defense theory
presented at trial. Furthermore, trial counsel
testified that as proof unfolded at trial, he

41a
believed St. Clair’s testimony to be less valuable
than at the bond hearing because of the alleged
inconsistencies.
While one can speculate on the possible value of
St. Clair’s testimony at trial, we must resist the
temptation to devise trial strategy with the
benefit of hindsight. Given our strong deference
to a trial attorney’s decision to call certain
witnesses, and the fact that Miles did not show
that failure to call St. Clair was either deficient or
prejudicial to his case, we find no error.
(Id.).
In his present motion for habeas relief, Miles argues
that the Kentucky Supreme Court’s decision was an
unreasonable application of Strickland because it used
an incorrect standard of review. (DN 1-2, at pp. 10–
11). Although Miles concedes that trial counsel made
a strategic trial decision, he believes it was
unreasonable trial strategy, in violation of Strickland.
(DN 20, at p. 3). The Court does not agree. The
Strickland standard includes the strong presumption
that counsel’s strategic decisions and performance
were reasonable. Bigelow v. Williams, 367 F.3d 562,
570 (6th Cir. 2004). Counsel’s strategic decisions
regarding what witnesses to call at trial are “virtually
unchallengeable.” Awkal v. Mitchell, 613 F.3d 629,
641 (6th Cir. 2010). Here, Miles has made only a bald
unsupported assertion that his trial counsel’s failure
to call St. Clair at trial was not reasonable.
During the evidentiary hearing, Miles’ trial counsel
explained that Miles was very active in the
preparation and presentation of his defense and that
they had considered “a number of different theories of

42a
defense[.]” (DN 17, Trial Tape 2 Evidentiary Hearing,
6-03-10, 10:36:01–10:36:26). He further explained
that although he originally believed St. Clair’s
testimony from the bond hearing would be favorable to
Miles, after hearing the proof at trial, he felt calling
her as a witness would be inconsistent with what he’d
presented to the jury as the theory of their defense. (Id.
at 10:36:37–10:37:18). While Miles’ trial counsel
admitted that it would have been favorable to call St.
Clair as a witness at trial and that “two or three
defenses may be better than one even if they are
inconsistent” (Id. at 10:38:46–10:45:26), the Court
must assess his performance without the distorting
effects of hindsight. See Strickland, 466 U.S. at 689.
Under these circumstances, Miles’ counsel’s decision
to not call St. Clair at trial was the type of reasonable
strategic decision this Court does not second guess on
appeal.9
Because Miles has not proven that his trial counsel’s
conduct was objectively unreasonable, the Court
declines to address whether he was prejudiced by his
conduct. See Sowell v. Bradshaw, 372 F.3d 821, 838
Miles also alleges the Kentucky Supreme Court’s decision
was contrary to, and an unreasonable application of, Cullen v.
Pinholster, 563 U.S. 170 (2011) because he believes Pinholster
should not have applied to state court review of state court
collateral proceedings. (DN 1-2, at pp. 11–12). The Kentucky
Supreme Court, however, merely cited to Pinholster for the
proposition that a court reviewing an ineffective assistance of
counsel claim should “affirmatively entertain the range of
possible reasons [trial] counsel may have had for proceeding as
they did.” Miles v. Commonwealth, 2017 WL 5504212, at *5
(quoting Pinholster, 563 U.S. at 196). The Kentucky Supreme
Court did not err in citing to United States Supreme Court law in
evaluating a constitutional claim.
9

43a
(6th Cir. 2004) (“The Court is not required to address
both components of Strickland if one component fails”).
Accordingly, the Kentucky Supreme Court’s
evaluation of Miles’ claim was not contrary to or an
unreasonable application of Strickland, and the Court
recommends relief be denied as to this claim.
Claim 3: Counsel’s Failure to Object to
Miles’ Alias
Miles next argued on state court collateral review
that his trial counsel rendered ineffective assistance
by failing to object to multiple references to his
prejudicial nickname/alias. (DN 1-2, at p. 13). The
first of these references came from defense witness
Vernon Davis on cross-examination when asked if he
knew Miles’ nickname, to which Davis responded: “I
know what people call him, some people call him
Terrance, some people call him “OG,” Original
Gangster I guess. We call him Cat Daddy.” (DN 17,
Trial Tape 2, 12-14-2016, 11:02:45). Then during
closing arguments, the prosecution made multiple
references to Miles’ nicknames:
They’re not going to kick him out, it’s his club. He’s
Cat Daddy, Old Gangster. He gets back in. He’s
angry. . .
What’s his state of mind? He’s known by Cat Daddy.
He’s known by Old Gangster. That night was
different. He was publicly humiliated. His motive
was revenge and that is a powerful motive . . . .
What do you know about Cat Daddy? You know he’s
5’10. You know he’s got a lean build . . . You know
he had the motive for revenge . . .
We’ve got the hat . . . we want to distance ourselves
from the hat. . . . It’s covered in leaves, it’s covered

44a
in crusty old dirt. Do you think Cat Daddy’s gonna
be wearing this thing to the club? . . .
He was killed because Cat Daddy got his feelings
hurt. That’s why he was killed, for no reason at
all . . .
Who dunnit? The evidence points to the man with
the black on, the man that had the motive, the man
who fits the identification to a T. It points to Cat
Daddy. It points to Old Gangster. Who dunnit?
He’s sitting right there.
(DN 17, Tape 2, 12-14-06, 13:48:50; 13:52:32–13:52:52;
14:12:40–14:13:00, 14:14:15; 14:15:25). Because these
nicknames were not needed to identify him or connect
him to the crimes charged, Miles argued he was
prejudiced by his counsel’s failure to object. (DN 16-1,
at Page ID# 403–04).
The trial court ruled that this evidence did not
prejudice Miles’ substantial rights considering the
totality of the proof. (DN 16-3, at Page ID # 455). The
Kentucky Court of Appeals reversed, finding that
flagrant prosecutorial misconduct occurred during
closing argument when the prosecution referred to
Miles as “Old Gangster” because these references
tended to “mislead and prejudice Miles by inviting the
jury to find him guilty based on protecting his gangster
reputation[.]” (Id. at Page ID # 541). “[W]hile the
remarks were somewhat isolated,” the Kentucky
Court of Appeals noted, “they were deliberately placed
before the jury and the evidence against Miles was
relatively weak.” (Id. at Page ID #541–42). The court
concluded that Miles’ trial counsel’s failure to object to
the Commonwealth’s references to Miles as “Old

45a
Gangster” constituted ineffective assistance of counsel.
(Id. at Page ID # 542).
On appeal, the Kentucky Supreme Court reversed
the Kentucky Court of Appeals’ decision, finding the
cases cited by Miles and the lower court to be
distinguishable. Commonwealth v. Miles, 2017 WL
5504214, at *3. Specifically, the Kentucky Supreme
Court discussed how in Farmer v. Commonwealth, a
Second Circuit case, the defendant’s nickname of
“Murder” was found to be overly prejudicial because it
was a “rhetorical trope” used by the prosecution to
address the jury no fewer than thirty times. Id. (citing
Farmer v. Commonwealth, 583 F.3d 131, 146 (2d Cir.
2009)). The Kentucky Supreme Court contrasted that
Miles was only referred to as “Old Gangster” three
times during closing arguments, a “far cry from the
‘rhetoric trope’ in Farmer.” Id. While the Kentucky
Supreme Court agreed that use of a nickname
suggesting criminal activity can be prejudicial, it
found that Miles failed to show the Commonwealth’s
use of “Old Gangster” prejudiced his case under
Strickland. Id. The court concluded the comments “in
the context of the entire trial, were de minimis” and
that “[b]elieving the reference to Miles’ nickname
somehow would have changed the course of his verdict
is speculative.” Id.
Presently Miles asserts that the Kentucky Supreme
Court unreasonably applied Strickland in finding the
Commonwealth’s use of his nickname “Old Gangster”
did not prejudice his case in any way. (DN 1-2, at p.
15). Miles also claims the Kentucky Supreme Court
made an unreasonable determination of the facts by
finding the Commonwealth’s use of his nickname was
“isolated” when the Commonwealth elicited it from a

46a
witness on cross-examination, posted it on a projection
screen during its closing argument, and repeatedly
referred to Miles by the nickname during closing
argument. (Id.). Because the evidence in his case was
“circumstantial and ‘relatively weak,’” Miles states
that the prosecution’s use of his nickname was
especially detrimental to his case. (DN 20, at p. 4).
The Warden emphasizes that the prosecution only
mentioned Miles’ nicknames briefly for a few seconds
in closing arguments and not for any improper
purpose. (DN 16, at p. 34). According to the Warden,
the prosecution referenced Miles’ nicknames in
connection with Miles’ “state of mind and motive to
exact revenge” rather than to link Miles to other
crimes or argue he was a gang member. (Id. at p. 35).
The Warden asserts that fair minded jurists could find
there was no prejudice from these references. (Id.).
After reviewing the trial tapes and the state court
record, the Court finds the Kentucky Supreme Court
did not unreasonably apply Strickland in determining
that use of Miles’ nicknames, specifically “Old
Gangster,” did not prejudice his case. In Farmer, the
Second Circuit explained that if a nickname [is]
strongly ‘suggestive of a criminal disposition,’ and a
propensity to commit particularly heinous crimes,
including the very offenses charges in the indictment,”
then such a nickname might violate Rule 404(a).
United States v. Farmer, 583 F.3d 131, 146 (2d Cir.
2009) (quoting United States v. Dean, 59 F.3d 1479,
1492 (5th Cir. 1995)). But the “main problem” with
the use of a potentially prejudicial nickname arises
from the “prosecutors’ frequently repeated, gratuitous
invocation of [the] nickname in . . . address[ing] . . . the
jury, uttered in a context that, in effect, invite[s] the

47a
jurors to infer that the defendant earned his nickname
among his . . . colleagues as a result of his proclivity to
commit” the charged crime. Id. at 146–47. Even then,
the “misuse and overuse of [a] nickname” does not
“lead us to vacate a conviction unless the defendant
suffered ‘substantial prejudice, by so infecting the trial
with unfairness as to make the resulting conviction a
denial of due process.’” Id. at 147 (quoting United
States v. Shareef, 190 F.3d 71, 78 (2d Cir. 1999)).
The concerns articulated in Farmer are not present
here. While the Court recognizes that the nickname
“Old Gangster” or “Original Gangster” signals a
criminal background or history, its prejudicial impact
is more limited than that associated with the alias
“Murder” in Farmer.
Moreover, Miles has not
demonstrated any criminal connotation associated
with the nickname “Cat Daddy.” The defendant in
Farmer was on trial for murder and, under those
circumstances, it was considerably more likely that
the jury would infer, solely from that nickname, that
he was guilty of the charged crime. 583 F.3d at 146.
The prosecution’s three references to Miles as “Old
Gangster” and six references to Miles as “Cat Daddy”
during its closing argument do not rise to the “rhetoric
trope” in Farmer, wherein the United States referred
to the defendant as “Murder” over 30 times to the jury
in its rebuttal argument alone. 583 F.3d at 146.
Accordingly, the Court cannot say that the
Kentucky Supreme Court unreasonably applied
Strickland in finding that counsel’s failure to object to
the prosecution’s use of his nicknames did not
constitute prejudice because these references had a de
minimis effect in the context of the entire trial. These
are not circumstances in which an objection to the

48a
prosecution’s use of “Old Gangster” three times would
have had a reasonable probability of altering the
result of the proceeding, as required by Strickland.
See United States v. Price, 443 F. App’x 576, 579 (2d
Cir. 2011).
Claim 4: Counsel’s Failure to Object to
Testimony Regarding Inadmissible Gun
Miles also argued in his RCr 11.42 motion that his
counsel erred by failing to object to the prosecution
introducing evidence of a gun unrelated to Teasley’s
murder. (See DN 16-2, at p. 122). The Commonwealth
first mentioned this gun during its opening argument,
stating that in searching Charles Brown’s apartment,
where Miles had stayed and had a key to, police
located “a gun under the mattress, which they later
found was not the same gun used in the murder . . but
he did in fact have a gun.” (DN 17, Tape 1, 12-12-06,
13:32:42).
The Commonwealth made further
references to the same gun during Detective Chris
Ashby’s testimony and showed a photo of the gun
under his mattress to the jury. (DN 17, Tape 2, 12-1306, 13:11:10, 13:56:25). Miles’ counsel did not make
any objection until the Commonwealth moved to
submit the photograph of the gun as an exhibit and
the trial judge asked if Miles’ counsel had any
objections. Even though the trial court sustained
Miles’ counsel’s objection, Miles argues the “damage
was done” because the Commonwealth painted him in
a negative light and inflamed the jury into believing
he was involved in criminal activity. (DN 16-2, at p.
22).
The Kentucky Court of Appeals agreed with Miles,
finding that his trial counsel “was ineffective for

49a
allowing the introduction of evidence about his gun,
which was excluded from being the murder weapon.”
(DN 16-3, at p. 15). The court followed Harris v.
Commonwealth, 384 S.W.3d 117, 123–24 (Ky. 2012),
noting that “even though the jury was repeatedly
informed the gun was unrelated to the murder, the
prosecutor’s deliberate elicitation of testimony about
the gun, in conjunction with other inadmissible
evidence about Miles’ nickname was used to paint him
as a criminal and could allow a conviction based upon
a gun-wielding-gangster reputation, rather than
based on the evidence relating to the crimes charged.”
(Id. at p. 16). The Kentucky Court of Appeals
concluded that Miles’ counsel’s failure to bring a
motion in limine to exclude mention of the gun was
prejudicial when considered in conjunction with other
errors. (Id.).
On discretionary review, the Kentucky Supreme
Court reversed. While the court agreed with the lower
court’s determination that the gun was irrelevant, it
found introduction of the gun resulted in no prejudice
to Miles for three reasons. (DN 16-4, at Page ID # 746).
First, on cross-examination Detective Ashby admitted
the gun in question was not connected to Teasley’s
murder. Second, the Court of Appeals had stated in
its opinion that “the jury was repeatedly informed the
gun was unrelated to the murder.” And third, the gun
itself was not allowed into evidence. Because Miles
couldn’t prove prejudice, the Kentucky Supreme Court
found it was not necessary to address the first prong
of Strickland. (Id.).
Now, Miles claims the Kentucky Supreme Court
unreasonably applied Strickland in finding that Miles
failed to show prejudice from the introduction of the

50a
gun. (DN 1-2, at p. 19). Although the gun was not
admitted into evidence, Miles explains that the
inadmissible picture led the jury to believe Miles was
a bad, dangerous person. The evidence regarding the
gun, coupled with the Commonwealth’s references to
him as “Old Gangsta,” Miles argues, painted a
reputation supporting a conviction in this case. (Id.).
Miles believes that a juror hearing he had a gun under
his mattress could have been the deciding factor in
convicting him when the juror otherwise would have
acquitted. (Id.). The Warden argues the Kentucky
Supreme Court’s application of the prejudice prong of
Strickland
was
not
unreasonable
because
“[f]airminded jurists could conclude there was no
reasonable probability the results of the trial would
have been different absent testimony about the gun.”
(DN 16, at p. 36). Once again, Miles argues in reply
that because the evidence in his case was
circumstantial and “relatively weak,” evidence of the
unrelated gun prejudiced his case. (DN 20, at p. 5).
Miles’ argument is not persuasive. As explained
above, establishing prejudice under Strickland is not
an easy task. While Miles is correct that evidence of
the handgun was irrelevant to the case, he falls short
of proving the outcome of his trial would have been
different had his counsel lodged further objections to
such evidence. The Commonwealth made clear that
this gun was not connected to Teasley’s murder, and
when the Commonwealth attempted to enter the
photograph of the gun into evidence, Miles’ counsel
objected, and the trial court sustained the objection.
The Kentucky Supreme Court’s well-reasoned
determination that Miles has not shown any
cognizable prejudice is on par with the applicable

51a
principles of Strickland and its progeny and is
grounded in a reasonable determination of the facts.
Further,
the
Kentucky
Court
of
Appeals’
determination was based not only on a finding of
prejudice relating to the introduction of this gun, but
also relating to the testimony regarding Miles’
nicknames, which this Court has already rejected.
Accordingly, the Court recommends Miles be denied
federal habeas relief with respect to this claim.
Claim 5: Counsel’s failure to object to
Detective Ashby’s testimonial hearsay
Miles next claims that his trial counsel failed to
object to testimonial hearsay given by Detective Ashby.
Miles specifically takes issue with Detective Ashby’s
affirmative response when the prosecution asked
whether he had shown Reggie Burney a photo pack
and asked if he could identify Mr. Miles as being the
person who fought with Michael Teasley earlier in the
evening. (DN 1-2, at Page ID # 105 (citing Trial Tape
1, 12-13-06; 14:09:50)). The Kentucky Court of
Appeals found that “if trial counsel had properly
objected to this testimony, it would have been excluded
as inadmissible hearsay and violating the
confrontation clause.” (DN 16-3, at Page ID #543–44
(citing Kentucky Rules of Evidence 801A(a), 804(a);
Flatt v. Commonwealth, 468 S.W.2d 793, 794–95 (Ky.
1971)).
Although other eyewitness testimony
identified Miles as fighting with Teasley earlier, the
Court of Appeals determined that “when considered in
conjunction with previous errors,” it could not be
considered harmless. Id.
The
Kentucky
Supreme
Court
disagreed,
highlighting the Court of Appeals’ sparse analysis on

52a
the issue. (DN 16-4, at Page ID # 744). The Kentucky
Supreme Court indicated that Miles again failed to
demonstrate prejudice because other eyewitness
testimony at trial identified him as the individual who
fought Teasley earlier on the night of the murder. (Id.
at Page ID # 745). One of those witnesses was Officer
Hill, who testified that he observed Miles and Teasley
in the altercation earlier in the evening and “that he
believed the same individual was the one he saw
running from the scene of the shooting.” (Id.). Based
on this information, the Kentucky Supreme Court
found that Detective Ashby’s testimony was not of
such a nature that Miles was denied effective
assistance of counsel. (Id. at Page ID #744).
Now, Miles argues the Kentucky Supreme Court
unreasonably applied Strickland by only addressing
the prejudice prong and because it only identified
Officer Hill as “other eyewitness testimony.” (DN 1-2,
at p. 21). Miles claims that Ashby’s testimony that
Burney picked Miles out as being in a fight with the
victim was “very prejudicial.” (Id.). The Warden
responds that numerous eyewitnesses at trial,
including Frank Hill, Crystal Teasley, and Jesse
Savage all identified Miles as the individual who
fought with Teasley earlier on the night of his murder
and that Miles himself admitted to fighting with
Teasley when he testified at his evidentiary hearing.
(DN 16, at pp. 36–37).
Once again, this Court finds the Kentucky Supreme
Court did not unreasonably apply Strickland by
addressing only the prejudice prong because a
reviewing court is not required to “address both
components of inquiry if the defendant makes an
insufficient showing on one.” 466 U.S. at 697. The

53a
Court further disagrees that Ashby’s testimony was
“very prejudicial.” The disputed testimony involved
the Commonwealth asking Detective Ashby if he had
showed Reggie Burney a photopack and asked if he
could identify Miles, and further, whether Miles was
the person who fought with Teasley earlier in the
evening, to which Detective Ashby responded
affirmatively. (See Trial Tape 2, 12-13-06, 14:10:22).
Miles’ identity as the individual who fought with
Teasley earlier on the night of his murder was not
disputed at trial.
Miles even admitted at his
evidentiary hearing to fighting Teasley on the night in
question. (DN 17, Trial Tape 2, Evidentiary Hearing
4-25-11, 11:46:30–11:48:56).
Miles’ trial counsel
testified that by not objecting to Detective Ashby’s
testimony about Reggie Burney, Miles was denied the
opportunity to cross-examine Burney about the
potential suggestiveness of the photo-pack. (Id. 6-32010, 10:52:46–10:54:14). But even if Miles’ trial
counsel had objected to the hearsay, and the trial court
sustained his objection, Miles has not established a
reasonable probability that the outcome of his trial
would be different. Because it was well-established
that the fight between Miles and Teasley occurred,
and any argument regarding the suggestiveness of the
photo-pack is undeveloped and speculative, the Court
finds that trial counsel’s failure to object to Detective
Ashby’s testimony that Reggie Burney identified Miles
as the man who fought with Teasley did not constitute
prejudice under Strickland.10

Even though the Kentucky Supreme Court did not evaluate
whether Miles’ trial counsel’s performance in failing to object was
deficient since it relied on Miles’ failure to establish the prejudice
10

54a
Again, the Kentucky Court of Appeals relied on trial
counsel’s “previous errors,” including the introduction
of the inadmissible handgun and de minimis
references to Miles’ nicknames, as contributing to the
finding that Detective Ashby’s hearsay testimony
could not be considered harmless. As determined in
the preceding sections, however, this Court found
counsel’s failures did not constitute constitutionally
ineffective assistance. The Court therefore finds the
Kentucky Supreme Court’s decision was well-reasoned

prong of Strickland, the Court notes that in Lundgren v. Mitchell,
the Sixth Circuit explained:
As a threshold matter, in a trial of any size, numerous
potentially objectionable events occur. “[T]he Constitution
does not insure that defense counsel will recognize and
raise every conceivable constitutional claim.” Engle v. Isaac,
456 U.S. 107, 134, 102 S.Ct. 1558, 71 L.Ed.2d 783 (1982).
Moreover, experienced trial counsel learn that objections to
each potentially objectionable event could actually act to
their party’s detriment. Learned counsel therefore use
objections in a tactical manner. In light of this, any single
failure to object usually cannot be said to have been error
unless the evidence sought is so prejudicial to a client that
failure to object essentially defaults the case to the state.
Otherwise, defense counsel must so consistently fail to use
objections, despite numerous and clear reasons for doing so,
that counsel’s failure cannot reasonably have been said to
have been part of a trial strategy or tactical choice. See
Hodge v. Hurley, 426 F.3d 368, 376 (6th Cir. 2005)
(“[C]ounsel’s failure to object to any of the numerous
improper statements in the prosecution’s closing argument
is well outside [professional norms].”) (emphasis in original).
440 F.3d 754, 774–75 (6th Cir. 2006). Because the evidence here
was not prejudicial to Miles, in that his fight with Michael
Teasley was undisputed at trial, any failure to object by trial
counsel could not be considered error.

55a
on this issue and does not recommend habeas relief as
to this claim.
Claim 6: Counsel’s denial of Miles’
right to testify
Miles also claims his counsel performed
ineffectively by not preparing him to testify when
Miles wanted to and advised counsel on several
occasions of this desire. (DN 1-2, at p. 22). In
evaluating Miles’ RCr 11.42 motion, the trial court
found that Miles’ decision not to testify, as explained
by his trial counsel during the evidentiary hearing,
was strategic, and at no time did Miles inform the
court that he was being forced into silence. (DN 16-3,
at Page ID # 454). The Kentucky Court of Appeals
affirmed this decision, noting that Miles failed to
establish he received ineffective assistance of counsel
where there was no evidence in the record “to show he
did not waive right to testify and trial counsel failed to
respect his right to testify.” (DN 16-3, at Page ID
***
Recommendation
For
the
foregoing
reasons,
the
Court
RECOMMENDS the DENIAL of all claims in Miles’
Petition for Writ of Habeas Corpus (DN 1).
It is further RECOMMENDED that a Certificate
of Appealability be GRANTED and ISSUED as to
Claims 1, 3, 4, and 5 in Miles’ Petition but be DENIED
as to Claims 2, 6, 7, 8, 9, 10, and 11.
It is further RECOMMENDED that Miles’ Petition
for Actual Innocence and to Rebut the State Court’s
Presumption of Correctness (DN 23) be DENIED.

56a
It is further RECOMMENDED that Miles’ Motion
for Summary Judgment (DN 45) be DENIED.

NOTICE
Therefore, under the provisions of 28 U.S.C.
Sections 636(b)(1)(B) and (C) and Fed.R.Civ.P. 72(b),
the Magistrate Judge files these findings and
recommendations with the Court and a copy shall
forthwith be electronically transmitted or mailed to all
parties. Within fourteen (14) days after being served
with a copy, any party may serve and file written
objections to such findings and recommendations as
provided by the Court. If a party has objections, such
objections must be timely filed or further appeal is
waived. Thomas v. Arn, 728 F.2d 813 (6th Cir.), aff’d,
U.S. 140 (1984).
Copies: Terrance Miles, pro se
Counsel of Record

57a

APPENDIX F

MODIFIED: AUGUST 24, 2017
RENDERED: MARCH 23, 2017
NOT TO BE PUBLISHED

Supreme Court of Kentucky
2014-SC-000558-DG
&
2015-SC-000321-DG
COMMONWEALTH OF
KENTUCKY

V.

APPELLANT/
CROSS-APPELLEE

ON REVIEW FROM COURT OF APPEALS
CASE NO. 2012-CA-001240
JEFFERSON CIRCUIT COURT NO. 05-CR-000740

TERRANCE MILES

APPELLEE/
CROSS-APPELLANT

MEMORANDUM OPINION OF THE COURT
REVERSING
Terrance Miles is currently serving a fifty-year
sentence following convictions for the murder of
Michael
Teasley,
for
first-degree
wanton
endangerment, for tampering with physical evidence,
and for being a second-degree Persistent Felony
Offender (PFO). Miles moved the trial court for relief
from the judgment under Kentucky Rule of Criminal
Procedure (RCr) 11.42. The trial court conducted an
evidentiary hearing on Teasley’s claims, after which it

58a
entered an order denying relief. On appeal, the Court
of Appeals reversed the trial court’s order.
We granted cross-motion for discretionary review.
The Commonwealth asserts the Court of Appeals
erred in its conclusion that Miles had received
ineffective assistance of trial counsel. Miles on the
other hand, while agreeing with the Court of Appeals’
reversal of the trial court’s order, argues in his crossmotion for discretionary review that it erred when it
faded to find error in the trial court’s finding that trial
counsel’s failure to call an important witness at trial
was not unreasonable trial strategy.
For the reasons below, we reverse the decision of the
Court of Appeals and reinstate the trial court’s order
denying Miles’s RCr 11.42 motion.
I. FACTUAL AND PROCEDURAL
BACKGROUND.
Michael Teasley, a club bouncer, was shot and killed
while trying to disperse a crowd after the club had
closed for the night. Miles was tried and convicted for
killing Teasley, and this Court affirmed the judgment
of conviction and sentence on direct appeal. Miles filed
a pro se motion under RCr 11.42 to vacate his
convictions, claiming that his trial counsel was
ineffective. Before us are four of his eleven complaints
made in the RCr 11.42 motion: (1) the admission at
trial of Miles’s nick name “OG” or “Original Gangster”;
(2) the failure of trial counsel to object to testimony
about a gun—found at Miles’s residence—that
indisputably had no connection to the crime; (3) the
failure of trial counsel to object to hearsay testimony;
and (4) the failure of trial counsel to call Heather St.
Clair as a defense witness.

59a
The trial court conducted a series of three separate
evidentiary hearings, spanning five days, to address
Miles’s RCr 11.42 allegations.
The trial court
ultimately denied Miles’s motion.
The Court of Appeals undertook review on appeal.
That court determined that the trial court erred by
denying RCr 11.42 relief to Miles because his trial
counsel was ineffective. More specifically, the court
found that Miles’s counsel was ineffective on three
separate instances: (1) the admission of Miles’s nick
name “OG” or “Original Gangster”; (2) the failure to
object to testimony about a gun found at Miles’s
residence; and (3) the failure to object to hearsay
testimony. The court remanded the case to the trial
court for further proceedings.
II. ANALYSIS.
A.

Standard of Review.

A criminal defendant has a constitutional right to
effective assistance of counsel.
This right is
guaranteed under the Sixth and Fourteenth
Amendments of the Constitution of the United States
and Section Eleven of the Kentucky Constitution.1 A
criminal defendant is entitled to effective assistance of
counsel, but he is not entitled to perfect counsel.2

1

U.S. Const. amend. XI; U.S. const. amend. XIV; Ky. Const.

§ 11.
Simmons v. Commonwealth, 191 S.W.3d 557, 671 (Ky.
2006) (“A defendant is not guaranteed errorless counsel or
counsel judged ineffective by hindsight, but counsel likely to
render and rendering reasonably effective assistance.” (citations
omitted)).
2

60a
This Court reviews an ineffective assistance of
counsel claim under Strickland v. Washington,3 which
we adopted in Gall v. Commonwealth.4
The
Strickland standard requires Miles to prove both
prongs in a two-part analysis. First, Miles must show
trial counsel’s performance was deficient. Second,
Miles must prove that the deficiency by counsel
prejudiced his defense.5 Strickland further elaborated
that “[t]here is no reason for a court deciding an
ineffective assistance claim to approach the inquiry in
the same order or even to address both components of
the inquiry if the defendant makes an insufficient
showing on one. In particular, a court need not
determine whether counsel’s performance was
deficient before examining the prejudice suffered by
the defendant as a result of the alleged deficiencies ...
[i]f it is easier to dispose of an ineffectiveness claim on
the ground of lack of sufficient prejudice, which we
expect will often be so, that course should be
followed.”6
Proving both deficient performance and prejudice is
a substantial burden, especially in the context that
counsel’s conduct is presumed reasonable and
effective.7
According to Strickland, “deficient
performance” requires error “so serious that counsel
was not functioning as the ‘counsel’ guaranteed the

3

Strickland v. Washington, 466 U.S. 668 (1984).

4

Gall v. Commonwealth, 702 S.W.2d 37 (Ky. 1985).

5

Strickland, 466 U.S. at 687.

6

Id. at 697.

Humphrey v. Commonwealth, 692 S.W.2d 870, 873 (Ky.
1998).
7

61a
defendant by the Sixth Amendment.”8 And to prove
prejudice, Miles must demonstrate that “counsel’s
errors were so serious as to deprive [him] of a fair trial,
a trial whose result is reliable.’’9 Stated another way,
“the defendant must show that there is a reasonable
probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been
different. A reasonable probability is a probability
sufficient to undermine confidence in the outcome.”10
As the Court of Appeals in this case noted, “[A] court
must indulge a ‘strong presumption’ that counsel’s
conduct fells within the wide range of reasonable
professional assistance because it is all too easy to
conclude that a particular act or omission of counsel
was unreasonable in the harsh light of hindsight.”11
As Justice Hughes wrote in Commonwealth v.
McGorman, “When faced with an ineffective
assistance of counsel claim in an RCr 11.42 appeal, a
reviewing court first presumes that counsel’s
performance was reasonable.”12 Furthermore, “We
must analyze counsel’s overall performance and the
totality of circumstances therein in order to determine
if the challenged conduct can overcome the strong

8

Id.

9

Id.

10

Strickland 466 U.S. at 694.

Bell v. Cone, 535 U.S. 685, 702 (2002); (citing Strickland
466 U.S. at 699).
11

Commonwealth v. McGorman, 489 S.W.3d 731, 736 (Ky.
2016) (citations omitted).
12

62a
presumption that
reasonable.”13

counsel’s

performance

was

Lastly, on appellate review of a trial court’s decision
to deny an RCr 11.42 motion, a reviewing court will
only set aside the trial court’s factual determinations
if they are found to be clearly erroneous or
unsupported by substantial evidence.14 This is similar
to Kentucky Rules of Civil Procedure (CR) 52.01,
which specifically states that “Findings of fact shall
not be set aside unless clearly erroneous, and due
regard shall be given to the opportunity of the trial
court to judge the credibility of the witnesses.” After
review of the trial court order, and its findings of fact,
we cannot say that its findings were unsupported by
substantial evidence in the record.
B. Counsel’s failure to object to the
introduction of Miles’s alias does not rise to
the level of ineffective assistance of
counsel.
Miles asserts that trial counsel was ineffective when
he failed to object to the introduction of Miles’s
nickname, “O.G.” or “Original Gangster.”
During cross examination of defense witness
Vernon Douglas, the Commonwealth asked about
Miles’s nickname. Before this question, the only
nickname discussed was “Cat Daddy,” which had been
discussed by defense counsel in his opening statement.
When asked about Miles’s nickname, Douglas
13

Id.

See Brown v. Commonwealth, 253 S.W.3d 490, 500 (Ky.
2008); Commonwealth v. Anderson, 934 S.W.2d 276, 278 (Ky.
1996).
14

63a
responded that Miles had been known in the past as
“O.G.” or “Original Gangster.” The Commonwealth
then referred to Miles by his aliases, “Old Gangster”
and “Cat Daddy” on three separate occasions in closing
argument.
When, the Court of Appeals reviewed Miles’s
ineffective assistance of counsel claim, as it pertained
to this issue, it found prosecutorial misconduct. The
court then discussed whether the misconduct was
flagrant, and if so, whether that created prejudice
under Strickland.
The parties contest whether trial counsel should
have objected to disclosure of the nickname. Trial
counsel in his testimony at the RCr 11.42 hearing
testified that in hindsight he should have objected to
the introduction of the nickname, but he failed to do so
because of the speed in which the questions were
asked and answered. The Commonwealth asserts that
even if trial counsel had objected to the testimony, the
nicknames would have been admissible to show
Miles’s state of mind and motive for the shooting.
Following the guidance provided in Strickland, we
address first the prejudice prong.15 And once again,
guided by Strickland, Miles must show that the use of
his alias created a “reasonable probability that, but for
counsel’s unprofessional errors, the result of the
proceeding would have been different.”16
Miles and the Court of Appeals cite cases that found
the use of an alias created so much prejudice that it
created an unfair trial. For instance, United States v.
15

Strickland 466 U.S. at 697.

16

Id. at 694.

64a
Farmer, in which the Second Circuit Court of Appeals
found the use of the defendant’s nickname “Murder”
was overly prejudicial.17 In Farmer, the court stated,
“In our prior cases, the government’s use of a
defendant’s nickname was ‘occasional’ [or] ‘brief and
isolated.’ But Farmer’s nickname ... was the main
rhetorical trope used by the prosecution to address the
jury ... [and was used] no fewer than thirty times.”18
Miles’s facts are distinct from those in Farmer.
Miles’s nickname was used a total of three times after
it was first mentioned in the testimony of a defense
witness. The present case is a far cry from the
“rhetorical trope” in Farmer.
Furthermore, Miles cites Brown v. Commonwealth
for the proposition that use of a nickname that
suggests criminal activity can be prejudicial.19 We do
not disagree. But, Miles has failed to show that the
Commonwealth’s use of his nickname “Old Gangster”
prejudiced his case in any way. These comments, in
the context of an entire trial, were de minimis.
Believing the reference to Miles’s nickname somehow
would have changed the course of his verdict is
speculative.
In finding there was no prejudice, we find counsel
was not ineffective in failing to object to the
introduction and isolated use of Miles’s nickname.

17

United States v. Farmer, 583 F.3d 131, 146 (2nd Cir. 2009).

18

Id.

19

Brown v. Commonwealth, 558 S.W.2d 599, 603 (Ky. 1977).

65a
C. Counsel was not ineffective when he failed
to object to testimonial hearsay.
Next, Miles asserts that trial counsel was ineffective
when he failed to object to certain testimony from
Detective Ashby, arguing that the testimony in
question was testimonial hearsay without an
exception.
While on the witness stand, Detective Ashby
testified that a man named Reggie Burney had
identified Miles from a photo pack as being the
individual in a fight with Teasley on the night of his
murder. Miles argues that failing to have Burney
testify at trial abridged his constitutional rights to
confront witnesses. Miles further argues failing to
object to Ashby’s reference to Burney was an error
sufficiently egregious to constitute ineffective
assistance of counsel.
The Court of Appeals opinion does little in its
analysis of this issue. It simply states that if an
objection had been made to Detective Ashby’s
testimony that it would have been sustained. While
acknowledging that other eyewitness testimony
identified Miles as being the individual who fought
with Teasley earlier in the night, the Court of Appeals
found that Detective Ashby’s testimony was “not
harmless when considered in conjunction with
previous errors....”
We cannot agree that the testimony by Detective
Ashby was of such a nature that Miles was denied
effective assistance of counsel. Once again, Miles has
failed to show prejudice.
Other eyewitnesses’
testimony at trial identified Miles as the individual
who fought Teasley the night of the murder. One of

66a
those eyewitnesses was Officer Hill, who testified that
he observed Miles and Teasley in an altercation earlier
in the evening and that he believed that the same
individual was the one he saw running from the scene
of the shooting.
D. Counsel was not ineffective in failing to
object to a picture of a gun being displayed.
Miles argues trial counsel was ineffective when he
failed to object to the discussion and photograph of an
unrelated gun found at Miles’s residence.
The Commonwealth referenced this gun in its
opening statement, saying “They also found a gun
under the mattress which we later found out was not
the same gun used in the murder but he did in fact
have a gun.” Furthermore, the gun was discussed
during the testimony of Detective Ashby, who
admitted on the stand that the gun found at Miles’s
residence was not the gun used to kill Teasley and was
not connected to the case. This is not before the
Commonwealth published a picture of the gun via a
projector during Detective Ashby’s testimony.
However, defense counsel did object when the
Commonwealth sought to have the picture of the gun
admitted into evidence. The trial court, agreeing with
defense counsel, found that the gun was irrelevant
evidence and sustained defense counsel’s objection.
The Commonwealth argues that defense counsel did
not object to the discussion of the gun by Detective
Ashby and projecting a photograph as a deliberate
trial strategy.
Emphasizing that on crossexamination, defense counsel was able to have
Detective Ashby testify that the gun had no connection
with the murder of Teasley, thereby strengthening

67a
Miles’s defense, displaying the lack of substantive
evidence. Miles argues that references to the gun and
defense counsel’s failure to object at its mention were
not only done in error but prejudiced Miles to the
extent to be ineffective as counsel.
The Court of Appeals correctly noted that weapons
unrelated to the crime charged are generally
inadmissible.20 The Court of Appeals also recognized
that when defense questioning made clear to the jury
that the weapon in question was not the murder
weapon, the discussion of it and the publication of the
photograph of it was harmless.21
We agree with the trial court that the gun is
irrelevant, but proving that the introduction of the gun
resulted in prejudice is critical to our analysis.22
While on the stand during cross-examination by
defense counsel, Detective Ashby admitted that the
gun in question was not connected Teasley’s murder.
Further, the Court of Appeals stated in its opinion that
“the jury was repeatedly informed the gun was
unrelated to the murder....” And lastly, the gun itself
was not allowed to be submitted into evidence, a fact
that further dampens Miles’s claim of prejudice.
Finding Miles has failed to prove prejudice, we need
not discuss the first prong of Strickland.23
Accordingly, we find that trial counsel was not

Harris v. Commonwealth, 348 S.W.3d 117, 123–24 (Ky.
2012).
20

21

Id. at 125.

22

Humphrey, 692 S.W.2d at 873.

23

Strickland, 466 U.S. at 697.

68a
ineffective in failing to object to the discussion of the
gun found at Miles’s residence.
E. Failure to call Heather St. Clair was not
ineffective.
Lastly, Miles contends that the Court of Appeals
erred when it found no error in the trial’s court’s ruling
that defense counsel’s failure to call Heather St. Clair
as a defense witness was not ineffective
representation.
St. Clair was a cocktail waitress at the club where
Teasley worked, and she was working the night of his
murder. She was familiar with Miles and recognized
him by sight because he was a regular at the club.
St. Clair testified at Miles’s bond hearing. Miles
asserts that St Clair’s testimony would be directly
contradictory to that of several of the Commonwealth’s
witnesses.
More specifically, Miles asserts that
St. Clair would testify that he was not wearing the
outfit like the one worn by the person identified as the
shooter and the person who picked a fight with
Teasley.
We must “affirmatively entertain the range of
possible ‘reasons [Miles’s] counsel may have proceeded
as [he] did.’”24 And as the Court of Appeals noted in
its decision, failure to call St. Clair as a witness was
not error. A decision whether or not to call a certain
witness is presumed to be purposeful trial strategy
and will not be second-guessed.25
Cullen v. Pinholster, 563 U.S. 170, 195 (2011) (quoting
Pinholster v. Ayers, 590 F.3d 651, 692 (9th Cir. 2009).
24

Saylor v. Commonwealth, 357 S.W.3d 567, 571 (Ky. App.
2012).
25

69a
At Miles’s RCr 11.42 evidentiary hearing, trial
counsel testified that he purposely chose not to call
St. Clair to testify. He stated that he initially believed
St. Clair’s testimony would be helpful to the defense,
but after the bond hearing he came to believe that
calling her as a witness at trial would be inconsistent
with the defense theory presented at trial.
Furthermore, trial counsel testified that as proof
unfolded at trial, he believed St. Clair’s testimony to
be less valuable than at the bond hearing because of
alleged inconsistencies.
While one can speculate on the possible value of
St. Clair’s testimony at trial, we must resist the
temptation to devise trial strategy with the benefit of
hindsight. Given our strong deference to a trial
attorney’s decision to call certain witnesses, and the
fact that Miles did not show that failure to call
St. Clair was either deficient or prejudicial to his case,
we find no error.
F. Miles is not entitled to a new trial because
of Cumulative Error.
Miles is not entitled to RCr 11.42 relief based on a
finding of cumulative error. As the Commonwealth
notes, and Miles does not refute, we find no cases
where cumulative error has formed the basis for RCr
11.42 relief. Cumulative error may be found only
when “the individual errors were themselves
substantial, bordering, at least, on the prejudicial.”26
As in Parrish v. Commonwealth, we reject Miles’s
argument of cumulative error.27 Without establishing
26

Brown v. Commonwealth, 313 S.W.3d 577, 631 (Ky. 2010).

27

Parrish v. Commonwealth, 272 S.W.3d 161, 180 (Ky. 2008).

70a
legitimate error in any of his arguments singly, it is
nonsensical to accept Miles’s assertion that their
aggregation constitutes a separate ground for relief.
III. CONCLUSION.
For the foregoing reasons, we reverse the decision of
the Court of Appeals and reinstate the trial court’s
order denying Miles’s RCr 11.42 motion for relief from
the judgment.
All sitting. Minton, C.J.; Hughes, Keller, VanMeter,
Venters and Wright, JJ., concur. Cunningham, J.,
concurs in result only.
COUNSEL FOR APPELLANT/CROSS-APPELLEE:
Andy Beshear
Attorney General of Kentucky
James Coleman Shackelford
Assistant Attorney General
COUNSEL FOR APPELLEE/CROSS-APPELLANT
Margaret Anne Ivie
Assistant Public Advocate

71a

APPENDIX G

RENDERED: AUGUST 22, 2014; 10:00 A.M.
NOT TO BE PUBLISHED
Commonwealth of Kentucky
Court of Appeals
NO. 2012-CA-001240-MR
TERRANCE MILES

v.

APPELLANT

APPEAL FROM JEFFERSON CIRCUIT COURT
HONORABLE JUDITH E. MCDONALDBURKMAN, JUDGE
ACTION NO. 05-CR-000740

COMMONWEALTH OF KENTUCKY

APPELLEE

OPINION
REVERSING AND REMANDING
** ** ** ** **
BEFORE: COMBS, LAMBERT AND THOMPSON,
JUDGES.
THOMPSON, JUDGE: Terrance Miles appeals the
denial of his motion for post-conviction relief on the
basis of ineffective assistance of counsel after an
evidentiary hearing.
Following the shooting death of a bouncer outside a
Louisville nightclub, Miles was convicted of murder,

72a
wanton endangerment, tampering with physical
evidence and being a second-degree persistent felony
offender (PFO II). The Kentucky Supreme Court
summarized the underlying facts as follows:
On the night of February 27, 2005, Michael
Teasley, a bouncer at Club 502, was shot and
killed outside the club as he attempted to clear
the parking lot after the club had closed. Earlier
that same evening, after another bouncer had
removed Terrance Miles from the club for
smoking marijuana, Miles and Teasley got into a
fight. Teasley’s wife, Crystal, who also worked at
the club, testified that after the fight, Miles
grinned and said to her husband, “you might have
whipped my ass, but I’m going to get you.”
Officer Frank Hill of the Louisville Metro Police
Department, who was working extra security for
the club while off duty, observed the fight
between Teasley and Miles. While Hill did not
witness the actual shooting, he heard the
gunshots and then looked in the direction of the
gunshots and saw a male running across the
parking lot dressed in all dark clothing and
wearing a toboggan hat. Officer Hill testified that
the man he observed running across the parking
lot was the same man who had been fighting with
Teasley earlier in the night. Hill gave chase in
his patrol car with the assistance of another
bouncer and at one point located the suspect
behind a dumpster in back of the club. However,
Hill eventually lost sight of the suspect.
A number of items were collected from the crime
scene, including a black toboggan hat and a cell

73a
phone. The number of the cell phone matched the
number Miles gave to Enterprise Rent-a-Car
when he switched his rental vehicle the day after
the murder. The hat was ultimately sent by the
Commonwealth to the Kentucky State Police
forensic lab for DNA testing to see if trace
evidence on the hat matched Miles’ DNA. The
results of the testing were ultimately determined
to be negative for Miles’ DNA.
Miles v. Commonwealth, 2007-SC-000298-MR, 2009
WL 160435, 1 (Ky. 2009) (unpublished). After Miles
was found guilty, he was sentenced to serve fifty years’
incarceration. Miles’s conviction was affirmed on
appeal.
Miles filed a motion pursuant to Kentucky Rules of
Criminal Procedure (RCr) 11.42 alleging ineffective
assistance of counsel and requesting an evidentiary
hearing. Miles argued that his trial counsel was
ineffective as follows: (1) failing to call Heather
St. Claire, who testified at his bond hearing that Miles
was wearing all tan and had been thrown out of a
different door than the shooter; (2) failing to call Dalco
Lanier and Andre Judkins, who would have testified
Miles was wearing tan, and the shooter was wearing
all black and ran off in a different direction than other
witnesses testified; (3) failing to call him to testify on
his own behalf because he believed his testimony was
key in refuting the prosecution’s case; (4) denying him
the right to testify after he asked to testify; (5) failing
to object to Officer Ashby’s testifying that Reggie
Burney picked Miles out of a photopack as being in a
fight with Teasley earlier where Burney did not testify
and Burney was available as a witness; (6) failing to
object and move for an admonition or mistrial for the

74a
introduction of his nickname of “O.G.” for “Original
Gangster” and the Commonwealth’s repeated
references to him as “Old Gangster” during its closing
argument; (7) failing to object to the introduction of
evidence about his unrelated gun which had been
excluded as the murder weapon; and (8) failing to
strike a biased juror who admitted having a
conversation with an officer involved in the case while
she was serving on the jury. He argued each incident
of trial counsel’s ineffectiveness was individually
prejudicial and, when considered together, were
cumulatively prejudicial. At an evidentiary hearing,
the trial court heard testimony from Miles’s trial
counsel, Miles and potential defense witness Lanier.
Miles’s trial counsel testified as to the choices he
made in calling certain witnesses, pursuing certain
defenses and his failure to object to the admission of
certain types of evidence. He stated he was hindered
by lack of access to his file, which had been delivered
to Miles and destroyed in a prison fire, and imperfect
recollection. He testified he made a number of
mistakes, which in hindsight seemed significant.
Trial counsel could not remember why he did not
call St. Claire and now believed he should have done
so because pursuing inconsistent defenses may have
been a better strategy. He explained St. Claire could
have refuted Officer Hill’s identification of Miles,
because she would have testified consistent with her
bond hearing testimony that Miles was ejected out of
a different door than the person who was in a fight
with Teasley and that Miles was wearing a tan hat and
a tan Dickie outfit.

75a
Further, trial counsel recalled advising Miles not to
testify because he believed he could establish
mistaken identity more effectively without Miles’s
testimony, which would contradict the defense theory
he was presenting to the jury.1 Miles could also be
impeached by his earlier statement which would not
come into evidence unless Miles testified.
Trial counsel testified he vigorously attempted to
locate and interview all the witnesses Miles told him
about. He was not able to reach Lanier and Judkins,
but their testimony would have been problematic
because they were former felons who had close
relationships with Miles and did not come forward at
the time of the shooting.
He believed he should have objected to the
testimony regarding Miles’s nickname, but explained
he only knew about Miles’s nickname as “Cat Daddy”
and did not expect the defense witness to testify on
cross-examination that Miles’s nickname was “O.G.”
for “Original Gangster” and this testimony came out
too quickly for him to object. He believed he erred by
failing to move to suppress the gun found at Miles’s
home and allowing Ashby to testify that Burney had
identified Miles as the shooter.

1

It appears trial counsel was attempting to challenge the
Commonwealth’s theory that Miles had been thrown out of the
bar, had been in a fight with Teasley earlier and then killed him
to defend his honor by showing the weakness of the various links
of identification used to establish he was the shooter, including
the absence of his DNA on the shooter’s hat. However, St. Claire
would testify Miles was thrown out of the club and Miles would
testify he did get in an earlier fight with Teasley outside the club,
thus weakening the defense theory of mistaken identity.

76a
Miles testified he consistently told his trial counsel
he needed to testify but believed the decision was
ultimately up to trial counsel, who laughed at Miles
and told him “no” when Miles asked to testify. Trial
counsel never informed him it was his right to decide
whether or not to testify and during opening
statement trial counsel told the jury he was the
quarterback and if Miles didn’t testify to blame him.
Miles testified about the events that gave rise to the
charges against him, which he asserted would have
established his innocence. He stated he was at the
club that night but was not inebriated, was not using
drugs and did not get thrown out of the club for using
drugs. Instead, he left on his own around midnight.
He talked to Teasley in the club parking lot. He had
known Teasley since he was seventeen years old and,
although they were not friends, they were on good
terms. Miles testified that on the night of the
shooting, they were talking and joking when Teasley,
who was high on cocaine, took offense at Miles’s
comment that Teasley had been knocked out of a tough
man contest. Teasley pushed Miles. Miles reactively
hit Teasley, but realized it was a mistake because he
did not want to fight and there was no one to break up
the fight. They were fighting when Officer Hill
intervened and separated them. Miles testified he was
not angry at Teasley and told him “Man, it was a good
fight, you won fair and square.” He then left the
parking lot and never returned. Miles testified
Teasley’s wife, Crystal, lied when she testified she saw
the fight and heard him threaten Teasley because she
was not present.
Miles also testified he could have explained his
actions after the shooting that seemed suspicious. He

77a
returned his rental car the day after the shooting
because it was due back and he could have returned it
the day before, had he been attempting to evade the
police. He secured a new car at that time because his
lease was up on the previous car.
Miles testified he told trial counsel about Lanier and
Judkins, and informed him they had exculpatory
evidence because they would testify he was wearing
tan rather than black like the shooter, and saw the
shooter run in a different direction than other
witnesses indicated. He stated trial counsel told him
he did not have time to interview them and never
interviewed them. Trial counsel told him St. Claire
offered favorable evidence at Miles’s bond hearing and
he would call her to testify at trial but did not call her.
Lanier testified he was friends with Miles and saw
him at the club wearing tan or khaki clothes. He was
outside the club when Teasley was shot, heard the
gunshot, saw Teasley fall and saw someone running
off who was dressed in black wearing a hoody. He
could not see the shooter’s face. He was on probation
and not supposed to be at the club, so he did not report
what he had seen.
The trial court determined Miles failed to establish
ineffective assistance of counsel, making the following
findings of fact and rulings of law: trial counsel made
a strategic decision not to call St. Claire; trial counsel
tried to contact Lanier and Judkins and failed but,
even had he succeeded, Miles failed to show their
testimony would have changed the outcome of the
trial; Miles failed to inform the trial court he was
prevented from testifying and the decision to not
testify was strategic; use of Miles’s nickname did not

78a
prejudice his substantial rights considering the
totality of the proof; Miles failed to establish any
reason for the juror to be struck; and there was no
error, individual or cumulative.
When an evidentiary hearing has been held
pursuant to RCr 11.42, we review the trial court’s
findings of fact for abuse of discretion. McQueen v.
Commonwealth, 721 S.W.2d 694, 698 (Ky. 1986). The
trial court is in the best position to judge the credibility
of the witnesses and determine the weight to be given
their testimony. Id. We may set aside the factual
findings of the trial court only if they are clearly
erroneous. Brown v. Commonwealth, 253 S.W.3d 490,
500 (Ky. 2008). Findings are clearly erroneous if they
are not supported by substantial evidence. Id.
In order to be entitled to the extraordinary relief of
RCr 11.42, Miles must establish he was deprived of his
constitutional right to counsel. Brown, 253 S.W.3d at
500. Under Strickland v. Washington, 466 U.S. 668,
694, 104 S.Ct. 2052, 2068, 80 L.Ed.2d 674 (1984),
Miles must show his counsel’s performance was
incompetent and prejudiced him because it fell below
an objective standard of reasonableness and there is a
reasonable probability that the result of the
proceeding would have been different but for counsel’s
errors. Hatcher v. Commonwealth, 310 S.W.3d 691,
696 (Ky.App. 2010).
Proving deficient performance and prejudice is a
heavy burden, especially given the presumption that
counsel’s conduct was reasonable and effective.
Humphrey v. Commonwealth, 962 S.W.2d 870, 873
(Ky. 1998). “The focus of the inquiry must be on
whether trial counsel’s decision not to pursue evidence

79a
or defenses was objectively reasonable under all the
circumstances.”
Robbins v. Commonwealth, 365
S.W.3d 211, 214 (Ky.App. 2012). “[A] court must
indulge a ‘strong presumption’ that counsel’s conduct
falls within the wide range of reasonable professional
assistance because it is all too easy to conclude that a
particular act or omission of counsel was unreasonable
in the harsh light of hindsight.” Bell v. Cone, 535 U.S.
685, 702, 122 S.Ct. 1843, 1854, 152 L.Ed.2d 914 (2002).
We first discuss trial errors that trial counsel
admitted resulted from his deficient performance in
failing to object: the introduction of Miles’s nickname
and the Commonwealth’s repeated references to it
during its closing argument; the introduction of
evidence about Miles’s unrelated gun; and testimonial
identification hearsay that violated the confrontation
clause.
Miles argues trial counsel should have objected and
requested an admonition or mistrial when the
Commonwealth (1) elicited testimony from a defense
witness on cross-examination that Miles’s nickname
was “O.G.” for “Original Gangster” and (2) made
repeated references to him as “Old Gangster” during
its closing argument.
Miles argues the
Commonwealth had no need to elicit testimony as to
this nickname or use it during its closing argument
because the nickname was not being used to establish
his identity.
Miles is essentially arguing a claim for prosecutorial
misconduct that was not preserved for appeal due to
trial counsel’s failure to object to the use of his
nickname. We note that while this error could have
been raised on Miles’s direct appeal under the

80a
palpable error standard,2 it is appropriate to raise it
as an ineffective assistance of counsel claim. Martin
v. Commonwealth, 207 S.W.3d 1, 4–5 (Ky. 2006).
Use of a nickname which suggests criminal activity
may be prejudicial. See Brown v. Commonwealth, 558
S.W.2d 599, 603 (Ky. 1977). We agree with those
courts which have held that it is error for the
government to elicit testimony of a nickname strongly
suggestive of a criminal disposition, where the
nickname is not needed to establish identity, the
defendant has not put his reputation into issue and
the nickname has no reasonable relationship to the
crimes charged. United States v. Farmer, 583 F.3d
131, 146 (2nd Cir. 2009); United States v. Williams,
739 F.2d 297, 299–300 (7th Cir. 1984); Commonwealth
v. Martin, 442 Mass. 1002, 809 N.E.2d 536, 537–538
(2004); State v. Paduani, 307 N.J. Super. 134, 147, 704
A.2d 582, 589 (App. Div. 1998).
Here, the
Commonwealth had no legitimate purpose in eliciting
Miles’s nickname of “Original Gangster” or calling him
“Old Gangster” in its closing argument.

2

Miles raised an unpreserved claim of prosecutorial misconduct
in his direct appeal based on statements made during the
Commonwealth’s closing argument. The Kentucky Supreme
Court determined prosecutorial misconduct took place as to the
Commonwealth’s statement in its closing argument that Miles
was lying, because he was not a witness in the case. However,
the Supreme Court “adjudge[d] that in this case such misconduct
was neither flagrant nor of such an egregious nature to deny
Miles his constitutional right to due process of law, especially
given the absence of a contemporaneous objection to the
comment.” Miles v. Commonwealth, 2007-SC-000298-MR, 2009
WL 160435, 6 (Ky. 2009).

81a
When considering whether trial counsel was
ineffective for failing to object to improper questioning
of a defense witness by the prosecutor, prejudice
cannot result where “proof of the defendant’s guilt was
not such as to render the misconduct harmless” or “the
misconduct was flagrant and was such as to render the
trial
fundamentally
unfair.”
Duncan
v.
Commonwealth, 322 S.W.3d 81, 87 (Ky. 2010). In
Brown, our Supreme Court determined a single
inappropriate reference to the nickname “Killer” by a
Commonwealth witness that was not directly elicited
on direct examination was harmless because it was not
necessarily pejorative, a strong admonition was given
and the totality of the evidence supported the
conviction, including Brown’s confession. Brown, 558
S.W.2d at 603. Therefore, a single mention of Miles’s
nickname by a defense witness on cross-examination
is not necessarily sufficient to show prejudice. When
considered in isolation, the neutral question eliciting
this answer does not establish flagrant misconduct or
render the trial fundamentally unfair. Thus, trial
counsel’s failure to object, request an admonition3 or
move for a mistrial, does not establish prejudice.
The use by the prosecution of Miles’s nickname
during closing argument is more problematic. In
closing argument, the prosecutor referred to Miles
three times as “Old Gangster” and “Cat Daddy” to
discuss Miles’s motive for the murder to stigmatize
3

We note that once a nickname has been uttered, counsel may
not want to draw attention to it by use of an admonition.
Therefore, it may be appropriate trial strategy not to request an
admonition to prevent attracting further attention to the
nickname. Charles v. Commonwealth, 2006-SC-000185-MR,
2008 WL 2484958, 5 (Ky. 2008) (unpublished).

82a
Miles as someone who had to protect his “gangster”
reputation. The prosecutor’s statements referencing
the nickname were as follows:
They’re not going to kick him out, this is his club,
this is “Cat Daddy,” “Old Gangster.” He gets back
in, he is angry.
....
He’s known by “Cat Daddy” there, he’s known by
“Old Gangster.” But that night was different. He
was publically humiliated.
His motive was
revenge.
....
Who dunnit? . . . It points to “Cat Daddy,” it
points to the “Old Gangster.” He’s sitting right
there.
We have no difficulty in determining such use
constituted prosecutorial misconduct.
We apply the Strickland standard to prosecutorial
misconduct.
Under this standard, Miles must
demonstrate his trial counsel was deficient in failing
to object to the prosecutorial misconduct during
closing arguments, move for an admonition or request
a mistrial and, but for that failure, there is a
reasonable probability that the result of the trial
would have been different.
On direct appeal,
“[r]eversal is proper only if the prosecutorial
misconduct is so serious as to render the trial
fundamentally unfair.” Parker v. Commonwealth, 291
S.W.3d 647, 659 (Ky. 2009). A trial is fundamentally
unfair “only when the misconduct is ‘flagrant,’ or when
all of the following elements are satisfied: (1) proof of
defendant’s guilt is not overwhelming; (2) defense

83a
counsel objected; and (3) the trial court failed to cure
the error with sufficient admonishment.” Goncalves v.
Commonwealth, 404 S.W.3d 180, 194 (Ky. 2013). In
determining whether a prosecutor’s misconduct was
“flagrant,” reviewing courts consider “(1) whether the
remarks tended to mislead the jury or to prejudice the
accused; (2) whether they were isolated or extensive;
(3) whether they were deliberately or accidentally
placed before the jury; and (4) the strength of the
evidence against the accused.”
Hannah v.
Commonwealth, 306 S.W.3d 509, 518 (Ky. 2010)
(quoting United States v. Carroll, 26 F.3d 1380, 1385
(6th Cir. 1994)).
We consider whether the prosecutorial misconduct
that occurred was flagrant because the alternative test
is inapplicable to an ineffective assistance of counsel
claim. Accordingly, if the misconduct was flagrant and
would be corrected had counsel made an appropriate
objection, there is a reasonable probability that the
result of the trial would have been different but for
counsel’s error.
In determining whether prosecutorial misconduct
was flagrant in admitting a prejudicial nickname, it is
useful to review cases in other jurisdictions that
determined whether prosecutorial misconduct in
using a prejudicial nickname warranted reversal. In
the following cases, the defendant’s conviction was
reversed on direct appeal due to inappropriate use of
a prejudicial nickname. In Farmer, 583 F.3d at 146–
148, “prosecutors’ frequently repeated, gratuitous
invocation of Farmer’s nickname [‘Murder’] in their
address to the jury . . . invited the jurors to infer that
the defendant had earned the nickname among his
gang colleagues as a result of his proclivity to commit

84a
murder” for a crime lacking conclusive evidence. In
Martin, 442 Mass at 1002, 809 N.E.2d at 538, “the
repeated references to Martin’s prior use of an alias
before and during the Commonwealth’s case-in-chief
(compounded by further references in the
Commonwealth’s rebuttal case and closing argument)
constituted a gratuitous, improper, and prejudicial
attack on the defendant’s character and credibility.”
In the following ineffective assistance of counsel
cases, prejudice was established based on trial
counsel’s failure to object to:
the prosecution’s
repeated use of the nickname “Killer” and prosecutor’s
use of the nickname in summation to encourage the
jury to consider the nickname as evidence that the
defendant committed murder in People v. Collier, 114
A.D.3d 1136, 1137, 979 N.Y.S.2d 726, 728 (2014);
testimony elicited on cross-examination of a defense
witness that defendant’s nickname was “Threat” and
this nickname was used on summation to establish
that “the jury should consider his nickname as
evidence that he possessed the weapon at issue” in
People v. Webb, 90 A.D.3d 1563, 1564–1565, 935
N.Y.S.2d 423, 424 (2011); and prosecutor’s repeated
references to defendant’s nickname “Homicide” in
People v. Lauderdale, 295 A.D.2d 539, 540–541, 746
N.Y.S.2d 163, 165–166 (2002).
The prosecutorial misconduct that took place during
the closing argument was flagrant because the
remarks tended to mislead the jury and prejudice
Miles by inviting the jury to find him guilty based on
protecting his gangster reputation, and while the
remarks were somewhat isolated, they were
deliberately placed before the jury and the evidence

85a
against Miles was relatively weak.4 We conclude trial
counsel’s failure to object to the Commonwealth’s
references to Miles as “Old Gangster” constituted
ineffective assistance of counsel. We determine that
this error, considered in conjunction with other errors,
rendered the trial fundamentally unfair and reverse.
Cumulative error is sufficient to overturn a
conviction where the individual errors are substantial
4

The evidence to support Miles’s conviction required the jury to
believe (1) the person who fled the scene of the shooting was in
fact the shooter; (2) the witnesses had a sufficient view of that
person to recognize that he was the same person earlier ejected
through a particular door who fought Teasley; (3) the person who
fought Teasley earlier was in fact Miles; (4) Miles was dressed in
black like the shooter; and (5) the fight was a sufficient motive for
Miles to shoot Teasley. Countering this evidence was uncertainty
in every supposition and a real danger in misidentification
because the identification of the assumed fleeing shooter took
place at a distance, at night, and resulted in a description of the
shooter wearing a toboggan hat. This description suggested
another person may have been the shooter because the recovered
toboggan hat did not contain Miles’s DNA; the prosecution was
left to argue that the hat identified with the shooter was in fact
irrelevant and not associated with the shooter, but connect the
black clothing with Miles. There was absolutely no physical
evidence tying Miles to the crime. While the discovery of Miles’s
phone in the parking lot placed him in the area that evening, his
presence at the club and in the parking lot earlier was
undisputed, this area was used by all the club’s patrons and did
not establish that Miles had anything to do with the shooting.
While Miles’s exchange of the rental car appeared to be an
attempt to cover up evidence or flee, nothing was recovered from
the previous rental car to tie him to the crime. Additionally,
witness testimony not presented at trial could have countered
which door Miles was ejected from, establish he was wearing all
tan, defuse a motive by discrediting eyewitness testimony as to
who observed the fight and Miles’s reaction to it, and provide an
innocent explanation as to why Miles exchanged his rental car.

86a
and bordering on prejudicial, none of them
individually is sufficient to overturn a conviction, but
when considered together they establish that the trial
was fundamentally unfair. Elery v. Commonwealth,
368 S.W.3d 78, 100 (Ky. 2012).
Miles argues trial counsel was ineffective for
allowing the introduction of evidence about his gun,
which was excluded from being the murder weapon.
Evidence relating to weapons not connected to the
crime charged is inadmissible.
Harris v.
Commonwealth, 384 S.W.3d 117, 123–124 (Ky. 2012).
However, in Harris, the Supreme Court held when it
is made clear to the jury that the weapon admitted was
not the murder weapon, its admission is harmless
error. Id. at 125.
While we are obligated to follow Harris, we believe
in certain circumstances use of an unrelated gun is not
automatically harmless and can be prejudicial. See
United States v. Williams, 585 F.3d 703, 709–710 (2nd
Cir. 2009). Here, even though the jury was repeatedly
informed the gun was unrelated to the murder, the
prosecutor’s deliberate elicitation of testimony about
this gun, in conjunction with other inadmissible
evidence about Miles’s nickname, was used to paint
him as a criminal and could allow a conviction based
upon a gun-wielding-gangster reputation, rather than
based on the evidence relating to the crimes charged.
Therefore, trial counsel’s failure to bring a motion in
limine to exclude mention of the gun was prejudicial
when considered in conjunction with other errors.
Miles argues trial counsel erred by allowing
testimonial identification hearsay that violated the
confrontation clause. It is undisputed trial counsel

87a
failed to object to Officer Ashby’s testimony that
Burney picked Miles out of a photopack as being in a
fight with Teasley earlier and, if trial counsel had
properly objected to this testimony, it would have been
excluded as inadmissible hearsay and violating the
confrontation clause. Kentucky Rules of Evidence
(KRE) 801A(a); KRE 804(a); Flatt v. Commonwealth,
468 S.W.2d 793, 794–795 (Ky. 1971). Although other
eyewitness testimony also identified Miles as being in
a fight with Teasley earlier, this violation was not
harmless when considered in conjunction with
previous errors to improperly strengthen the case
against him.
Cumulative error made the trial
fundamentally unfair.
Having concluded that these errors cumulatively
require reversal, we briefly address Miles’s other
claims of ineffective assistance of counsel: failing to
call St. Claire, Lanier, Judkins and Miles as witnesses;
denying Miles the right to testify; and failing to strike
a biased juror.
The decision whether to call certain witnesses is
presumed to be deliberate trial strategy and will not
be second-guessed. Saylor v. Commonwealth, 357
S.W.3d 567, 571 (Ky.App. 2012).
The evidence
submitted at the evidentiary hearing supports the
trial court’s finding that trial counsel did not call
St. Claire and Miles as witnesses as a matter of trial
strategy because their testimony was not in
accordance with the defense strategy being pursued.
The evidence also supports the trial court’s finding
that trial counsel made a reasonable effort to locate
Lanier and Judkins, and did not call them to testify
because they could not be located.

88a
Miles failed to establish he received ineffective
assistance of counsel by being denied his
constitutional right to testify where there is no
evidence in the record to show he did not waive his
right to testify and trial counsel failed to respect his
right to testify. Hodge v. Haeberlin, 579 F.3d 627, 639
(6th Cir. 2009). “[The defendant’s] present allegations
that he wanted to testify and was prevented from
doing so do not suffice to overcome the presumption
that he assented to the tactical decision that he not
testify.” Id. See Kinder v. Commonwealth, 269 S.W.2d
212, 214 (Ky. 1954).
Miles argues the trial court erred by denying his
request to call a juror to testify at his RCr 11.42
hearing to determine whether she should have been
excluded from the jury on the basis of bias, and trial
counsel erred by failing to inquire further into her
possible bias and striking her from the jury. The
record established the juror approached the trial court
to inform it she knew one of the police officers involved
in the case and had spoken to him. As a result, the
trial court allowed the parties to question her
regarding possible bias. When the Commonwealth
told the juror the officer would not be testifying in the
case, the juror was satisfied she could serve and trial
counsel did not inquire further.
Under these facts, Miles fails to establish any
prejudice from counsel’s failure to inquire further
because there is no constitution prohibition against a
juror’s knowing the parties involved, being acquainted
with a testifying officer, being related to a prosecuting
witness or having advanced knowledge of the case, so
long as a juror can remain impartial. See Hodge v.
Commonwealth, 17 S.W.3d 824, 838 (Ky. 2000);

89a
Sanders v. Commonwealth, 801 S.W.2d 665, 670 (Ky.
1990); Dupin v. Commonwealth, 404 S.W.2d 280, 281
(Ky. 1966).
Accordingly, we reverse and remand the Jefferson
Circuit Court’s order denying Miles’s motion for
RCr 11.42 relief based on cumulative error.
ALL CONCUR.
BRIEFS FOR
APPELLANT:
Margaret A. Ivie
Assistant Public
Advocate
Department of Public
Advocacy
Frankfort, Kentucky

BRIEF FOR APPELLEE:
Jack Conway
Attorney General of
Kentucky
James C. Shackelford
Assistant Attorney
General
Frankfort, Kentucky

90a

APPENDIX H

RENDERED: JANUARY 22, 2009
NOT TO BE PUBLISHED
Supreme Court of Kentucky
2007-SC-000298-MR
FINAL
DATE 4/3/09 Kelly Klaber
TERRANCE MILES

V.

APPELLANT

ON APPEAL FROM
JEFFERSONCIRCUIT COURT
HONORABLE JUDITH E. MCDONALDBURKMAN, JUDGE
No. 05-CR-000740

COMMONWEALTH OF
KENTUCKY

APPELLEE

MEMORANDUM OPINION OF THE COURT
AFFIRMING
This is an appeal from a judgment convicting
Appellant of murder, wanton endangerment,
tampering with physical evidence, and being a
persistent felony offender in the second degree
(PFO II) stemming from the shooting death of a
bouncer outside a Louisville nightclub. Appellant
argues that he was denied a speedy trial, that there
was misleading and false testimony presented to the
grand jury, that defense counsel’s cross-examination
of a jailhouse witness was improperly limited, and that

91a
a number of unpreserved errors cumulatively
amounted to palpable error. Upon review of the
record, we adjudge that the claimed errors were either
not error or did not rise the level of reversible or
palpable error. Thus, we affirm.
On the night of February 27, 2005, Michael Teasley,
a bouncer at Club 502, was shot and killed outside the
club as he attempted to clear the parking lot after the
club had closed. Earlier that same evening, after
another bouncer had removed Terrance Miles from the
club for smoking marijuana, Miles and Teasley got
into a fight. Teasley’s wife, Crystal, who also worked
at the club, testified that after the fight, Miles grinned
and said to her husband, “you might have whipped my
ass, but I’m going to get you.”
Officer Frank Hill of the Louisville Metro Police
Department, who was working extra security for the
club while off duty, observed the fight between Teasley
and Miles. While Hill did not witness the actual
shooting, he heard the gunshots and then looked in the
direction of the gunshots and saw a male running
across the parking lot dressed in all dark clothing and
wearing a toboggan hat. Officer Hill testified that the
man he observed running across the parking lot was
the same man who had been fighting with Teasley
earlier in the night. Hill gave chase in his patrol car
with the assistance of another bouncer and at one
point located the suspect behind a dumpster in back of
the club. However, Hill eventually lost sight of the
suspect.
A number of items were collected from the crime
scene, including a black toboggan hat and a cell phone.
The number of the cell phone matched the number

92a
Miles gave to Enterprise Rent-a-Car when he switched
his rental vehicle the day after the murder. The hat
was ultimately sent by the Commonwealth to the
Kentucky State Police forensic lab for DNA testing to
see if trace evidence on the hat matched Miles’ DNA.
The results of the testing were ultimately determined
to be negative for Miles’ DNA.
On March 5, 2005, Miles was indicted for the
murder of Teasley, as well as other charges related to
the shooting. After a series of continuances related to
the testing of the toboggan hat, a jury trial was held
on December 12, 2006. The jury found Miles guilty of
murder,
first-degree
wanton
endangerment,
tampering with physical evidence and PFO II, and
recommended a sentence of fifty (50) years in prison.
From the amended judgment of April 5, 2007,
accepting the jury’s recommendations, Miles now
appeals as a matter of right.
SPEEDY TRIAL
Miles alleges that the twenty-one (21) month time
period between his indictment and trial violated his
Sixth Amendment right to a speedy trial. During the
twenty-one (21) month period, the Commonwealth
requested and was granted three continuances. The
stated reason for each motion for continuance was that
they were awaiting the DNA test results on the black
toboggan hat. The hat was sent to the lab for testing
on November 7, 2005.
On November 25, 2005, Miles pro se asserted his
right to speedy trial in a letter to the court, which was
followed by a formal motion for speedy trial, filed on
December 13, 2005 by defense counsel. However,
defense counsel stated no objection to the continuance

93a
at the December 5, 2005 hearing prior to the first
proposed trial date, wherein the prosecutor
maintained that the hat was a vital piece of evidence
which could prove to be either inculpatory or
exculpatory.
At a subsequent pre-trial hearing on March 3, 2006,
the prosecution informed the court that when he called
to check on the progress of the DNA testing on the hat,
he was told that the lab had not even started testing
the hat. During this hearing, Miles’ counsel agreed
that the toboggan hat was a “crucial piece of evidence”
in the case. At the April 11 and September 26, 2006
hearings, however, Miles’ counsel objected to the
unnecessary delay in the case and announced ready
for trial even though testing was not complete on the
hat.
A defendant’s right to a speedy trial under both the
United States and Kentucky Constitution is analyzed
under the four-prong balancing test set forth in Barker
v. Wingo, 407 U.S. 514 (1972).
Dunaway v.
Commonwealth, 60 S.W.3d 563, 569 (Ky. 2001). The
four factors to be considered are: 1) length of the
delay; 2) reason for the delay; 3) defendant’s assertion
of his right to a speedy trial; and 4) prejudice to the
defendant. Barker, 407 U.S. at 530.
Regarding the first factor, we deem the twenty-one
(21) month delay in this case to be presumptively
prejudicial. See Bratcher v. Commonwealth, 151
S.W.3d 332, 344 (Ky. 2004) (holding an eighteen (18)
month delay in a murder case to be presumptively
prejudicial). “That prejudice, however, is not alone
dispositive and must be balanced against the other

94a
factors.” Parker v. Commonwealth, 241 S.W.3d 805,
812 (Ky. 2007) (citation omitted).
As for reason for the delay, the Commonwealth
argued that the toboggan hat was vital evidence in the
case and that they could not go forward with the trial
without the DNA testing being completed.
Nevertheless, after the testing came back negative,
the Commonwealth still proceeded with the trial and
obtained a conviction against Miles. In fact, at trial
the prosecutor elicited testimony from the lead
investigator on the case, Detective Chris Ashby, that
the hat had no relevance in the case and argued such
in his closing argument. Miles asserts that this
demonstrates that the testing on the hat was not a
legitimate reason for the delay in this case and that
the prosecutor intentionally misled the court as to the
importance of the hat to the case.
The black toboggan hat in question was found and
collected by the police as potential evidence at the
scene. Officer Hill and two other witnesses testified at
trial that the man who shot Teasley was wearing a
toboggan hat. Simply because the testing came back
negative on the hat and the prosecution subsequently
argued at trial that the hat was not significant to the
case, does not mean that the Commonwealth acted in
bad faith in seeking DNA testing on the hat. After the
hat tested negative for Miles’ DNA, the
Commonwealth had no choice but to minimize the
evidentiary value of the hat at trial. In reviewing the
record, there is no indication that the Commonwealth
acted in bad faith. At the pre-trial hearings wherein
the status of the testing on the hat was discussed, the
prosecutor reported that he was regularly calling the
lab to inquire about the status of the testing. Defense

95a
counsel admitted that the hat was crucial evidence
and stated no objection to having the hat tested,
although he sought to have their own expert present
for testing.
Miles did assert his right to a speedy trial, both pro
se and through counsel. However, as noted above,
defense counsel did not initially object to the motions
for continuance based on the testing of the hat not
being completed.
As for prejudice to Miles as a result of the delay,
Miles alleges that he lost a key witness for trial,
Steven Edwards, who died on June 25, 2006 in a
motorcycle accident. Upon review of the record, the
only references to Edwards were in a March 2007
motion to dismiss indictment for speedy trial violation
and as an alias for Miles. According to the record, no
subpoenas were issued for Edwards’ appearance at
either of the two trial dates prior to Edwards’ death.
Further, Miles does not allege what Edwards’
testimony would have been and why he was so crucial
to his case.
Finally, although Miles was convicted, the negative
test results on the hat were favorable to Miles’ case at
trial. The negative DNA results on the hat were a
large part of Miles’ defense and were repeatedly
referred to by defense counsel at trial as proof that
Miles was not the shooter.
Upon consideration of all of the above factors in
Barker, we adjudge that Miles was not denied his right
to a speedy trial in this case.
With respect to Miles’ claim that his right to a
speedy trial under KRS 500.110 was violated, it has
been held that said statute only applies when a

96a
defendant is incarcerated for one offense and a
detainer has been lodged against him for another
offense. Gabow v. Commonwealth, 34 S.W.3d 63 (Ky.
2000) overruled in part on other grounds by Crawford
v. Washington, 541 U.S. 36, 60–61 (2004). From our
review of the record, no detainer was lodged against
Miles in this case. Hence, KRS 500.110 is not
implicated here.
GRAND JURY TESTIMONY
Miles argues that the Commonwealth’s witness
Sergeant Teddy Laun presented false and misleading
testimony to the grand jury when he testified that
Officer Hill and Reggie Burney had witnessed the
shooting of Teasley. The grand jury testimony is not
in the record before us. However, in Miles’ motion to
dismiss the indictment for misleading the grand jury,
Miles refers to the following testimony of Sergeant
Laun before the grand jury: “We prepared a photo
pack which was shown to two of the witnesses, um,
they were at the scene of the altercation and at the
scene of the shooting.”
At trial, Officer Hill’s
testimony was that, while he did not see the actual
shooting, he was nearby and saw the defendant
running from the scene. Burney did not testify at trial.
We do not see that said Hill’s testimony and the
evidence adduced at trial was in conflict with the
purported grand jury testimony of Sergeant Laun.
The grand jury testimony was that Hill and Burney
were at the scene of the altercation and shooting and
were able to identify the defendant, not that they
actually saw the shooting. Accordingly, this argument
is without merit.

97a
CROSS-EXAMINATION OF BRYCE BONNER
Prior to trial, the Commonwealth made a motion in
limine to limit the cross-examination of its jailhouse
witness, Bryce Bonner, regarding the nature of his
conviction and whether he sought a deal from the
prosecutor in exchange for his testimony in this case.
The Commonwealth argued that because Bonner had
already been convicted and sentenced as of the time of
Miles’ trial and did not receive a deal or in any way
benefit from testifying for the Commonwealth, any
potential bias would have been eliminated. The
Commonwealth maintained, therefore, that the
defense should not be able to inquire into whether
Bonner sought a deal in exchange for his testimony.
Defense counsel argued that Bonner’s initial motive in
approaching the Commonwealth and seeking a deal in
exchange for his testimony was relevant and could be
inquired into by the defense. The court granted the
Commonwealth’s motion and ruled that the defense
could not ask Bonner if he had initially sought a deal
from the Commonwealth in exchange for his
testimony. Miles argues that his Sixth Amendment
right to cross-examine witnesses was violated when
the trial court would not allow this evidence of
Bonner’s bias to be admitted.
An essential aspect of the Sixth Amendment
Confrontation Clause is the right to crossexamine witnesses. Douglas v. Alabama, 380
U.S. 415, 418, 85 S.Ct. 1074, 1076, 13 L.Ed.2d
934, 937 (1965). Additionally, “the exposure of a
witness’ motivation in testifying is a proper and
important function of the constitutionally
protected right of cross-examination.” Davis v.
Alaska, 415 U.S. 308, 316, 94 S.Ct. 1105, 1110, 39

98a
L.Ed.2d 347, 354 (1974). However, it is equally
well established that the right to cross­
examination is not absolute and the trial court
retains the discretion to set limitations on the
scope and subject: “[T]he Confrontation Clause
guarantees an opportunity for effective crossexamination, not cross-examination that is
effective in whatever way, and to whatever
extent, the defense might wish.” Delaware v. Van
Arsdall, 475 U.S. 673, 679, 106 S.Ct. 1431, 1435,
89 L.Ed.2d 674, 683 (1986) (emphasis in
original). . . . In defining reasonable limitations
on cross-examination, this Court has cautioned:
“a connection must be established between the
cross-examination proposed to be undertaken and
the facts in evidence.” Commonwealth v. Maddox,
955 S.W.2d 718, 721 (Ky. 1997).
Davenport v. Commonwealth, 177 S.W.3d 763, 767–68
(Ky. 2005).
As for limitations on cross-examination on a
witness’ bias, “this Court has explained: ‘So long as a
reasonably complete picture of the witness’ veracity,
bias and motivation is developed, the judge enjoys
power and discretion to set appropriate boundaries.’”
Id. at 768 (quoting Commonwealth v. Maddox, 955
S.W.2d at 721). The test espoused by the Van Arsdall
Court was whether a “reasonable jury might have
received a significantly different impression of [the
witness’] credibility had [defense] counsel been
permitted to pursue his proposed line of crossexamination.” 475 U.S. at 680.
A trial court’s rulings concerning limits on crossexamination are reviewed for abuse of discretion.

99a
Nunn v. Commonwealth, 896 S.W.2d 911, 914
(Ky.1995). In Davenport, we adjudged that the trial
court did not abuse its discretion in prohibiting the
defense from cross-examining the witness about his
probation status or his pending misdemeanor charges
where the Commonwealth had made no offer of
leniency in exchange for the witness’ testimony. 177
S.W.3d at 771. Likewise, in the instant case, Bonner
had not been offered a deal for his testimony and had
already been convicted and sentenced as of Miles’ trial.
He admitted to being a convicted felon at trial. Thus,
at the time of Miles’ trial, Bonner had nothing to gain
in testifying against Miles, which presumably explains
why he ended up being a hostile witness for the
Commonwealth and his testimony was not helpful to
the Commonwealth. Apparently Bonner recanted at
trial, denying that he previously stated to the
prosecutor that Miles’ demeanor was arrogant when
Miles told Bonner that he could not be convicted.
Bonner testified only that Miles told him the
Commonwealth did not have the evidence to convict
him and that he was angry because he was being
accused of crimes he did not commit.
From our review of Bonner’s testimony, we do not
see that the jury would have received a significantly
different impression of Bonner had they heard
evidence that he sought a deal with the
Commonwealth in exchange for testimony against
Miles. The jury knew that Bonner was a convicted
felon and was in jail at the time he had the
conversation at issue with Miles. And even if there
was error, the defense was not prejudiced by Bonner’s
testimony. Thus, it would have been harmless error.
RCr 9.24.

100a
CUMULATIVE EFFECT OF
UNPRESERVED ERRORS
Miles argues that the aggregate of several other
errors, which were admittedly unpreserved,
constituted palpable error under RCr 10.26.
A
reviewing court may grant relief of an unpreserved
error only when manifest injustice has resulted from
the error. RCr 10.26. “To discover manifest injustice,
a reviewing court must plumb the depths of the
proceeding . . . to determine whether the defect in the
proceeding
was
shocking
or
jurisdictionally
intolerable.” Martin v. Commonwealth, 207 S.W.3d 1,
4 (Ky. 2006). Upon review of the entire record, we
cannot say that the alleged errors below, either alone
or cumulatively, rise to the level of palpable error.
Miles first assigns as error the improper
questioning of Bonner by the prosecutor on direct
when he asked him if he remembered the conversation
he had with him the previous day, thereby placing the
prosecutor’s credibility before the jury. As discussed
earlier, the testimony of Bonner was not harmful to
Miles’ case. If anything, it was helpful to the defense.
Accordingly, the error, if any, could not constitute
palpable error.
Miles next alleges prosecutorial misconduct when
the Commonwealth made comments during its closing
argument that the defendant and defense witnesses
were lying. Responding to the accusation in the
defense closing argument that the Commonwealth’s
witness, Crystal Teasley was lying, the prosecutor
argued that Miles and his two witnesses were lying.
In so doing, the prosecution pointed to the
inconsistencies between the defense testimony and

101a
defense theory of the case and the established facts in
the case. However, Miles did not testify in the case.
According to the Sixth Circuit:
If a defendant testifies as here, a prosecutor may
attack his credibility to the same extent as any
other witness. See Raffel v. United States, 271
U.S. 494, 497, 46 S.Ct. 566, 70 L.Ed. 1054 (1926),
see also Fitzpatrick v. United States, 178 U.S. 304,
315, 20 S.Ct. 944, 44 L.Ed. 1078 (1900). This
Court has held that a prosecutor may assert that
a defendant is lying during her closing argument
when emphasizing discrepancies between the
evidence and that defendant’s testimony. See
United States v. Veal, 23 F.3d 985, 989 (6th
Cir.1994). To avoid impropriety, however, such
comments must “reflect reasonable inferences
from the evidence adduced at trial.” See id.
(quoting United States v. Goodapple, 958 F.2d
1402, 1409–10 (7th Cir.1992)). Again, misconduct
occurs when a jury could reasonably believe that
the prosecutor was, instead, expressing a
personal opinion as to the witness’s credibility.
Taylor, 985 F.2d at 846 (citing United States v.
Causey, 834 F.2d 1277, 1283 (6th Cir.1987), cert.
denied, 486 U.S. 1034, 108 S.Ct. 2019, 100
L.Ed.2d 606 (1988)).
United States v. Francis, 170 F.3d 546, 551 (6th Cir.
1999).
As for the prosecution’s assertion in closing
argument that the defense witnesses were lying,
because the prosecution backed up such claims with
specific discrepancies between their testimony and the
evidence, there was no prosecutorial misconduct. As

102a
to the prosecution’s argument that the defendant was
lying, because Miles was not a witness in the case, the
comment amounted to prosecutorial misconduct.
Nevertheless, we adjudge that in this case such
misconduct was neither flagrant nor of such an
egregious nature to deny Miles his constitutional right
to due process of law, especially given the absence of a
contemporaneous objection to the comment. See
Barnes v. Commonwealth, 91 S.W.3d 564, 568 (Ky.
2002) (following the Sixth Circuit Court of Appeals in
United States v. Carroll, 26 F.3d 1380, 1390 (6th Cir.
1994) and United States v. Bess, 593 F.2d 749, 757 (6th
Cir. 1979)) and Slaughter v. Commonwealth, 744
S.W.2d 407, 411–412 (Ky. 1987). In light of the
overwhelming evidence adduced against Miles in this
case, we likewise cannot say that manifest injustice
resulted from said error. Hence, there was no palpable
error.
Miles also assigns as palpable error the
prosecution’s leading of its witnesses, Detective Ashby
and Bryce Bonner, in violation of KRE 611. As noted
above, Bryce Bonner turned out to be a hostile witness
for the Commonwealth. Leading questions of a hostile
witness are expressly permitted by KRE 611(c). And
the question asked of Detective Ashby regarding the
testing of the toboggan hat, if leading at all, would not
amount to palpable error.
The last three alleged palpable errors are
summarily raised in Appellant’s brief without any
citation to the record, citation to authority, and
without any explanation as to why they constitute
error. See CR 76.12(4)(c)(v). Those arguments were
not properly presented to this Court and thus will not
be addressed.

103a
For the reasons stated above, the judgment of the
Jefferson Circuit Court is affirmed.
All sitting. All concur.
COUNSEL FOR APPELLANT:
Aubrey Williams
Williams & Associates
421 Starks Building
455 Fourth Avenue
Louisville, KY 40202
COUNSEL FOR APPELLEE:
Jack Conway
Attorney General
Henry Albert Flores, Jr.
Assistant Attorney General
1024 Capital Center Drive
Frankfort, KY 40601

104a

APPENDIX I

No. 19-5340
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
FILED
Apr 19, 2021
DEBORAH S. HUNT,
Clerk
TERRANCE MILES,
Petitioner - Applellant,
v.
SCOTT JORDAN, WARDEN,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)
)

ORDER

BEFORE: COOK, GRIFFIN, and LARSEN,
Circuit Judges.
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the case. The petition then
was circulated to the full court. No judge has


Judges Readler and Murphy recused themselves from
participation in this ruling.

105a
requested a vote on the suggestion for rehearing en
banc.
Therefore, the petition is denied.
ENTERED BY ORDER OF THE COURT
s/Deborah S. Hunt
Deborah S. Hunt, Clerk

106a

APPENDIX J

IN RE:
COMMONWEALTH OF KENTUCKY
VS.
TERRANCE E. MILES
__________________________/

TRANSCRIPTION OF AUDIO
RECORDED PROCEEDINGS
PRETRIAL PROCEEDING
December 5, 2005

Transcribed by:
Melissa Iadimarco
Court Reporter/Transcriptionist

107a
Page 2
PROCEEDINGS
THE COURT: Thank you. All right. I’ve been
handed and I know you filed this Friday, but it
certainly hadn’t made it up through the channels. Two
motions to prevent in court ID of Mr. miles and these
were I believe filed on Friday. Mr. Davis, you had
these?
MR. DAVIS: Judge, these were in my chair when I
showed up Monday morning. So whoever received
them in our office—
THE COURT: Okay.
MR. DAVIS: —put them in my chair. I may have
left a half hour early on Friday or something. I have
an officer here I can put on. The very best witness for
this hearing is probably the two individuals that
actually made the photo pack identifications. And I
don’t have a problem with putting them on as
witnesses, but I didn’t know to subpoena them for
today, I didn’t know what the entire subject matter of
the suppressed motion was going to be. And that
having been said, there is—there are two items in
evidence. One is very substantial, that are not back
from the lab yet. I know we’re actually scheduled for
a trial next week.
THE COURT: Next week.
Page 3
MR. DAVIS: And Mr. Olash and I had talked about
this.
THE COURT: What’s that about?
MR. DAVIS: A toboggan found at the scene that the
Commonwealth at this point will allege that the

108a
defendant or the shooter was wearing at the time of
the shooting. And that toboggan is still at the lab
being tested for fibers and hairs. There are no results
back yet. I was waiting to see if it was back by now.
And even now, even if we had it today, it might be too
short of notice for the defense. But we do not have it
today. And so it will be our motion for a continuance.
It’s going to be final evidence, either inculpatory or
exculpatory one way or the other. And they’ve had it
for a number of months now. So it should be
progressing its way.
THE COURT: You don’t know whether it’s actually
been tested, as we speak?
MR. DAVIS: I do not.
THE COURT: All right. And what else is new?
MR. DAVIS: Ballistics, the gun that was recovered
and sent off, we don’t have the results on that either.
THE COURT: And you’re aware of this, I’m sure?
MR. OLASH: We’ve had a number of discussions
Page 4
since the last time we were in the Court.
MR. DAVIS: We’ve spoken on the phone.
MR. OLASH: I expected this because of the—the
normal course of getting evidence back from the lab.
It generally requires additional time. But in regard—
last time we were here, Your Honor, I advised the
Court that I was going to challenge the
identification—
THE COURT: Right.
MR. OLASH: —of Mr. Bernie. And in all respect to
the Commonwealth, I didn’t realize at the time that I

109a
was going to challenge Mr. Bernie’s identification. So
they didn’t have any notice that that was going to be
an issue until I filed this late last week. So Mr. Bernie,
of course, is not here because the Commonwealth did
have an opportunity to secure his appearance.
THE COURT: We have who else? Hill?
MR. DAVIS:
Bernie.

Yes, ma’am, Frank Hill, Reggie

THE COURT: Is Hill available?
MR. DAVIS: Not today, no, ma’am.
THE COURT: You could put on who?
MR. DAVIS: I could put on my officer, Sergeant
Teddy Lawn (phonetic), if you want us to do that. I
Page 5
will probably not put her on at all if I had the other
two witnesses here.
THE COURT: I’m going to end up hearing from the
other two, I mean, whether it’s morning of trial or
whenever. So, first up is to get the labs back. Worst
case scenario, your two witnesses will be here on trial
date, right.
MR. DAVIS: They should be, yes.
THE COURT: And it’s next week.
MR. DAVIS: That’s fine.
THE COURT: And if you wish to put this officer on,
you may but if you’re going to not call her because
you’re going to call the other two, you might as well
not because we’re going to hear from the other two
next week.
MR. DAVIS: Right. And that’s what I plan to do.

110a
THE COURT: Okay. Back here for trial December
13th. Assuming your evidence is back, we’ll get a late
start on actually starting the trial.
MR. DAVIS: Thank you, Judge.
THE DEFENDANT: Excuse me, Your Honor. They
had the—
MR. OLASH: Wait, wait.
THE DEFENDANT: They had the toboggan since
February.
Page 6
THE COURT: It’s the last—
THE DEFENDANT: It’s a stall tactic. I would like
to have somebody present.
THE COURT: The labs got it.
THE DEFENDANT: I want to have someone
present when it’s tested. According to McGregor
versus Harris (phonetic) I can do that.
THE COURT: Sir, make your motion.
THE DEFENDANT: I want a motion to see—
THE COURT: Make your motion.
THE DEFENDANT: —the affidavit, to how—how
the toboggan is being tested.
THE COURT: Mr. Collins (phonetic), Mr. Salinski
(phonetic), I know you’re here.
(This section of audio concludes.)

111a
Page 7
CERTIFICATE
I, MELISSA IADIMARCO, do hereby certify that I
was authorized to transcribe the foregoing recorded
proceeding, and that the transcript is a true and
accurate transcription of my shorthand notes to the
best of my ability taken while listening to the provided
recording.
Dated this 6th day of April, 2020.

s/Melissa Iadimarco
MELISSA IADIMARCO, CSR

112a

APPENDIX K

IN RE:
COMMONWEALTH OF KENTUCKY
VS.
TERRANCE E. MILES
__________________________/

TRANSCRIPTION OF AUDIO
RECORDED PROCEEDINGS
PRETRIAL PROCEEDING
December 13, 2005

Transcribed by:
Melissa Iadimarco
Court Reporter/Transcriptionist

113a
Page 2
PROCEEDINGS
THE COURT: Commonwealth versus Terrance
Miles. Olash and Davis both present. The matter was
scheduled for trial today. I understand there’s still—
we still don’t have DNA on the toboggan?
MR. OLASH: Right.
THE COURT: Still no results?
MR. DAVIS: That’s correct, Your Honor.
THE COURT: Counsel, can you go forward without
it?
MR. DAVIS: We cannot, Your Honor. We are not
prepared to go forward without the DNA test results
of that toboggan. Quite honestly, could help both
sides. It could be exculpatory. It could be inculpatory.
I have—I guess it could be nothing or it could be
inculpatory. In any case, the Commonwealth moves
for a continuance at this point to wait the results of
that test.
I received a pro se motion from the defendant on
that issue. And I don’t know if the Court wants to
address that motion or how we want to do that.
THE COURT: I don’t know if I have that.
MR. OLASH: Defense remands any pro se motions.
THE COURT: Is that correct, Mr. Miles?
MR. MILES: Yes, ma ‘am.
Page 3
THE COURT: Well, it could be exculpatory, but we
wouldn’t know what the results are going to be. I’m
looking at April 11th is the next realistic trial date.

114a
MR. OLASH: I’m free all of April.
MR. DAVIS: The 11th is fine, Your Honor.
THE COURT: 4/11 at 9:30. Counsel, do you believe
you’re going to need any hearing dates between now
and then?
MR. OLASH: Yes. May I approach?
THE COURT: You may.
MR. OLASH: Just for the record, I’m filing a motion
for a speedy trial.
THE COURT: Okay. All right. I got you. 12/13.
MR. OLASH: Cross file a motion to dismiss the
indictment, based on misleading grand jury testimony.
And I would ask the Court to—it’s my suggestion if we
could get a pretrial date—
THE COURT: I’ll do that. And I’ll—
MR. OLASH: So we can have a hearing on that.
THE COURT: I’ll hear this. I’ll hear any other
motions that are pending. That way, if something
comes up, you can notice it for that day, so—
MR. DAVIS:
Your Honor, I apologize for
interrupting—were you saying something else? I’m
Page 4
sorry. We still have some (inaudible) issues.
THE COURT: I can give two 30 minutes, as opposed
to one full hour.
MR. DAVIS: Okay.
THE COURT: We’ll probably go in February.
MR. OLASH: That’s fine.

115a
THE COURT:
I’ll give you an hour on
February 17th at 8:30. All right. February 17th at
8:30 is a full hour.
MR. OLASH: That’s fine.
THE COURT: 2/17. Mr. Davis, that works?
MR. DAVIS: It does. I have a sentencing next-door
at 9:00, but I could have somebody cover that.
THE COURT: All right. 8:30 on 2/17 for an hour.
Again, any motions that do come up between now and
then, notice them for that day. And we’ll see you then.
MR. DAVIS: Thank you, Judge.
MR. OLASH: Thank you, Judge.
MR. DAVIS: Your Honor, I’m sorry. Before we let
that go, I just want to make sure the record—
THE COURT: Wait a minute.
MR. DAVIS: I just want to make sure the record is
clear. Mr. Olash has been asking for a 502, a
Page 5
videotape from the Club 502. And we have that tape.
We have a backup in the tape copying center. It’s
there. It’s been there for a while. As soon as it’s ready,
I’m going to give that copy to Mr. Olash.
THE COURT: Get that to him. Okay.
MR. OLASH: And Mr. Davis has also advised me
that he’s had contact with Officer Frank Hill. And
Frank Hill has told him that that there is no in-car
video. And Mr. Davis is going to file a written
response, so we can put it in the record that there was
no in-car video that was recorded at the time or near
the time of the shooting.

116a
MR. DAVIS:
I got that through second-hand
information, not directly from Mr. Hill. So I do still
need to talk to Mr. Hill. I think that’s the case.
THE COURT: Okay. Well, either way, do it in
writing.
MR. DAVIS: I will.
MR. OLASH: Finally, the prosecution is also going
to provide the medical examiner’s report this week.
MR. DAVIS: I have that.
THE COURT: Okay. Okay. Thank you, all.
(This section of audio concludes.)

117a
Page 6
CERTIFICATE
I, MELISSA IADIMARCO, do hereby certify that I
was authorized to transcribe the foregoing recorded
proceeding, and that the transcript is a true and
accurate transcription of my shorthand notes to the
best of my ability taken while listening to the provided
recording.
Dated this 6th day of April, 2020.

s/Melissa Iadimarco
MELISSA IADIMARCO, CSR

118a

APPENDIX L

IN RE:
COMMONWEALTH OF KENTUCKY
VS.
TERRANCE E. MILES
__________________________/

TRANSCRIPTION OF AUDIO
RECORDED PROCEEDINGS
PRETRIAL PROCEEDING
April 11, 2006

Transcribed by:
Melissa Iadimarco

119a
Page 2
PROCEEDINGS
THE COURT:
I’m looking for an August or
September date. I’m going to. So just be ready when
I ask you, for Miles. Is Miles in the courtroom?
MR. OLASH: Yes.
THE COURT: Olash and Davis present. Thank
you. Scheduled for trial today and we had the bad
premonition that we wouldn’t be able to because of the
testing that’s not been finished. Am I—
MR. DAVIS: That’s correct.
THE COURT: Am I correct.
MR. DAVIS: And I still haven’t heard back from
them.
THE COURT: Okay.
MR. DAVIS: I intended to call this morning when I
got in, but I got swamped by phone calls as soon as I
walked in and didn’t get a chance to. But as of
Wednesday of last week, it was (inaudible).
THE COURT: And you’ve received nothing?
MR. DAVIS: Right.
THE COURT: And Mr. Olash, you were aware of
that? Mr. Miles, you’re aware of that.
MR. OLASH: Yes, for the record I represent Mr.
Miles, who is present. I believe (inaudible) be noted.
We also (inaudible).
Page 3
MR. DAVIS: Your Honor, I am fully aware of that.
Obviously with the crucial evidence—it could be
crucial evidence to either side.

120a
THE COURT: Well, you know, that’s why I was
concerned with it, because it could be exculpatory.
And I’m sure that’s the hope of the defense, that it is.
If we try this case now and it’s comes back exculpatory,
you know, you would have waived the right to use that
evidence. So it’s a gamble both ways. So I mean, I’m
ready to go forward today if you all want to. But you
won’t have that evidence and you won’t be able to use
that evidence if there is a conviction in this case for
any, you know, future proceedings. So—
MR. DAVIS: Your Honor, we’re not (inaudible) the
evidence for the record. I certainly respect the Court’s
readiness to go (inaudible). We feel like we need this
evidence in our case. We feel like it’s (inaudible) major
way that it is our—a motion to for a continuance based
on the outstanding potential DNA evidence, whether
it be exculpatory or inculpatory.
THE COURT: Any comments, Mr. Olash?
MR. OLASH: Your honor, the defense is ready to go
forward. My client’s been in custody (inaudible)
Page 4
tested since about a week after Mr. Teasley was killed.
It’s been over a year this case has been pending. There
hasn’t been any demonstration by the prosecutor to
show why the delay occurred. I do know the record
reflects (inaudible) sent to the lab. It was early
November of 2005. So there’s been some unnecessary
delay (inaudible) and now that (inaudible). So the
defense is ready to go forward. There is a speedy trial
motion pending. My client would like to have his day
in court (inaudible).
MR. DAVIS: Just a brief response, Your Honor. I
don’t think it went to the wrong lab. I just think it was

121a
the process that this DNA had to go through.
(Inaudible) backed up and then (inaudible) I don’t
think there was a mistake on where it was sent—
THE COURT: Just a channel of the type of evidence
in the—
MR. DAVIS: Yes, ma’am. And I would also bring to
the Court that Mr. Miles is serving a sentence I think
it’s a ten-year (inaudible).
THE COURT: He is.
MR. DAVIS: Terms that we might have (inaudible)
custody for someone alleviated by that.
THE COURT: Motion’s granted. We’ll get a new
trial date. Please stay on this lab as best as
Page 5
everybody can to get these results, but we’re ready to
go. What’s the date?
THE CLERK: June 26th.
MR. OLASH: That’s fine.
MR. DAVIS: That’s fine.
MR. OLASH:
motions.

Your Honor, I have a few other

THE COURT: Sure.
MR. OLASH: May I approach?
THE COURT: You may.
MR. OLASH: If the court may continue this
(inaudible) Mr. Miles is in custody and if the Court
released him on this charge, that would effect the fact
that he still remains in custody. It does effect his
ability to move in the prison and take advantage of
rehabilitative opportunities. So he’s on lockdown

122a
much—and he’s serving time in a much more
restrictive way than he would, had this murder would
not be pending or not have a bond notice. So I would
request the Court give us 30 minutes for hearing.
THE COURT: I’ll be happy to do that. Nona? May
25th at 9:00. 5/25, 9:00.
MR. OLASH: For the record, Mr. Miles is going to
waive the appearance (inaudible) he does not want to
be here. (Inaudible)
Page 6
THE COURT: On May 25th, you don’t wish to be
here?
MR. MILES: No, ma’am.
THE COURT: Okay. Make sure you supply Mr.
Olash with all the necessary documentation that he’ll
present on your behalf then. So that it’s in the record.
So that sheet shouldn’t say—I don’t want him back
here on that date. All right. Mr. Olash?
MR. OLASH: The prosecution has indicated the
toboggan has not been tested. And as the Court has
stated and the defense agrees—I think we’re all in
agreement that this is crucial part of the case. The
results are going to favor one side or the other. And it
could be the determining factor as far as how this case
is resolved. Under the holding of McGregor versus
Heinz, I’ll provide (inaudible) the Court and
prosecution in this case number, Cite No. 99
(inaudible) the defense has a right to be present at the
time of the testing. And the defendant has a right to
have notice of it or have his attorney of agent present
at the time of the testing. And I would ask the Court
to sign an order that I would provide (inaudible)

123a
prosecution to provide me notice and the opportunity
to be present or have an agent present—
THE COURT: Mr. Davis?
Page 7
MR. DAVIS: Your Honor, I haven’t seen this
motion. If that is in fact, like he says, then we’re going
to be waiting until we get notice from them that they
have someone that can go to Frankfort and they will
have to comply with that person’s schedule to go back
to Frankfort before the testing can even begin. So
we’re talking about more delays. And I would like to
take a look at this McGregor v. Heinz case before I—
(Inaudible).
THE COURT: Well this is—because we don’t even
know when they are going to test it. So—
MR. DAVIS: Right, they could have already started.
THE COURT: Do you have that motion in writing?
MR. OLASH: I can get it over to you today—
THE COURT: Can you get it over here today? Give
us that cite on that case for Mr. Davis. I can submit
on that. You can file a response. I want to get that
resolved quickly. I mean if it’s being tested now, we’re
just going through motions for no reasons.
MR. OLASH: I don’t expect there is going to be any
issue. I think this is a clear case. I think—
THE COURT: All right. If you’ll get it over. Mr.
Davis, if you can respond—I can either submit or try
to squeeze you all in here sometime this week.
Page 8
Thursday, I think.

124a
MR. DAVIS: Judge, if I can have a day to respond
to his motion and I’ll respond by tomorrow—
THE COURT: Do you want to submit or—
MR. DAVIS: Two days is fine. This is not a big deal
to me, other than—
THE COURT: Well, logistically it will be if I grant
it. And then we’ve got to coordinate whoever you’re
designating to be present with them. I mean—all
right. So as soon as I get that, I’ll look at it and rule
on it. All right. Thank you all. We’ll see you—other
than Mr. Miles, we’ll see you May 25th.
MR. DAVIS: Thank you , Judge.
THE COURT: May 25th, it is. All right.
(This section of audio concludes.)

125a
Page 9
CERTIFICATE
I, MELISSA IADIMARCO, do hereby certify that I
was authorized to transcribe the foregoing recorded
proceeding, and that the transcript is a true and
accurate transcription of my shorthand notes to the
best of my ability taken while listening to the provided
recording.
Dated this 11th day of May, 2020.

__________________
MELISSA IADIMARCO, CSR
***

126a

APPENDIX M

IN RE:
COMMONWEALTH OF KENTUCKY
VS.
TERRANCE E. MILES
_____________________________/

TRANSCRIPTION OF AUDIO
RECORDED PROCEEDINGS
JURY TRIAL

Transcribed by:
Melissa Iadimarco
***

127a
Page 93
diabetic or has any medical needs, where you need to
munch on something? If you do, let me know. If you
have a back problem, knee problem, you have to stand,
you can do that as well. And if you need to break for a
restroom break or make a call before I do, because
sometimes I do just go on, raise your hand. We’ll do
that. So it’s not going to be a problem.
I do want to swear you in as the jury in this case. If
you’d all raise your right hands. Do each of you
solemnly swear or affirm you will impartially try the
case between the Commonwealth of Kentucky and
Terrance Miles and render a true verdict according to
the evidence and the law, unless sooner dismissed by
the Court?
THE PANEL: Yes.
THE COURT: All right. We’re starting with
opening arguments. As you know, many of you are
very familiar with this. We always start with the
Commonwealth. And at the very end of the case, we
will end with the Commonwealth when we do closings.
So are we ready for openings, then, Mr. Mascagni?
MR. Mascagni: Yes, Your Honor. Thank you, Your
Honor. Ladies and gentlemen of the jury, on the
morning of February 7, 2005, Michael Teasley, loving
son, loving father, loving husband, loving brother,
***
Page 97
Hill picked him out. That’s him. That’s the one he
fought with. That’s the one I saw running.
The next day, this defendant went to Enterprise
Rental and turned in the car he had for a new one. He

128a
left some stuff in his car, personal stuff. So police
know that he went to Enterprise the next day and
traded out cars. Not only that, he also, sometime in
the next few days, wanted to change his appearance.
So he cut his hair. He had braids that he cut off. He
was all over Louisville’s most wanted, all over the
news. He knew he was wanted. And he was hiding
out. There was all kinds of people looking for him,
different types of police officers, different types of U.S.
Marshals. They were running on the news every
night. He was wanted. He knew it. He was hiding
out.
On March 1, 2005, police received a call from a man
named Charles Brown. Charles told the police that he
was concerned because he had seen that Terrance was
wanted, and he had an apartment that he let Terrance
stay at. Terrance had a key. Terrance had a bed there.
So Charles was worried. He said, look, you all
probably need to search this place, gave them consent
to go look in his apartment. It was there that the
police found black pants and a black shirt.
Page 98
They also found a gun under the mattress, which we
later found out was not the same gun used in the
murder, but he did, in fact, have a gun.
Finally, on March 10, 2005, Officer Kelsey, who was
a pastor at a local church, received a call from one of
the families there, telling him that they had gotten
word from the defendant that he knew he was wanted
and that he wanted to turn himself in. Officer Kelsey
met him that day and the defendant turned himself in
and surrendered. When the case is other and you all
hear all the evidence, I have no doubts that you all will

129a
conclude that Terrance Miles is a dangerous cold-blood
killer and you must hold him responsible for the
slaying of this man, Michael Teasley. I thank you.
THE COURT: Okay. Thank you, Mr. Mascagni.
Mr. Olash?
MR. OLASH: May it please the Court?
THE COURT: Uh-huh.
MR. OLASH:
Mr. Mascagni and ladies and
gentlemen of the jury. I prepared my opening and
then I just forget about everything after I hear—when
we get into the case. First of all, I want to address
something that Mr. Mascagni said, that you’re going
to hear proof that Terrance was thrown out of the club
***
Page 117
didn’t make it.
MR. DAVIS: Okay. That’s all the questions I
have for you, ma’am, at this time. Thank you.
THE COURT: No questions?
MR. OLASH: No, Judge.
THE COURT: Thank you, ma’am, you’re excused.
Your next witness, Mr. Davis?
MR. DAVIS:
Thank you, Judge.
The
Commonwealth’s next witness is Frank Hill, Officer
Frank Hill.
THE COURT: Officer Frank Hill, please. You
might be blocking a juror from a witness. Thank
you.
Officer Hill, if you’d raise your right hand to be
sworn, please. Do you swear or affirm that the

130a
testimony you’re about to give will be the truth, so
help you God?
THE WITNESS: Yes, it is.
FRANK HILL
having been duly sworn, was accident happened
and testified as follows:
DIRECT EXAMINATION
BY MR. DAVIS:
Q. Officer, good afternoon.
A. Yeah.
Q. Please introduce yourself to the members of the
jury.
Page 118
A. Officer Frank Lee Hill.
Q. And sir, where are you employed?
A. Louisville Metro police department.
Q. What division?
A. Second division.
Q. And what is your current assignment? What
specific job do you do?
A. I’m a patrol man with the second division.
Q. How long have you been a patrol man with the
Louisville Metro police?
A. Approximately, 23 and-a-half years.
Q. Do you recall what you were doing in February
of 2005?
A. Yes, I do.
Q. And do you recall where you were working offduty at that period of time?

131a
A. I was working off duty at a club called 502,
located on Dixie Highway.
Q. All right. Where is that? Is that in Jefferson
County?
A. Yes, it is.
Q. And specifically, say related to the Watterson
Expressway; is it north or south of the Watterson on
Dixie Highway?
A. It’s going to be south.
Page 119
Q. Is that—
A. North, I’m sorry.
Q. Okay. The—how often or how long had you
worked there in February of 05?
A. Approximately, maybe eight months. I’m not
for sure exactly.
Q. And when you’re on duty or on duty—when
you’re at work, off-duty at 502, what are your duties?
A. My primary duty was to sit there and observe
people going in. Make sure they’re orderly. People
that they put out in the club and everything, to make
sure that they leave the club, leave the premises, leave
the area and not create a disturbance.
Q. And what are you driving when you’re at work
at 502?
A. My police cruiser.
Q. And are you wearing your outfit like you are
today?
A. Yes, I am.

132a
Q. So is it fair to say that part of your job there is
to be a police presence there?
A. Yes, uh-huh.
Q. Let’s go back to February the 27, 2005. Tell the
jurors in your own words, officer, what you remember
from that evening.
Page 120
A. I—approximately, about 2:25 hours in the
morning, I was sitting in my police car—
Q. You’re talking about 2:25 a.m., in the morning?
A. A.m., in the morning. And I was sitting in my
police car. And to my left side, I heard a commotion.
Q. I’m sorry. Let me interrupt you. Where are you
sitting? Let’s—officer—
MR. DAVIS: Judge, may the officer step down?
THE COURT: He may.
BY MR. DAVIS:
Q. Officer, let me have you look at this aerial
photograph and try not to block any of the jurors,
please. See if you recognize this area. Do you
recognize this as the Club 502?
A. Yes, uh-huh.
Q. Okay. All right. And where is Dixie Highway?
A. Right here.
Q. Okay. Now you said, let me just make sure
everybody can see. I think you were starting to say
you were parked in your car. Where were you parked?
A. I was parked adjacent right here in front of the
club. That’s the people going to the entrance.
Q. Okay. So where is the entrance to the club?

133a
A. In the rear of the building here.
Q. Right here?
Page 121
A. Yes, uh-huh.
Q. Okay. And where was your car?
A. My car was facing diagonal, towards the front
door, sort of.
Q. So you’re right—right out front?
A. Yes, I was.
Q. Okay. And you said you saw something?
A. Yeah.
Q. Around 2:25, what happened around 2:25?
A. I observed a
individuals fighting.

commotion

between

two

Q. And where was that?
A. It was fighting not only on the outside—it was
outside the door in the parking lot, right next to where
I was almost sitting there.
Q. Okay. So if the front door’s here, are you saying
it was just off—
A. Yeah, it’s off right here.
Q. To the side a little bit?
A. To the side.
Q. And what—did you recognize those individuals?
A. I recognized one individual.
Q. Who did you recognize?
A. It was like Mike. He was the bouncer of the
club.

134a
Page 122
Q. And we’ve already seen a picture of this
individual. Is that Mike?
A. Yes, it is.
Q. Do you recognize him? Okay. And that’s one of
the two people you saw in the scuffle?
A. Yes.
Q. What happened, tell them what occurred:
A. Well, I got out of my car and I walked over. And
I told both individuals to stop fighting. And at the
time, Mike had the individual in a headlock. And with
his left arm in a headlock, with his right hand hitting
him in the face.
Q. Okay. So he’s punching him. And did you break
up the fight?
A. I couldn’t break it up because Mike is a largesized individual. And I tried to pull him off, but I
couldn’t at the time.
Q. So did you get help?
A. Yes, I did. I asked two of the young ladies
standing in front of the club to go inside to get one of
the other bouncers to come outside to help me break
up the fight.
Q. And did that happen?
A. Yes, it did.
Q. All right. So after the fight gets broken up,
Page 123
what occurs?
A. After the fight get broken up and everything, I
get—they got up and Mike made the statement that

135a
no one ever hit me again. Don’t ever sucker punch me
or strike me and I looked at Mike. And I said, do you
want me to lock this individual up and he said no. He
said, get him off the parking lot. And so I turned
around, face-to-face to the individual and told him to
leave the parking lot, to leave the area and don’t come
back.
Q. All right. So it cools down. You tell him to
leave. Where—did he leave?
A. Not right then. He made a couple statements
before he left.
Q. What did he say?
A. He stated you are—you got best of me. You’re
the man. You’re the winner. You the man.
Q. And what was—what was his demeanor? What
was the look on his face while he was doing that?
A. It was a calm demeanor. It was a calm look on
his face.
Q. Was that unusual to you in any way?
A. Very unusual after fighting like that.
Q. Okay. And do you recall ever having seen
somebody that calm?
A. No, never seen anybody that calm before—after
Page 124
a big fight like that.
Q. Okay. All right. Where did he go?
A. He left the area. He went northbound, made a
left turned and went around the building.
Q. Okay. So when you’re breaking it up, are you
still right in here?

136a
A. Yes, I am.
Q. And which way does he go?
A. He went northbound toward—
Q. This way?
A. —toward the end of the building and made a left
and went out.
Q. That way?
A. Yeah.
Q. And you didn’t see him any more after that?
A. No, I did not.
Q. Was he walking? Did he get in a car?
A. He was walking.
Q. Okay. Do you remember what he was wearing
at that point.
A. It’s all dark clothing. I—if I—from what I can
remember, maybe a toboggan. I’m not for sure at that
time.
Q. Okay. You don’t know if he had a hat on at that
time or not?
Page 125
A. I can’t remember whether he had a toboggan or
a hat, but I know all dark clothing.
Q. All dark clothing?
A. Uh-huh.
Q. Shirt?
A. Uh-huh.
Q. Pants?
A. Uh-huh.

137a
Q. Okay. You remember shoes standing out at all?
A. I don’t remember. I never looked at the shoes.
Q. Okay. Now you said that’s about—or started
around 2:25?
A. Yes.
Q. And how much time passes before the next
incident?
A. Around about 3:30, the club was exiting out.
People were walking and everything. And the next
thing I usually do is go over to the next parking lot, I
chase them from the club to make sure that everybody
is off the parking lot. Where people occur, they usually
fight or usually argue or they usually get over there
and create a disturbance.
Q. Okay. And let’s talk about that a little bit. Is
that unusual to have fights at the Club 502, or was it?
A. At some time it’s unusual. Sometime it’s not
Page 126
unusual.
Q. Okay.
A. I just see normal procedural some times got out.
Q. Okay. And I think you testified your car was
parked here at least when the fight occurs?
A. Uh-huh.
Q. Where did you go after that?
A. Well, I backed up, made a circle in the parking
lot that I was sitting in to go over to the next parking
lot.
Q. Okay. Hold on. Show them how you made the
circle and where you went?

138a
A. Okay. I backed up, made a loop like this to go
around this area here and make sure everybody is
going out of the parking lot. Then I went back over
here and went into the next parking lot.
Q. Okay. I guess you went out on the road?
A. Yes, I did.
Q. To get it to the next parking lot?
A. They came—came through here.
Q. Oh, right in, I see.
A. And came into the next parking lot.
Q. Can you drive through here?
A. No, I cannot.
Q. How come?
Page 127
A. There’s a drawbridge right here. And you
cannot drive through and it’s blocked off completely.
Q. So just a little bridge you can walk across?
A. Yes.
Q. All right. Is there a fence or a ditch or—
A. There’s a ditch there.
Q. Okay. All right. So when you drove over to the
second parking lot, does that belong to Club 502?
A. I don’t know if it belongs to them or not. I know
they was utilizing for people to park.
Q. Okay. So people were parking there that go to
the club?
A. Uh-huh.
Q. And where do you take your car?

139a
A. I take my car and I pull it in approximately
right in this area right here, maybe about 30 feet from
Dixie Highway, facing eastbound, sitting right here.
My lights on and everything. So everybody can see me,
so everybody can get them out. And I was to get them
out of the parking lot. I was using my loud speaker.
Q. Do you have—and what were you saying over
the loud speaker?
A. I was saying, please, everyone exit the parking
lot. Please exit the parking lot.
Q. Okay. And do you have any way to estimate
how
Page 128
many people were in the parking lot, a lot, a few?
A. It was a lot of people; probably, maybe if I’m not
mistaken, maybe 60, 70 people.
Q. Okay. And are they all in this parking lot, are
they coming through, are they in both parking lots?
A. They’re in this parking lot, most of this parking
lot was empty and some was still trickling through
here, but most of them is in this parking lot right here.
Q. All right.
A. Along with the cars and everything was over
there.
Q. What did you see?
A. I was sitting there, approximately—I heard
about five to six gun shots ring out. And it’s like I
did—I jumped out of my car, withdrew my weapon and
put it down by my side and I was looking in the area
the gun shots was coming from. I then proceeded to
that area, but I couldn’t hardly get through because

140a
the crowds of people was running towards me and as I
was pushing people out of the way trying the get to the
area. As I got to the area, I observed Mike laying on
the ground between two vehicles. And I noticed he had
been shot several times. So I asked if people standing
there, still there was some people still around the area.
I said where is the shooter, where is the shooter and
they said there he goes across the
Page 129
parking lot. As I look across the parking lot, I observed
the subject with all dark clothing on, running across
the parking lot.
Q. And did you—were you able to observe his
build?
A. Yes, I did.
Q. And what was his build?
A. A slender-type person, slender built.
Q. Slender built. With your able to gauge height
from however far away you were?
A. I—not exact. Approximate—about maybe—I—
40 feet.
Q. Okay. So you’re like 40 feet. Is that something
that you could gauge on the inside of this courtroom,
like, if you take a seat for a second, if you don’t mind.
Like, if you are standing with your gun right where
you’re sitting in the chair?
A. Uh-huh.
Q. And you see this individual running, is it
further than from you to me?
A. Yes, it is.

141a
Q. Okay. All right. If I back up into the courtroom,
could I represent the distance?
A. A little bit farther.
Q. So it’s going to be a little bit further than
***
Page 147
Maybe not that quite.
Q. Could you come up here again. Have you been
out there recently?
A. I—I did a couple times after the shooting
incident, but not now.
Q. And do you know if these parking lines are still
here?
A. I don’t know, sir. They could have paved over
by now.
Q. Sure. But if they still exist, we could actually
find the number of feet—determine the—
A. Probably could.
Q. —the number of feet?
A. Probably could.
Q. Okay. Thank you. Now if you would, if you’d
describe to me everything you remember about the
appearance of the shooter.
A. As I looked and observed the subject running
across the parking lot in all dark clothing, I didn’t look
to see if he had anything in his hand or not, but he had
all dark clothing, running in that direction. And they,
people pointed to me, Officer Hill, that’s the shooter,
that’s the shooter.
Q. Right. You saw the shooter, right?

142a
A. I did not see the shooting take place.
Page 148
Q. But you saw the man running—
A. I saw the man running away from the area
where the shooting took place.
Q. The suspect?
A. Yes, sir.
Q. Okay. And he was wearing all dark clothing?
A. Yes, sir.
Q. And you just saw the back-side of him?
A. Yes, sir.
Q. You didn’t get a good look at him, did you?
A. Not the front, sir.
Q. You didn’t get a good look at him?
A. Not the front face, sir, only from the rear.
Q. You’ve testified about this before, haven’t you?
A. (No verbal response).
Q. Not testified, but you’ve given your statement to
the homicide detective from the Shively police
department, right?
A. Yes, I did.
Q. And that was on February 28th, 2005?
A. Approximately, if that’s correct, yes.
Q. That was at the Shively police department,
right?
A. Yes, it was.
Q. And it was 1:52 in the afternoon?
A. I don’t remember exactly what time it was.

143a
Page 149
Q. But it was in the afternoon and within—witness
I guess by 12—within 12 hours of the actual—your
actual observations?
A. Yes, uh-huh.
MR. OLASH: And the detective—I’m going to—
show the witness this transcript you provided me.
I’m looking at 196, line—it’s Bates number, Your
Honor, 196. And I want to ask the witness to look
at this and see if this refreshes his memory.
BY MR. OLASH:
Q. And you can read as much as you want. My
attention is directed at Line 9, the question and your
answer.
A. Okay.
Q. Okay. Now my question to you: Did you get a
good look at him?
A. Sir, he had on all dark clothing. I never saw the
front part of the individual. I saw the rear part of the
individual. All dark clothing, as I stated here.
Q. Okay. Can I see that? I’m going to ask you to
read your response to No. 9.
A. Okay.
Q. Okay the question is:
Did he have any
particular type of shirt or coat on or anything. That
was the question that the detective asked you, correct?
Page 150
A. Okay.
Q. And your answer—if you could, read that and
tell me if—if that’s not correct, let me know.

144a
A. Okay. I don’t know exactly what type of shirt or
coat or pants he had on. I just know it was all black.
If I’m not mistaken, he had dreadlocks. He had a curl
or—I’m sorry, he had a toboggan and it looked like he
had some braids coming out or something. And if I’m
not mistaken. I didn’t get a good look at him.
Q. Now is that—does that answer accurately
reflect the answer that you gave the homicide
detectives?
A. That’s what I gave to the homicide detectives at
that time.
Q. So that’s an accurate transcript?
A. That’s accurate at that time.
Q. Okay. Has your story changed?
A. As far as I’m concerned, it was all dark clothing.
Like I said, I didn’t really get a good look at his hair.
Q. Now correct me if I’m wrong, but since you’ve
been on the stand today, have you mentioned anything
about seeing a toboggan?
A. I said he might have had a toboggan on. I don’t
know for sure. I could have been mistaken.
Q. Okay. So as you stand here today, you don’t
Page 151
remember seeing a toboggan when you’re in the
parking lot on February the 28th?
A. I don’t remember whether he had a toboggan or
not on. I can’t remember.
Q. Okay. Let’s go back on. Let’s just make sure we
have this. This is in the same line of questioning. If
you could, read—you’re not sure today or you know for
sure he didn’t have a toboggan?

145a
A. I’m not sure today.
Q. So he may have had a toboggan on?
A. He might and might could have not. I don’t
know.
Q. You haven’t mentioned at this point, right?
A. I can’t remember whether he had a toboggan or
not on, sir.
Q. Well, let’s see—we’ll let’s see if this refreshes
your memory. Could you read—and read as much as
you want, but start at No. 10. That’s the continuation
of the last spot.
A. Okay. Were there braids or dreads? I think
they were braids. Braids, okay. But he had a toboggan
on. We then proceeded to look in the area. I knew we
had (inaudible) there and other officers there and I
wanted to look for the subject. We didn’t find him.
Q. Okay. But he had a toboggan on. Is that your—
A. At the time, I said he had a toboggan. At the
Page 152
time, I can’t remember whether he had a toboggan or
not.
Q. At the time—
A. At the time, it looked like he had a toboggan on.
Q. At the time you gave the statement—
A. Yes.
Q. And this was within 12 hours of Mr. Teasley
being murdered, right?
A. Yes.
Q. This was within 12 hours?

146a
A. Yes, sir.
Q. The morning after—the afternoon after the
morning of the shooting, right?
A. Yes, sir.
Q. Your answer was, and this is—but he had a
toboggan on. Is that your—
A. At the time, I said he had a toboggan.
Q. Now you’re not sure whether he had a
toboggan?
A. I—at the time, I said he had a toboggan. At that
time, I did.
Q. Now what has taken place? What has taken
place between the date you gave this statement,
February 28, 2005 and today’s date, December 12,
2006—
A. A lot of time.
Q. —that caused you to believe that you were
mistaken when you said he had a toboggan on?
Page 153
A. I—I just can’t remember whether he did or not,
sir. At the time, I might have said he had a toboggan
on, but I really can’t remember whether he did or not.
Q. But you’re sure—you’re sure that it was
Terrance Miles?
A. That’s the subject I broke up in the fight with
Mike. That is the subject right there.
Q. You’re sure about that?
A. I’m sure. I have no doubt in my mind, sir. That
is the subject I broke up the fight—

147a
Q. I have no problem with that. I have no problem
with that.
A. Yes, sir.
Q. Are you sure—and that was a poor question.
Are you sure—
A. Yes, sir, I am sure.
Q. —that the man that you saw running was
Terrance Miles, sir?
A. Fit the description, sir.
Q. Fit the description?
A. Yes, sir.
Q. That’s a long way away from being certain that
that was Terrance Miles?
A. I said he fit the description of the subject.
Q. How many other people fit the description of
him?
Page 154
A. Lots of people fit descriptions these days.
Q. Lots and lots—
A. Lots of people.
Q. Because basically your description is a man in
black clothing?
A. A man in black clothing.
Q. Slender, right, that’s all you have?
A. A man in dark clothing, sir, which at the time
he was wearing dark clothing.
Q. Now as you sit here today and you’re not sure
that he was wearing a toboggan, okay.

148a
A. Sir, I’m not sure whether he was wearing a
toboggan or not. I can’t really be sure on that, sir.
Q. Because are you aware—are you aware that
that toboggan was tested?
A. Sir, I’m not.
Q. You’re not aware of it?
A. No, sir, I’m not.
Q. You haven’t been told anything about that
toboggan?
A. No, sir, I have not been told anything about a
toboggan.
Q. Could you point—did you find the toboggan?
A. Sir, I didn’t find a toboggan.
Q. Do you know where it was located?
***
Page 165
Q. 20 years, let’s say 20 years. 20 years of working
for the police. When you’ve seen someone getting
beaten up, their response usually is in the form of a
vindictive response, right?
A. Vindictive, angry, upset, saying things or I’m
going to get you, I’m going to do something to you later
or something to that effect.
Q. Now and you thought originally when you came
on the scene and you saw Mr. Teasley on this person
beating him, you thought that guy has been injured
bad because Mike is a big strong person, right?
A. Well, it didn’t appear to be the way he was
looked that he was injured or anything, it was just the
point that I didn’t want Mike to keep striking him.

149a
Q. Right. But after the fight was over, you walk
and you had had your conversation with Terrance
Miles, right?
A. Yes, I did.
Q. And you looked at him, right?
A. Yes, face-to-face.
Q. And he didn’t have any visible sign of injuries,
right?
A. No, he did not.
Q. And that was because looking back at it at this
point, because he protected himself with his hands?
Page 166
A. It looked—it appeared several times he had his
hands up to his face and everything.
Q. So when Mike was trying to strike him in the
face, it actually appears that he didn’t strike any real
blows that made visible injuries?
A. No.
Q. And you didn’t see any other visible injuries?
A. No, I did not.
Q. And he wasn’t limping or falling down or
obviously in pain from—
A. No, he was not.
Q. And when he made those comments that you
thought were unusual, the—you’re the man, you win,
that line of remarks, there is—I expect there’s going to
be testimony that he—he said you whupped me but
I’m going to come back and get you. Did you ever hear
that?
A. No, I never did hear that.

150a
Q. And you’ve—you were there the entire time
after the fight was—was broke up and until he left the
vicinity, right?
A. Yes, I was.
Q. And you never heard—you never heard
Terrance say you whupped me, I’m going to come back
and get you?
A. No, I never heard him say that.
Q. Now there’s something else that was a little bit
Page 167
unusual about this—about the fight that you saw take
place in front of the bar, correct?
A. Yes.
Q. Okay. And there was some other people, some
strangers that watched this and you thought it was
peculiar, their behavior was peculiar, correct?
A. Yes.
Q. Could you tell ladies and gentlemen of the jury
about those strangers and what your observations
were?
A. Well, there were several guys standing around,
observing the fight taking place, standing there and
just watching it. Which is really not unusual because
every time that a fight occurs at a club or in any area
for example there are kids that fight—when they get
off the school bus. All the kids just stand around and
watch them fight, instead of just breaking them up or
doing anything about it. So it really wasn’t unusual
for people to stand around and watch two people
fighting.

151a
Q. It was three people and they were near a
Cadillac that had pulled up?
A. That had parked there, that was already parked
there.
Q. So when you were there, the Cadillac had
already been parked there?
A. Yes.
***
Page 197
wearing when you took him out that night. Do you
recall?
A. I don’t recall, no. I know it was him that I took
out.
MR. DAVIS: Okay. Thank you.
THE COURT: Any recross?
MR. OLASH: No. No, Your Honor.
THE COURT: I don’t see any questions from the
jury either. You’re excused, sir. Thank you. Your
next witness?
MR. DAVIS: Judge, thank you. Our next witness
is Crystal Teasley.
THE COURT: Crystal—is it Crystal Teasley?
MR. DAVIS: Teasley, yes, ma’am.
THE COURT: Ms. Teasley, if you can, come all
the way up, please, and have a seat in the witness
chair. And if you’ll raise your right hand, please. Do
you swear or affirm the testimony you’re about to
give will be the truth, so help you God?
THE WITNESS: Yes.

152a
THE COURT: I’ll need you to move up and speak
up and into the mic.
CRYSTAL TEASLEY
having been duly sworn, was examined and
testified as follows:
DIRECT EXAMINATION
Page 198
BY MR. DAVIS:
Q. Good afternoon, ma’am.
A. Good afternoon.
Q. Please introduce yourself to the members of the
jury.
A. Crystal Teasley.
Q. Ma’am, how are you related, in February of
2005—
A. Mike’s—
Q. —to Michael Teasley?
A. Mike’s wife.
Q. Where were you working in February of 2005?
A. Club 502.
Q. Okay. And what was your job there?
A. Security.
Q. Why did they need you to be security when they
had all these big guys as security, too?
A. To dress—pat down the women and secure the
money.
Q. On February the 27th or 26th, early morning
hours of the 27th, where were you assigned at the
club?

153a
A. The front door.
Q. And the jurors have seen this already. And I’m
going to show you. We may refer to it. Do you
recognize this picture?
Page 199
A. Yes.
Q. All right. Where is the club?
A. Right here.
Q. All right. Where is the front door of the club?
A. Right there.
Q. All right. Back in the corner?
A. Uh-huh.
Q. And that’s where you were working that night?
A. Yes.
Q. Taking money and frisking the females?
A. Women, uh-huh.
Q. Tell the members of the jury what you
remember occurring that night as it related to Michael
and—well, do you know who Terrance Miles is?
A. Yes.
Q. Did you see him at the club that night?
A. Yes.
Q. Had you seen him at the club before that night?
A. Yes.
Q. How often?
A. Mostly every—every weekend.
Q. Okay. When you saw him that night, what was
he doing?

154a
A. He had came in the club with a couple guys. He
had on a black Dickie outfit with a hoodie. He had a
hat
Page 200
on his head. We asked him to take his hoodie and his
hat off because that was one of the rules.
Q. When you’re in the club—
A. You cannot wear a hoodie. You cannot wear a
hat.
Q. So you are saying he had a hoodie and a hat?
A. Yeah.
Q. What color were they?
A. Black.
Q. Was the hoodie part of his sweat shirt or jacket?
A. Yeah.
Q. Okay. What kind of hat was it?
A. A black toboggan.
Q. And did he take off his hat and hoodie?
A. Yeah.
Q. What did you see him doing next?
A. He had went on in the club. And we didn’t see
him for a while or nothing. And he had a—Mike had
put him out for smoking marijuana in the club, him
and a couple of other guys. And they got put out of the
back of the club. And he eventually got back in the
club not too long after that. Came back through the
front door, got back in line. He paid to get back in and
came can in and poured some Moet on one of the
waitresses. She was one of the ones that had told Mike
that he was smoking.

155a
Q. And Moet, is that like champagne—
Page 201
A. Wine.
Q. —or wine?
A. No, champagne. He got reput out of the club by
another bouncer.
Q. How many people were at the club that night?
A. Roughly 600.
Q. That’s a bunch of people?
A. Yeah.
Q. Is somebody keeping count?
A. Yeah, we have a clocker at the front.
Q. Okay. So if he got back in the club, were people
watching for him to make sure he didn’t get back in?
A. No.
Q. If you had seen him trying to come back in,
would you have let somebody know?
A. Yeah.
Q. But you didn’t see him when he came back in?
A. I wasn’t—no, I wasn’t up there when he actually
came back in.
Q. Okay.
A. Actually, I was doing a drop when he got back
in the club.
Q. A drop?
A. Dropping money.
Q. Oh, Okay. So you were taking the money at
that

156a
Page 202
point?
A. Uh-huh.
Q. What happened after he poured the Moet on
waitress?
A. Heather hollered for security.
Q. Heather was the name of the waitress?
A. Yes.
Q. And did security go over there?
A. Yes, Jesse.
Q. Jesse.
A. He had came and put him out of the club, told
him he had to go.
Q. Jesse put him out?
A. Gave him five and told him to come back
another day. And when he went—
Q. So Jesse was trying to make sure things are cool
with this—
A. Yeah.
Q. You know, get on out of here?
A. Because he wasn’t arguing with nobody. He
was just—he left.
Q. Just didn’t want him to cause any more trouble?
A. Yeah.
Q. All right.
A. But when he came out of the club, Mike was

157a
Page 203
already standing outside, talking to some other people.
Him and Mike had a few words. And he initiated the
fight. He hit Mike first.
Q. Did you see him hit Mike?
A. Yes. And him and Mike got to fighting. Officer
Hill was sitting in the car.
Q. Take your time.
A. By the time Officer Hill actually got out of the
car, Terrance was on the ground and Mike was on top
of him. And Officer Hill hollered for some more
security.
Q. Okay.
A. And Reggie, which is another security guy—
Q. What’s Reggie’s last name?
A. Bernie. Him and another security guy, I don’t
remember which one it was—
Q. All right.
A. —went out there and pulled Mike off of him. He
got up. He grinned and Terrance said that he would
be back. His exact words were, you might have
whupped my ass, but I’m going to get you.
Q. All right.
A. Officer Hill had told him to get off the lot. He
had a few words with Officer Hill.
Q. And Officer Hill told him to get out of there?
A. To go get off the lot before he arrested him is
Page 204
what he said.

158a
Q. Okay.
A. We pulled Mike back into the club. Mike’s nose
was bleeding. We had him sat down. Officer Hill had
took Terrance in his car and had him in there for a
little while.
Q. Did he take him somewhere or he just put him
in the car?
A. No, he was just sitting in the parking lot.
Q. Did he tell anybody why he was doing that?
A. No. When Officer Hill came back in the club
about 30 minutes later, he was telling everybody in the
club that Terrance was nobody to play with. He would
harm somebody. And he meant what he said, that he
would come back and get him if that’s what he said.
Q. Now did you see Terrance, how he left?
A. No.
Q. So you don’t know if he drove away or walked
away?
A. No.
Q. Did you think he was going to be arrested when
you had saw him put in the police car?
A. Yeah, basically because when any time you
have a fight, usually you get locked up. And being the
fact that Officer Hill knew his past or whatever he—
you know,
Page 205
usually when you’re in the club and you have a fight
and you get thrown out for certain reasons, they do
lock you up.
Q. Okay. But he didn’t get locked up?

159a
A. No.
Q. Any idea about what time that was, when all
that happened?
A. About—
Q. After midnight?
A. Yeah, it was after midnight. I’ll say about 1:00,
1:30.
Q. Okay.
A. Because the club went on for a couple for hours
before we actually closed it.
Q. The club had some more time to go—
A. Yeah.
Q. —before that happened? Tell the members of
the jury what you remember when the club closed
down.
A. It was around 3:30, we closed the club. Last call
for alcohol. We let everybody out. We had—it was like
12 or 14 of us. Six of us go out and the rest of us stay
in. Mike, Jesse, Keith, Ken, Reggie, Bo and Steven
were all outside, clearing the lot. I was at the door,
locking the door with one of the owners and Steven.
And when they cleared the first lot, they moved to the
second
***
Page 241
MR. DAVIS: ETU.
THE COURT: Ms. Stephenson, you can come all
the way up and have a seat over here in the witness
chair. Is it P-H-E-N or V-E-N?
THE WITNESS: P-H.

160a
THE COURT: Okay. If you’ll raise your right
hand, ma’am. Do you swear or affirm the testimony
you’re about to give is the truth, so help you God?
THE WITNESS: I do.
THE COURT: All right. And if you will, speak
up and into the microphone.
THE WITNESS: Okay.
DONNA STEPHENSON
having been duly sworn, was examined and
testified as follows:
DIRECT EXAMINATION
BY MR. DAVIS:
Q. Ma’am, good morning.
A. Good morning.
Q. Please, introduce yourself to the members of the
jury?
A. My name is Donna Stephenson.
Q. And where do you work?
A. For the Louisville Metro police department
evidence unit.
Page 242
Q. In the course of your duties, explain to them
what you do in the evidence unit.
A. What do I do?
Q. Right. What’s your job?
A. Okay. Just a brief description?
Q. Sure.
A. Okay.
We photograph, collect, preserve,
transport and package the evidence at a crime scene.

161a
Q. And do you do that at the direction of the
detectives?
A. That’s correct.
Q. Do you recall becoming involved in the case of
Commonwealth versus Terrance Miles in February of
2005?
A. Yes.
Q. Okay. And tell the members of the jury what
you did on that day.
A. Okay. We were initially called out by Shively
Police department to come to 2509 Dixie Highway.
Q. Do you remember what—do you have
documented or do you recall what time you showed up
at that address?
A. I showed up at 4:30 a.m.—4:39 a.m.
Q. A.m.?
A. Yeah.
Q. And what do you do when you first show up on
a crime scene?
Page 243
A. I talk to the detective that’s in charge.
Q. And who was that at the time?
A. Ashby, Detective Ashby.
Q. Okay. Is this him sitting beside me?
A. Yes.
Q. Okay. If you don’t remember, that’s fine?
A. I don’t really remember his face.
Q. Okay. Could there have been someone else
there, if he wasn’t there?

162a
A. Yes.
Q. You just didn’t show up and start looking
around, right?
A. No.
Q. Tell them what work you did once you got there
that night.
A. Well, I videotaped the crime scene.
pictures, three rolls of film.

I took

Q. Okay.
A. Okay. I collected—well, I photographed two
vehicles and collected several items.
Q. Tell the members of the jury what items of
evidence you collected.
A. Okay. I collected one spent projectile.
Q. And what’s a spent projectile, what is that?
A. I guess you could just say just a used bullet.
Page 244
Q. A bullet?
A. Yeah.
Q. Okay.
A. A cell phone.
Q. All right.
A. A black hat. That’s what I did at the scene.
Q. Okay. Let’s start with the videotape of the
scene. Tell them what you do, how you videotape the
scene.
A. Okay. After the detective initially walks me
through the scene, kind of tells me what went on, I’ll

163a
start at the address and kind of pan around the whole
scene.
Q. All right.
A. And then I’ll take the path that the—whoever
was hurt took. And just kind of get whole scene in
there, so you’ll know that—you’ll have the visual of the
whole scene.
Q. All right. And did you do that that night?
A. Yes.
Q. How long would you say that video is?
A. I don’t remember.
Q. Is it like a half an hour or a few minutes?
A. Probably about a half an hour.
Q. So it is a long video?
***
Page 253
we can here. And based on the pictures and what your
measurements say, can you give an answer? And take
your time. I’m not trying to rush you here. And see if
you can figure out exactly where the cell phone was
and where the hat was.
A. Okay.
Q. Like I said, take your time. If you need to look
at this while you’re did it—
A. Okay.
Q. —there it is. And then we can stand up and
show the jury.
A. Okay. The cell phone would have been east of
this pole, the utility pole on Dixie. And south of the
north wall here.

164a
Q. South of the building?
A. Right.
Q. So it’s in between the building and the chainlink fence?
A. Right.
Q. In the tree line?
A. Uh-huh.
Q. Will you point out that spot for the jury?
A. Like in this vicinity somewhere.
Q. Okay. Could you mark a little C for cell phone.
All right. Now see if you can tell where the hat was.
Page 254
A. Okay. That was west of the east wall. So it’s
going to be back here, back in the back.
Q. But we know it’s off the parking lot, right?
A. Right.
Q. Okay. So it’s either right next to the building
where there’s no black top or it’s back in this area?
A. Right.
Q. Okay. And let’s mark an H for hat, please. All
right. Ms. Stephenson, what steps do you take, when
you collect an item of evidence, to make sure that the
thing that you pick up is actually the thing that we
would bring into the courtroom later on to show
somebody?
A. Like I said before, the detective kind of points
out different things. And if we see something that
would be of interest, we would bring it to the
detective’s attention.

165a
Q. Then you’d pick it up?
A. That’s right.
Q. What do you do the make sure—to preserve it,
to make sure—
A. Okay.
Q. —it gets to the property room—
A. Okay.
Q. —and then later on might get to court.
A. Right. We have—we wear gloves, plastic
Page 255
gloves, rubber gloves. Put it in a brown bag and label
it whatever it is.
Q. Paper bag, like an old grocery sack?
A. Yeah.
Q. Okay. And what steps do you take to label it?
A. Well, I’m mark on the bag what the item is.
Q. Okay.
A. Because in my notebook, I would mark down
like the measurements, all the detailed information
would go in my notebook. Just general information
would go on the bag.
Q. And do you take that detailed information and
put it into a report like you have?
A. That’s correct.
Q. Okay. Now what do you do to seal the bag?
A. We fold it and sometimes we tape it.
Q. And how do you tape it?
A. With some evidence tape, just run it across
there until you get it back to the office.

166a
Q. So it’s special tape that you have—
A. Right.
Q. —for the evidence technician unit? And then
where do you take it?
A. We take it back to the evidence office.
Q. Okay. Now if somebody got that out of the
Page 256
evidence office, what would they do to document that
they had gotten it out?
A. They would do a report—
Q. Okay.
A. On it, saying when and what time they did it.
Q. And where they were taking it?
A. Right.
Q. And what they were doing to it?
A. Right.
Q. Okay.
And then that person would be
responsible to bring it back?
A. That’s correct.
Q. Okay. And that would also be documented?
A. Yes.
MR. DAVIS: Okay. Officer Stephenson, thank
you. That’s all the questions I have at this time.
THE COURT: Cross?
MR. OLASH: Yes, ma’am.
CROSS EXAMINATION
BY MR. OLASH:
Q. Good morning.

167a
A. Good morning.
Q. Now this was long time ago, right?
A. Yes.
Q. So there was some confusion about where these
Page 257
were found?
A. Right. That’s why I went back to my report.
Q. And it’s—you have lots of cases?
A. That’s correct.
Q. Right. I’m not—these aren’t trick questions.
Here is what I want to make perfectly clear, okay. It
wasn’t clear to me, at least, when you answered
questions from Mr. Davis. I believe you said that the
hat was found either here on the side of the building
or over there; is that right?
A. That’s correct.
Q. Okay. Now I want you to look at this picture.
Okay. Now you told the jury that you do not disturb
the evidence that you collect—
A. Right.
Q. —until after it’s photographed?
A. That’s right.
Q. So this photograph was taken before it was
collected?
A. That’s correct.
Q. Right. And what is in the background of this
photograph?
A. Some kind of concrete.
Q. I’m telling you and I expect this to be the proof?

168a
Page 258
A. Okay.
Q. But I’m telling you, this right here, this
concrete, is the corner of the building.
A. Okay.
Q. The foothold of the building.
A. Okay.
Q. Okay. And if that is true, if that turns out to be
accurate—
A. Okay.
Q. —then that hat was not found back here in
the—
A. No.
Q. —in—
A. In the back of the building.
Q. It would have been found right by the side of
wherever this piece of concrete is?
A. That’s correct.
Q. Right. And if that concrete’s not back in this
area where the grass is, then it wasn’t found there,
right?
A. (No verbal response).
Q. The hat was not found in the grass, in this
grassy or wooded area?
A. Okay. This is the back of the building.
Q. Right, or the—I think you said—
Page 259
A. Of west side—well—
Q. —this is the side—

169a
A. —along here.
Q. Right. Okay. Now you report to the scene and
you look for the detective that’s in charge?
A. That’s correct.
Q. And you—and you don’t go just—you’re not on
your own. You follow the directions of the detective?
A. That’s correct.
Q. And he tells you what he thinks is important,
and you photograph and video and collect it?
A. Right. We do a walk-through.
Q. You do a walk-through. Okay. And you arrive
there at 4:39, right?
A. That’s correct—well, I take it back. I arrived
there at 4:49. Got the call at 4:39.
Q. Do you have the capacity to do—to lift
fingerprints?
A. Yes.
Q. And you’re—okay. You can do that yourself,
right?
A. Right.
Q. And were you the only ETU officer on scene?
A. No.
Q. There were others that were working the scene
Page 260
also?
A. There was one other.
Q. Now I believe you said on—under questioning
that when you get the video out, you walk the path of
the victim; is that right?

170a
A. We—the detective takes me through the scene.
Most—most of the time, it’s the path that the victim or
whoever or the assailant took.
Q. So you video—and in this situation, in this case,
you videoed—let me—
MR. OLASH: Could I ask officer Stephenson—
THE COURT: She may.
MR. OLASH: —to approach the very large
photograph.
BY MR. OLASH:
Q. You—Mike Teasley died right here, right, in
this second parking lot? That’s where the blood was
and the car was?
A. Over in this vicinity.
Q. Okay. But somewhere over there, right?
A. That’s correct.
Q. And the club is in this building right here, right?
A. That’s right.
Q. And the front door is right here, right.
Page 261
A. That’s correct.
Q. And you were aware, when you spoke with
Detective Ashby, that his understanding was he left
from here?
A. Okay.
Q. He left from here and went—
A. No. When I arrived, I parked here.
Q. Okay.
A. And I talked to the detective here.

171a
Q. Okay. And where did you start your videotape?
A. We’d normally start at like an address.
Q. Oh, okay.
A. Or a street.
Q. Tell me where you started on that day? Where
did you start it?
A. Okay. I’m thinking I started at the Dixie
Highway, to pinpoint that it was off of Dixie. And then
there’s a sign, I think, like right over here somewhere
that shows 502 back in the back. Just kind of came
around and just walked the whole—around the
building.
Q. Okay. You walked around this side, too?
A. Yes.
Q. Okay. Did you video in here?
A. It’s been a while back.
Q. Okay. But you walked behind the building?
A. That’s correct.
Page 262
Q. And there’s a well-worn path behind the
building isn’t there?
A. That’s correct.
Q. And there’s a fence line there, correct?
A. That’s correct.
Q. And did you see two big holes cut out of the
fence where people could cut through?
A. I don’t remember.

172a
Q. Didn’t look. Okay. Now, did anybody ask you
to—well, explain this to the jury. What does process a
scene mean?
A. When we come to the scene, we’ll see what
needs to be done. If something needs to be processed—
say, when we process the scene, we come. We kind of
evaluate the situation. Like, we knew we needed to
collect the hat. And we knew we needed to collect the
cell phone.
Q. Right.
A. So you kind of get a general idea of like, okay.
When I go to the scene, I’m looking for what I need
measure off of, if there’s anything.
Q. Right.
A. And just making sure there’s nothing else and
nobody’s tromping through your scene.
Q. Okay. So and you try to pick points that are
permanent points, though, that—
***
Page 279
THE COURT: Okay. Bring them in.
THE BAILIFF: All rise for the jury, please.
(The jury entered the courtroom.)
THE COURT: Thank you, sheriff. Thank you,
ladies and gentlemen.
Welcome back.
And
everyone may be seated. All right. Mr. Davis, your
next witness?
MR. DAVIS:
Thank you, Judge.
The
Commonwealth calls Kevin Lampkin Louisville
Metro police.

173a
THE COURT: Kevin Lampkin, please. Mr.
Lampkin, if you can have a seat, please, in the
witness chair. If you would, raise your right hand,
sir. Do you swear or affirm the testimony you’re
about to give will be the truth, so help you God?
THE WITNESS: I do.
THE COURT: If you would speak up, please and
into the mic.
KEVIN LAMPKIN
having been duly sworn, was examined and
testified as follows:
DIRECT EXAMINATION
BY MR. DAVIS:
Q. Sir, please introduce yourself to the members of
the jury?
A. I’m detective Kevin Lampkin
Louisville Metro police department.

with

the

Page 280
Q. And what unit are you working in?
A. I’m with the computer forensics examinations.
That’s the computer forensics and analysis squad.
That’s in the CIS, detective’s bureau.
Q. And what is your job with the computer
forensic’s unit?
A. We analyze and extract all the digital evidence,
the computers or cell phones, you know, of that nature.
Q. Were you asked to conduct an examination in a
case, Commonwealth versus Terrance Miles?
A. Yes.

174a
Q. And what were you asked to examine in that
case?
A. To look at a specific cell phone.
Q. And did you look at that cell phone?
A. Yes.
MR. DAVIS: May I approach the witness, Your
Honor?
THE COURT: You may.
MR. DAVIS: Let me mark this for identification
purposes, as 23.
THE COURT: I believe that would be correct.
Yes.
BY MR. DAVIS:
Q. Detective Lampkin, if you’ll take a look at that
report marked for identification as Commonwealth’s
23. Do
Page 281
you recognize that report?
A. Yes.
Q. And is that a report that you produced?
A. Yes, I did.
Q. And what is—explain to the members of the
jury what you did when you examined this cell phone.
A. Yeah, on the cell phone, we have specific
computer programs and connections that allows us to
forensically extract whatever information that we can
get from the phones. And so I did that in this case.
And in this case, it was able to give me the cell phone
number that is associated with the phone. And there
was a few other things of in this case, it shows the last

175a
ten phone numbers that was dialed out at that
telephone.
Q. And what was the cell phone number of the
phone that you were given?
A. It’s—the area code’s 502-380-7343.
Q. When you found out what the last ten numbers
that that phone had called, did you also get the date
and time of the calls that were made?
A. No, the—depending on the phone, some records
we can extract or not. What I do is—the program
actually extracts the information. I just copy off of
that portion of the spreadsheet and paste it in a report.
That’s all.
***
Page 308
CHRISTOPHER ASHBY
having been duly sworn, was examined and
testified as follows:
DIRECT EXAMINATION
BY MR. DAVIS:
Q. Detective, good afternoon. Please, introduce
yourself to the members of the jury.
A. Detective Chris Ashby.
Q. Sir, where do you work?
A. Shively Police department.
Q. How long have you been with the Shively police
department?
A. Six years.
Q. How did you first become involved in—and it’s
fair to say you were the lead detective on this case?

176a
A. Yes.
Q. How did you first become involved in the
shooting of Michael Teasley?
A. I was contacted at home. I was the on-call
detective that night. I was contacted at home that
there was a—had been a shooting at Club 502.
Q. All right. And what did you do?
A. Responded to the scene. Met the officer that
was there, securing the scene. He informed me that
Mr. Teasley had—had passed. I then contacted local
Page 309
ETU, like we normally do, to help process major crime
scenes. And I waited for—
Q. So does Shively police not have their own
evidence unit or—
A. No, we do not.
Q. So you get Louisville to help you out with that?
A. Yes.
Q. And you called them?
A. I had our dispatch call them.
Q. All right. Who else were you working with on
the scene that night?
A. Along with Louisville ETU, I was working with
Louisville homicide.
Q. And what did you do when you showed up at the
scene?
A. Like I said, I got with the—the officer that was
securing the scene. I spoke briefly with him. At that
time, the chief had arrived, along with the news
media. I’d briefed him on what was going on. The

177a
officer that was securing the scene had told me that
there was witnesses that had possibly went to the
hospital with Mr. Teasley. I then got with ETU as they
showed up and the Louisville homicide detective. And
she agreed that—the homicide detective agreed to help
process the scene with their ETU unit and I proceeded
to the hospital.
Page 310
Q. Okay. So you went to the hospital to try to find
witnesses and somebody else became in charge of the
evidence technician people that were processing the
scene?
A. Yes.
Q. And officer Stephenson mentioned that she
videoed the scene. Were there when she did that?
A. No, I was not.
Q. So somebody else was in charge of that?
A. Yes.
Q. How many witnesses do you think you
interviewed in the course of this investigation?
A. Approximately, 15.
Q. From the scene, what items of evidence were
you able to attempt to conduct some tests on from the
scene or from your investigation in the case?
A. From the scene and the rest of the investigation,
a cell phone that was found, along with the projectiles
or bullets, and then the hat.
Q. Okay. Let’s talk about the hat first.
(Audio concludes, new audio begins.)

178a
Q. I think we’ve got a photo up here of the hat,
Exhibit No. 14. I’m going to give you this, Detective.
There’s a little star by the middle—there for you.
Know you know from the testimony—did you see the
hat at the scene; let’s start with that?
Page 311
A. No, I did not.
Q. Okay. Because you went to the hospital?
A. Right.
Q. So ETU collects or takes a look at the hat,
photographs it and collects it, right?
A. Right.
Q. And you saw testimony that the hat was
collected just off the back-side of the building to the
east of the building?
A. Right.
Q. Do you see that? Would that be consistent with
the picture? Is there a dirt area off the back of the
building, on that side of the building at 502?
A. Yes, there is.
Q. So you don’t have any reason to dispute that
where the hat was actually found?
A. No.
Q. Now when you got a look at that hat,—first of
all, describe the hat for us. And we can see it. Go
ahead and describe it.
A. Dark in color covered by leaves and dried mud.
Q. There’s dried mud on the hat?
A. It would appear to be dried mud.

179a
Q. Now when was the first time you got to see the
hat?
Page 312
A. At—once I got it back from the Louisville police
department.
Q. Now let me ask you this: Did you think that
that hat in the condition that it was in, was an item of
evidence that you needed to test in this case?
A. No, I did not.
Q. How come?
A. Just by judging from the pictures, the leaves
and the mud that was on it.
Q. And what did that tell you?
A. I’m sorry.
Q. What did that tell you; the state it was in?
A. That I didn’t believe it was used in the night of
the crime.
Q. Okay. You thought it had been there a while?
A. Yes.
Q. And Mr. Olash, in his opening, and I’ll sure he’ll
question you about this, too, referenced the fact that
that hat was sent off for testing. Did you do that?
A. Yes, I did.
Q. Now even though you thought it wasn’t
relevant, why did you send it off for testing?
A. Because you had asked me to.
Q. Okay. So you weren’t going to do that on your
own?

180a
Page 313
A. No.
Q. All right. And that hat I think we all know, was
sent off for testing, in spite of the fact that you didn’t
want it to. What type of test do you know that they
conducted on the hat?
A. DNA testing was done, where they pulled fibers,
hair fibers from the hat.
Q. All right. And I know you’re not an expert in
DNA. And I know you don’t know how that worked.
But are you aware that anything they tested on that
hat came back to Mr. Miles?
A. No, it did not.
Q. Okay. So you don’t know who it came back to or
how many people it came back to, but you know it
didn’t come back to Mr. Miles, right?
A. Right.
Q. And was it a surprise to you?
A. No.
THE COURT: We need to change tapes.
(Audio concludes, new audio begins.)
THE COURT: Ready.
MR. DAVIS: Thank you.
BY MR. DAVIS:
Q. All right. So this is the hat. Let’s talk about the
cell phone. We have a picture of the cell phone.
***
Page 324
do you get a consent to search?

181a
A. You go about who ever the legal—in this case,
he was the legal renter for that apartment. The
apartment was in his name. He took—he filled out a
consent to search form through the Louisville Metro
police department, giving consent to search his
residence.
Q. Did you actually conduct that search yourself?
A. Yes.
Q. Were there other people with you?
A. Yes.
Q. And what happens when you conduct a search
on that apartment?
A. Went in, looking for items that may pertain to
the case.
Q. Okay. And what did you find?
A. Shoes, clothing, a hand gun.
Q. Well, let’s talk about that hand gun real quick.
Was that hand gun sent off for testing?
A. Yes, it was.
Q. And did it match the bullets?
A. No, it did not.
Q. So that’s not gun that was used to shoot
Terrance Miles (sic), right?
A. I’m sorry?
Q. That is not the gun that was used to shoot
Page 325
Michael Teasley?
A. No, it was not.

182a
Q. Okay. What steps do you take in the course of
that search to document the search itself?
A. I’m sorry?
Q. Like, what do you do to make sure that there’s
not some claim that later on you stole stuff from the
apartment?
A. Photograph whatever is taken.
Q. I’m going to show you what’s been marked for
identification purposes as Commonwealth’s 31. Do
you recognize that picture?
A. Yes.
Q. What’s that a picture of?
A. A hand gun.
Q. Is that a fair and accurate representation of
where you found that gun?
A. Yes.
Q. And describe to the jury where that gun was?
A. Located in the bedroom, underneath the
mattress.
Q. Had anybody touched it before you took that
picture?
A. No.
MR. DAVIS: Judge, I’d move to introduce No. 31.
THE COURT: Any objection?
Page 326
MR. OLASH: I’d object to it.
(The following was held at the bench, out of
hearing of the jury:)

183a
MR. OLASH: I’d object.
relevance to this case.

It doesn’t have any

THE COURT: Mr. Davis?
MR. DAVIS: The gun is just part of the search.
It certainly wasn’t used in the shooting. I mean,
I’m not going to try to connect to it the shooting in
any way. So I don’t really mind if it doesn’t come in,
quite honestly.
THE COURT:
admitted.

Sustained.

That will not be

(The following proceedings were held in open
court in the presence of the jury:)
MR. DAVIS: I’ll scratch out that number.
THE COURT:
again.

Yes. You can use that number

BY MR. DAVIS:
Q. I think you mentioned that you had collected
some shoes. Do you know how many pairs of shoes did
you all collect?
A. Two.
Q. Okay. And is this one of the shoes?
A. Yes, it is.
Q. One of the single shoe?
Page 327
A. Yes.
Q. Now marked for identification purposes as
Commonwealth’s 29, what is this?
A. A ruler used by the Louisville Metro ETU.

184a
Q. Okay.
Now this ruler—and previously
introduced was a picture here. And I’m going to put it
up on the—on the screen. Are you familiar with this
picture?
A. Yes.
Q. Is that the same ruler or at least the same type
of ruler?
A. Yes.
Q. And what is that ruler measuring in that
picture?
A. Approximately 11.
Q. No. I’m not asking how far. I’m asking what is
that to the side?
A. A foot print.
Q. Okay. And where is that foot print at the scene?
A. Located on the bridge in between the two
parking lots.
Q. And that bridge is right next to where Mr.
Teasley was shot, correct?
A. Yes.
Q. And as you look at this foot print—I think you
already answered the question, how big is that
footprint
Page 328
print compared to the ruler?
A. Approximately 11 inches.
Q. All right. And this is Mr. Miles’ shoe or a shoe
collected at the apartment where Mr. Miles was
staying?
A. Yes.

185a
Q. All right. And how does that shoe compare to
not in the pattern that it makes, but in size to the shoe
that was collected on that bridge? Was it similar?
A. Yes.
Q. How did you become aware that Mr. Miles was
finally taken into custody?
A. Myself and my partner was contacted that—by
Louisville Homicide that Mr. Miles had turned himself
in.
Q. Okay. And did you go down there and conduct
the booking process?
A. Yes.
MR. DAVIS: Detective, thank you. That’s all the
questions I have for you at this time.
THE COURT: Cross?
MR. OLASH: Yes, Your Honor.
MR. DAVIS: Well, Your Honor, I’m sorry to
interrupt. I’d move to introduce all the items that
we’ve discussed, including 29, which was the shoe.
THE COURT: 26, 27, 28, 29 and 30?
MR. DAVIS: Yes, ma’am.
Page 329
THE COURT: Any objection?
MR. OLASH: No objection.
THE COURT: Admitted. Cross?
CROSS EXAMINATION
BY MR. OLASH:
Q. Detective, you were here yesterday, right?
A. Yes.

186a
Q. You were here during the part of the trial called
opening statements, right?
A. Yes.
Q. You heard Mr. Mascagni tell the ladies and
gentlemen of the jury what he expected the evidence
to prove.
A. Yes.
Q. And you—am I recounting this right: Did you
hear Mr. Mascagni say that a shirt and a pair of pants
collected at the Doral—what’s the address, Doral
Court?
A. Yes.
Q. Doral Court, at the Doral Court apartment?
A. Yes.
Q. Did he say that? Did he tell the jury that he
believes that that black pants and the black shirt were
worn by the shooter?
A. Are you saying do I—do I recall him saying that.
Page 330
Q. Did he say that?
A. I’m not exactly 100 percent that he did.
Q. Okay. But he did reference in his opening that
part of the proof that the Commonwealth was going to
show the jury was the fact that the search of the
apartment that was controlled by Terrance Miles,
that—that that search uncovered a pair of black pants
and a black shirt, right?
A. Right.
Q. And you’re aware that the descriptions of
everybody—I mean, every single description of the

187a
person that committed this heinous act, this murder,
that person was wearing black clothing, right?
A. Yes.
Q. And pursuant to this search, you searched this
apartment and you found a pair of black clothing,
right?
A. Right.
Q. Assume that there’s a relationship there, right,
between—is that the—do you—as you sit here today,
do you believe that the clothes that you found at the
apartment have anything to do with this case?
A. They were taken and sent off to the lab, yes.
Q. Okay. What happened at the lab? What tests
were conducted at the lab?
A. To identify if there was any blood or anything
on
Page 331
them.
Q. And what—what was the results of that test?
A. Negative.
Q. Do you know if—if—do you know what gun
powder residue tests are?
A. Yes.
Q. Could you tell the ladies and gentlemen of the
jury what a gun powder residue test is?
A. It’s a test to verify if a gun’s been shot.
Q. So tell me if I’m—if I’m correct. If I—if I’m
wearing this—these clothes and I shoot a gun and in
this case, let’s say, it was a .357 that was used in this

188a
case? do you know what gun was used in this case, the
size gun?
A. No, I do not know.
Q. Okay. Do you know the caliber of the bullet
was? I don’t know anything about firearms. What
caliber of bullet was—
A. A .38.
Q. Okay. A .38. So based on the knowledge that
you know the bullet that was used, can you speculate
on what size pistol or revolver was used?
A. No.
Q. Cannot?
A. No.
***
Page 368
then?
A. No.
Q. And those clothes, Mr. Olash had some good
questions about these clothes. These are collected at
Miles’ apartment, correct?
A. Yes.
Q. Black pants, black shirt. We know the guy who
shot—who was running away from the scene who shot
Mr. Teasley is wearing black pants, black shirt. That’s
not a Dickie’s outfit, though, right?
A. Right.
Q. Okay. Possible that people have black clothes
that aren’t the same ones they wear when they shoot
somebody?
A. Yes.

189a
Q. When the hat’s sent off for testing—when?
When was the hat sent off for testing?
A. November the 7th of ‘05.
Q. Okay. And the crime was committed the end of
February. Okay. We have march, April, May, June,
July, August, September, October, beginning of
November. So nearly nine months, right?
A. Yes.
Q. You saw pictures of the hat after they were
developed, correct?
***
Page 404
motion is denied.
MR. DAVIS: Thank you, Judge.
THE COURT: Are you going to call any
witnesses?
MR. OLASH: I have three witnesses.
THE COURT: All right.
(The following was held the open court, in the
presence of the jury:)
THE COURT: Okay. Mr. Olash, your first
witness?
MR. OLASH: We’re going to do the avowal later?
THE COURT: Uh-huh, we are.
MR. OLASH: The defense calls Vernon Douglas.
THE COURT: Vernon Douglas, please. Mr.
Douglas, come all the way up, please, and have a
seat in the witness chair. All right. I need to place
you under oath, sir. If you’ll raise your right hand.
Do you swear or swear or affirm that the testimony

190a
you’re about to give will be the truth, so help you
God?
THE WITNESS: Yes.
THE COURT: All right. You’ll need to move up,
move the mic down and speak into it. Thank you.
VERNON DOUGLAS
having been dually sworn, was examined and
testified as follows:
MR. OLASH: I was going to wait for counsel.
THE COURT: You can proceed. I’ve sworn the
Page 405
witness.
DIRECT EXAMINATION
BY MR. OLASH:
Q. State your name, please?
A. Vernon Douglas.
Q. Where do you live?
A. 4109 Quiet Way.
Q. How long have you lived there?
A. Two years—over two years.
Q. Where did you live in February of 2005?
A. 4903 Aerial Drive.
Q. And where is Aerial Drive in reference to Club
502?
A. It’s in the Newburg area. It’s about seven to ten
miles away from the club.
Q. Do you know this man sitting over at counsel
table in this suit?

191a
A. Yes.
Q. Who is he?
A. Terrance Miles. It’s my cousin.
Q. How do you know Terrance?
A. He’s my cousin. His mother and my mother are
sisters.
Q. Are you employed?
A. Yes, I cut hair at home right now. I’m a
***
Page 409
and I come in. I view—I come in where the tables, was
sitting by the bar. Terrance was already in the club.
He was sitting down at the table. So I joined him.
Q. So Terrance was there when you arrived?
A. Yeah, he was already there. He had a table for
us. So we sit down. He had his drink, his phone on the
table. So I sit down, order me a drink, put my coat on,
on the table. That’s how we claim our table. So we sit
down at our table, put our stuff on the table. There’s
a couple of our friends around, I’d say it was Scooter,
Steve, me, Terrance and some other people that was
around. So I sat down at the table. We sat there at
the table talked for over a half hour or so I guess.
Q. Were you drinking?
A. Yeah.
Q. Okay. Now have you been around Terrance
when he drinks?
A. Yes.
Q. Okay. And have you spent time with Terrance
when he hasn’t been drinking?

192a
A. Yeah.
Q. Is there a difference?
A. Yeah, a big difference to me.
Q. Is it a detectable difference?
A. Yes.
Page 410
Q. Okay. Now when you saw Terrance the night
that—the last time you were in Club 502, could you
tell he had been drinking?
A. Yes.
Q. And—
A. Well, I could tell he had been drinking. When
he don’t drink and he’s sober, he’s like a quiet type.
You know, he’s a regular guy. But when he’s drunk,
he’s more into himself, more I would say—more
confident about himself. He’s out for the ladies, so he’s
going to go grab and feel on them and talking and
joking. He’s more uprised I guess.
Q. More outgoing?
A. More outgoing.
Q. And was he outgoing that night?
A. Yeah, we called, we was talking, I had to play
catch up.
Q. Now you said that your stuff was on the table.
You understand in this case a crucial piece of evidence
in this case is a phone. You’re aware of that, right?
A. Yes.
Q. Did you see a phone on the table?
A. Yeah, his phone was on the table beside his
drink.

193a
Q. Were there any other phones on the table?
Page 411
A. I sat my phone on the table. Well everybody—
I’m not going to say everybody, but usually people set
their phones on the table because it’s really loud in the
club. You can’t hear your phone ring or vibrate. So
you’ll set it on the table so it’s easy to get to. You can
see it light up, check your messages or texts. But you
can’t really talk. You’ve got to go in the bathroom or
the hallway where you come in at, but you can usually
get your calls and your messages.
Q. It’s difficult to actually listen to a conversation
on the phone while you’re in the club?
A. You can’t hear nothing in there.
Q. And why is that?
A. It’s too loud, very loud.
Q. The music or the people are loud?
A. The people and the music. The music is very
loud and the people, too, so you’re talking over the
music.
Q. And it’s hip hop music?
A. Yeah, rap basically.
Q. That’s dance music?
A. Yeah.
Q. Now how long—how long were you in the club?
A. I got there about 11:00. I left before it was over.
So I left like a little bit after 2:00, close to 3:00. It was
close to 3:00 when I left. But it wasn’t
Page 412
over, because it was still going.

194a
Q. So you left close to 3:00?
A. Uh-huh.
Q. And while you were there those—sometime
around 11:00, you left close to 3:00, did you spend
every minute with Terrance?
A. No. I spent most of my time when I first got
there.
Q. Most of the time when you—and could you give
us an estimate: How much time did you spend with
him at the table?
A. I got there about 11:00. We sat down. I ordered
me a drink. I’d say we talked for over an hour because
it was already getting crowded. When I looked up, it
was crowded. That’s when we started getting up. He
gets up. He was already up. We was laughing at him
at the table about how he dances and fondling with the
girls. So we was sitting in watching that and the club
was getting crowded as we’re watching people come in.
So I get up myself and start going through the club.
Q. At some point, did you notice that Terrance
wasn’t around?
A. Yeah.
Q. And what did you do?
A. Well, it was—I say after I got up from the
Page 413
table, I walked around, and ordered a couple more
drinks, probably dance a little bit. And so I was
looking for him and I didn’t find him. So I left the club.
It was close to 3:00. It was time for me to go. I was
looking for him and I didn’t find him, so I went on and
left out the club.

195a
Q. And what happened when you left?
A. I left the club, everything was the same. I was
going to my car. When I went to my car, I seen
Terrance standing by my car, bent over, drunk,
laughing, talking about he got put out of the club. And
he was just mumbling, talking about some old girls,
but he was talking about getting put out the club. So
he’s at my car. I told him he was going to ride with
me. He got in my car. And so he lived too far. So I just
went to my house because I was just kind of drunk
myself. I went straight home.
Q. Was that unusual or were you shocked when
you saw Terrance and learned that he was thrown out
of the club?
A. No, I wasn’t shocked. He get put out—I ain’t
going to say all the time. He got put out before at that
club and some other clubs. We all—I got put out
before. And we get put out sometimes, not all the time.
Q. And why were you put out?
A. I got put out before different clubs but cutting
in line. I threw a drink on a girl before. Stuff like
Page 414
that.
Q. Now you—there’s also been an issue regarding
braids. Could you—could you tell jury what your hair
style is, what you would call that? You’re a barber,
right?
A. Yeah, I’m a barber, but these right here, these
are plaits. These don’t hang. These are like plaits.
Braids are on to your head. You all would call them
corn rolls but we don’t use that word. We use braids.
Q. So that’s called braids, right.

196a
A. Yeah.
Q. And is that unusual for African-American men
to wear braids?
A. No, it’s more common to me, it’s everywhere.
Q. And just in—just in context of Club 502, you
went there for a period of less than six months, right?
A. Yes.
Q. Every—virtually every Saturday night?
A. Yeah.
Q. You were a regular?
A. Yeah.
Q. And you knew a lot of people in there?
A. Almost everybody.
Q. Did many people wear corn roll braids?
A. Yeah, I’d say out of ten guys, it would be about
Page 415
five or six people that would have them.
Q. So it’s very popular?
A. Uh-huh.
MR. OLASH: That’s all the questions I have.
THE COURT: Cross?
MR. DAVIS: Thank you, Judge.
CROSS EXAMINATION
BY MR. DAVIS:
Q. Mr. Douglas, good morning.
A. Good morning.
Q. Two years ago, you had your own apartment; is
that right?

197a
A. My own apartment?
Q. Yeah, where were you living?
A. I was staying with my girlfriend.
Q. You used to live with your girlfriend?
A. Uh-huh.
Q. And was it just the two of you or was it her mom
or somebody lived there?
A. No, just me and my girlfriend and three of my
kids and two of my dogs—well, I had one dog then.
Q. And did you have three kids then?
A. Yeah, I got four kids. I live with three and my
girlfriend.
Q. Okay. So you had four kids?
Page 416
A. But three live in my house.
Q. Three live there?
A. Uh-huh.
Q. With you and your girlfriend.
A. Yes.
Q. And you had those kids with her?
A. Yes.
Q. The three that were there?
A. Yes.
Q. And that apartment was over in the Newburg
area?
A. It’s a house.
Q. It’s a house over in the Newburg area?
A. Yes.

198a
Q. You had your own car then?
A. Yes.
Q. And what work were you doing back then?
A. Cutting hair still.
Q. So you cut—you supported yourself by cutting
hair?
A. Uh-huh.
Q. Did you drive trucks at all back then?
A. No, I didn’t drive trucks. They was going to send
me on the road for two or three weeks straight. So I
thought it was going to break my relationship up, so I
haven’t took it yet.
Page 417
Q. All right. You didn’t want to break up your
relationship, right?
A. Right.
Q. So did your girlfriend go to the club with you
when you went with Terrance?
A. She didn’t go that night.
Q. All right. Sometimes she’d go?
A. Uh-huh.
Q. Did you go to club every weekend with
Terrance?
A. Yeah, most likely, every Saturday.
Q. And you were with Terrance, did you say every
Saturday. Would you all go together about every
Saturday?
A. Yeah.

199a
Q. I know you can’t say every single time all the
time, but most of the time you would be with him?
A. Yeah, we’d usually meet at the club. We don’t
really ride together.
Q. All right. You usually meet this. Where did he
live?
A. He live with his mother.
Q. But over in Newburg area, too?
A. No, it wasn’t in Newburg.
Q. Where was it?
A. Off of—all the way down Dixie Highway, on
Cones Lane, I believe?
Page 418
Q. Okay. So it’s pretty far from you?
A. Far from my house, uh-huh.
Q. But you got—he’s your cousin and—I mean,
you’d say you’re friends, right?
A. Yeah.
Q. In addition to cousins, you’re friends?
A. Uh-huh.
Q. You sort of grew up knowing each other?
A. Uh-huh
Q. You hang out together.
A. Yes, sometimes.
weekends, but yeah.

Usually

towards

the

Q. Okay. On the weekends for sure. Ever spend
any time together not just clubbing, but during the
day.
A. No, not really.

200a
Q. Never watch movies or play video games?
A. I wouldn’t say never, but it’s not like an
everyday thing.
Q. You didn’t see him all the time?
A. No, not all the time.
Q. During the day, just at night when you’re
clubbing. You talked to him on the phone?
A. Yeah.
Q. You had his cell phone number at the time?
A. Did I have it?
Page 419
Q: Yeah.
A. Yes.
Q. And he had yours?
A. Yeah.
Q. So you all could call each other if you wanted to?
A. Yes.
Q. Ever go out to eat together after you’re clubbing,
grab some food?
A. No, I go straight home.
Q. Just run through a McDonalds?
A. I go straight home. McDonalds be closed.
Q. All right. How long have you known him?
A. I’m 29. 29 years.
Q. You’re 29.
Raymond?

Your first name Vernon or

A. Vernon.
Q. What’s your birth date, Vernon?

201a
A. May 30th, 77.
Q. Now Vernon, you’ve never been convicted of a
felony, have you?
A. Like last year, I got caught with a DUI. I don’t
know if that’s a felony or not.
Q. Just a DUI?
A. Yeah.
Q. You didn’t run from the cops or anything?
Page 420
A. No.
Q. You didn’t hit anybody?
A. No, I didn’t do that.
Q. All right. I didn’t think so. I just wanted to ask
that. Let’s talk about that fight that night specifically.
You didn’t see the fight, right?
A. No, I didn’t see no fight.
Q. Okay.
You didn’t see the fight between
Terrance and Michael Teasley?
A. No.
Q. But you knew that Terrance had been kicked
out of the club before?
A. Before that?
Q. Yeah.
A. Yeah, he told me he got kicked out that night.
Q. So you knew he had been kicked out that night?
A. Uh-huh.
Q. And you’d seen him get kicked out of that club
other nights?
A. Yeah.

202a
Q. And you’d—
A. Out of that club?
Q. Yeah.
A. That club, no, I only seen him get thrown out of
that club one time prior to that one.
Page 421
Q. Okay. So you saw him get kicked out of that
club one other time at least?
A. Right, right.
Q. What that was for?
A. I believe he was messing with somebody’s
girlfriend and him and the dude got into a
confrontation. And they tried to calm it—the bouncers
there tried to calm it down. I believe that’s what he
got thrown out for that time.
Q. Okay. Messing with somebody’s girlfriend?
A. Uh-huh.
Q. You saw him drinking that night, right?
A. Yes.
Q. And you were drinking too?
A. Right.
Q. That’s what you do at clubs?
A. Right.
Q. I’m not trying to say there’s anything wrong
with that. You all were trying to meet girls that night?
A. Meet, yeah. Meet them, dance with them. Uhhuh.
Q. And Terrance was doing that?
A. Yeah.

203a
Q. I think you said you were watching Terrance
and I don’t remember your exact words. You were
watching him doing something with a girl. What did
you say?
Page 422
A. He was meeting them, I guess, if that’s what if
you want say.
Q. What were they doing up on the dance floor?
A. He was touching, grabbing and mingling with
them, grooving with them, I guess, to the music. I
couldn’t really hear them. I was just seeing him.
Q. Okay. So you could just see. So he’s touching
her, grabbing her did you see him pour a drink on a
waitress that night?
A. Not that night I didn’t.
Q. Have you seen him pour drinks on waitresses
before?
A. Yeah—I mean, no, I wouldn’t say that.
Q. Never saw him pour a drink on anybody?
A. Throw drinks, he might have hit somebody. I
don’t know, you think, straight out the top like that.
Q. All right.
before?

So you’ve seen him throw drinks

A. Yeah, I’ve seen him throw some drinks.
Q. Saw him get in confrontations before?
A. Yeah.
Q. Saw him get kicked out of that club and other
clubs before, right?
A. Yes.
Q. Okay. Now that particular night when you go in

204a
Page 423
and you sit down with Terrance—let me ask you this.
Do you know him as—do you know his nickname?
A. No. I know what people go by call him.
Q. What’s he go by?
A. Some people call him Terrance. Some people
call him OG.
Q. What’s OG stand for?
A. Original Gangster, I guess, that’s what the real
word is.
Q. Original gangster?
A. Yeah, they call him Cat Daddy.
Q. Cat Daddy?
A. That’s the only names I know.
Q. Okay. When you go in and you sit down that
night with your cousin, I think you said you’re sitting
there. You’ve got a drink on the table. You’ve got a
coat. You put it on the chair. You’re claiming the
table, right?
A. Yeah.
Q. And I think you said you saw him put his cell
phone on the table, right?
A. His phone was already on the table.
Q. It’s already there?
A. Yeah.
Q. Did you put your phone on the table, too?
A. Yeah, I put my phone on the table.
***

205a
Page 509
witnesses, but I asked you to consider what they said.
I expect the prosecutor’s going to claim, well, they’re
friends. Friends are always going to lie. The bottom
line is think about where you were yesterday, last
week, think about where you were Christmastime and
where you’re going to be Christmastime. Who are you
going to be with?
If you’re charged with a crime—if I’m charged with
a crime, faced with a crime, who do you spend most of
your time with, friends, family, people you know. We
didn’t call any witness from the country club or from
the club. They weren’t entitled to—his friends were
there. They came and they told you what happened.
And I ask that after this case is concluded, after you
review the evidence, you return a verdict of not guilty
on all three counts. Thank you.
THE COURT: Thank you, Mr. Olash. Mr. Davis?
MR. DAVIS: Thank you, Judge. May it please the
Court, Mr. Olash, members of the jury. Who done it?
This is a classic case of who done it. Okay. It’s like
that old Clue game. You take pieces of evidence from
here and pieces of evidence from here. And you take
pieces of evidence from here and you put them
Page 510
together. And you figure out who done it. And your
job in this case is to take all of the evidence and put all
of the evidence together.
Okay. And then, speak the truth. And when you do
that, you’re going to be convinced that Terrance Miles
murdered Michael Teasley in cold blood. You’re going
to take the evidence of motive. You’re going to take

206a
evidence of identity. You’re going to take evidence of
the actions of a guilty man.
And you can consider all of those things and the big
picture, to determine who done it. I’m going to take a
few minutes and talk about those types of evidence.
The first piece of evidence I want to review in the
search for truth is who had motive to kill Michael
Teasley? Who had a motive? And what was that
motive? Not a theft. Not self-preservation. Not self
defense. Not desperation. Not robbery. It’s the oldest
motive in the world. The oldest motive in the world.
It’s revenge.
Terrance Miles had a motive and his motive was
revenge. There can be no doubt about it. He had a
motive. What do you know about him that night that
goes to what his state of mind was? What’s his motive?
You know he was high. You know he got kicked out of
the club for smoking dope. His own witness
Page 511
said, well, you go up there and sometimes people buy
dope, smoke dope. That’s what happens at the club.
He’s kicked out because he’s high. What’s his
motive? You know he’s drunk. Is he is hammered is
he falling down passing out, no. But he’s drunk. He’s
dancing with girls. He’s fondling girls. He’s pouring
drinks on the waitress, for Pete’s sakes.
He’s defiant. He gets kicked out once. He sneaks
back in. They’re not going to kick him out. This is his
club. This is Cat Daddy, Old Gangsta. He gets back
in. He’s angry. He’s been kicked out before. That’s
not that big of a deal. Okay. He gets kicked out of that
club. He gets kicked out of another club. It’s no big

207a
deal. He gets kicked out of clubs.
something about him.

That tells you

But how often does he get kicked out under same
circumstances of February 27, 2005. You know he’s
arrogant. He sneaks back in. He doesn’t care what
they tell him to do. I shouldn’t have to wait back in
line, wait in the line next time I come up here. Okay.
What’s his state of mind? (Inaudible) fighter. Will you
stand up for a minute. Terrance Miles, we heard
testimony, is about 5, 10, 160 pounds. All right. I’m
about 5, 9, 175 pounds. So he is very similar to me.
Page 512
Michael Teasley, you heard testimony, is 6, 3, over
300 pounds. Okay. Now I don’t—I haven’t seen Mr.
Mascagni on the scale, but I bet you he needs an extra
100 pounds to get to 300. That didn’t scare Terrance
Miles a bit, not even a little bit. He punched him right
in the jaw. You heard. There was evidence of a bloody
nose or bloody lip. He wasn’t scared of him. What’s
his state of mind? He’s sure not scared of anything.
He’s a fighter. And he smirks. You got me. You got
me.
And I agree with Mr. Olash. I don’t think Michael
Teasley was getting him in the face every time. I think
he got punched and he got mad and he’s obviously
bigger. He took down the smaller guy. He’s trying get
him. The smaller guy’s covering up. He just wasn’t
hitting him. He wasn’t make solid contact, which is
clear from the physical evidence of Dr. Hunsaker and
for physical evidence that you heard about Mr. Miles.
His face isn’t bloody. His face isn’t bruised. And Mr.
Teasley’s hands are not bruised. Okay. So he wasn’t
making contact. He was trying to. Part of the reason

208a
Terrance smirked. Oh, you thought you were getting
me. You didn’t get a thing. He gets up. He smiles.
You got me. I’ll get you back. The words of
Page 513
Crystal Teasley. We’ll talk about that in a minute.
He lost the fight. Okay. He got taken down at his
club where he is every single weekend. Okay. And he
lost in front of over 600 people. He obviously thinks
it’s a badge of honor to get kicked out of clubs, okay,
but not that night. That night, he just didn’t get
kicked out coming back in. He does what he wants.
Fondles women, pours drinks on people, smokes dope.
Gets kicked out, comes back in. But that night, he lost.
That night, he was embarrassed in front of a lot of
people on his turf.
Okay. What’s his state of mind? He’s known as Cat
Daddy there. He’s known by Old Gangsta. But that
night was different. He was publicly humiliated. His
motive was revenge. Okay. And that is a powerful
motive, especially when his faculties are depressed by
the drugs that he’s on. He’s not going to be able to
control himself like he would if he was clear-headed
like any of us. He’s high. He’s drunk. He’s going to
do what he wants to do.
So now let’s take a look at the identity. You know
he’s got to motive. It’s overwhelming. You heard no
other evidence of anybody else having a motive. It all
is right there. Right there. Nobody else has a motive
to sneak up on Michael Teasley. No

209a
Page 514
witnesses came in here and said anything about
Michael Teasley has ongoing disputes with this person
or that person. One guy’s motive, just one.
So let’s talk about the identity. Mr. Olash makes a
lot about Frank Hill because he’s right. Do you believe
that Frank Hill, when he says, I saw this guy, I saw
some guy running from that scene of the shooting. If
you believe that, it will take you about five minutes in
the back. He’s guilty. Okay. On all of it. If you believe
that Frank Hill is right, that’s it. He’s guilty. He saw
the shooter. He saw him running.
Mr. Olash tries to pick it apart because the only
thing that he can specifically describe, Mr. Hill, is he
had black clothes, black shirt. He just saw this guy a
few minutes before, an hour maybe less than an hour
before, very close-up sent him away at least around
the building until he came back. He just saw him. You
take a look at people. You see them. You see them
running. You still recognize. That’s the guy he saw
running. I didn’t see his face. Same guy. That’s not
all you have. You have more than Frank Hill.
We know about the shooter, undisputed facts about
the shooter. You know the shooter was medium
height,
Page 515
around 5, 10. A couple of witnesses who were a little
taller testified he was shorter than them. You know
the shooter had a lean build. He’s lean. He’s fast. He’s
running like a track star. You know the shooter had
on a black shirt and black pants. You know the
shooter was an African-American. There are multiple
individuals—Frank Hill testified African-American.

210a
You know the shooter had braids. There were multiple
people that testified he had braids.
You know his shoe size. You saw it on the bridge.
There’s a picture of it. It’s a bloody footprint on that
bridge with a measurement right beside it. There’s a
picture in evidence that you’ll have. You’ll know the
shoe size. You know the shooter’s at the club.
Obviously he’s out in the parking lot.
You know the shooter drops a cell phone. Nobody
else behind there. Mr. Olash wants to make you—
wants to suggest that people are walking behind the
club to go home. That’s sort of a path. Nobody testified
there’s anybody behind that building, okay, that
anybody was going behind that building. Just one guy,
the shooter. You know the shooter dropped the cell
phone. You know the shooter murdered Michael
Teasley. Undisputed, these things about the shooter.
Page 516
What do you know about Cat Daddy? You know he’s
5, 10. You know he’s got a lean build. You know he
had a black shirt on that night and black pants. He
was an African-American. You know he had braids.
He know what his shoe size is. You know he’s at the
club all night long, until he decides to leave on his own
terms. You know he lost his cell phone. And you know
he had the motive for revenge.
I want to speak for a moment about the idea of this
lost cell phone.
Talk about lucky or unlucky
individuals. In other words for you to believe this
almost insane story about him losing his cell phone,
let’s talk about what you actually have to believe.
Okay. Let’s talk—you have to believe that every time
he goes to a club, which is every Friday and Saturday

211a
night of his life. He goes to a club. It’s a loud club. He
takes his cell phone, puts it on the table or on the bar.
Okay. Every time, he does it. Because he can see it.
It’s too loud. So that’s what he does. But not this
night. This night, for the first time ever, he forgot it.
Or somebody stole it. Okay. The first time ever. Not
the most outlandish thing in the world, somebody lost
their cell phone. All right. But for the first time out
of all the times he puts it
Page 517
up there, he loses it or somebody steals it and then the
same person that steals it shoots Mike Teasley. Okay.
The same person that steals his phone, shoots Michael
Teasley.
And not only that, the same night that he
accidentally loses his cell phone for the first time, the
thief steals his cell phone, shoots Michael Teasley, who
happens to beat him up that night. What are the odds.
They’re astronomical. It is impossible that the one
night he gets kicked out of the club, gets in a fight with
Michael Teasley, has the motive to come back and get
him, then loses his cell phone, that the shooter, the
unnamed shooter scoops up the cell phone, decides, I’m
going to shoot Michael Teasley, runs behind the club
and drops it. It is impossible. It is impossible. That’s
because he had his cell phone. And he dropped it
behind the club.
Frank Hill, an important point, when the shooting
occurs, Frank Hill sees the guy running, takes his car.
Goes down here. Is looking. Okay. Comes through
here and comes and looks behind the club. The two
guys from the club are already there. Now you heard
Crystal testify that two guys were running after him.

212a
She gave you their names. She thought it was Ken
and Keith. We didn’t hear from Ken and Keith, but
Page 518
Ken and Keith are two guys who were security guys at
the club. She testified to that.
Frank Hill said there’s guys already there. They
said we see him. He says, I see him. Frank—the point
is that Frank drives all the way down here on Dixie
Highway, all the way here, all the way across the road,
up here, walks back through here and the shooter’s
still back there. Why is he still back there? He’s
looking for his phone. He’s looking for his phone. He
knows he dropped it in the dark and he knows that’s
the only thing that can ID him because he was flying.
He shot and he ran. He’s looking for his phone.
The next area of evidence I want to discuss with you
is what does an innocent person do and what does a
guilty person do after they commit a crime? Okay.
What happens? What’s the difference? And what
happened in this case? Actions of a guilty man, there’s
a whole list of them. I’m going to be back and I’m going
to get you.
Now Mr. Olash is very respectful and he’s a very
talented lawyer. I have a lot of respect for him. And
he’s saying crystal Teasley, she’s not lying, she’s
saying, but you can’t believe her when she says, I’m
going to come back and get you. She said she
Page 519
heard Terrance say I’m going to come back and get
you. He wants to argue that in her mind, things are
skewed a little bit and she was still distraught because

213a
her husband had just been shot. And so she’s
reinventing some facts unintentionally.
All right. Ladies and gentlemen, she’s not. Think
about this. If Crystal Teasley wants to reinvent facts,
don’t you think she’d come up with something a little
bit better than, he said he would come back.
Remember, she heard the shots. She’s at the front
door. She runs out. They said Mike’s been shot. It’s
her husband for crying out loud. She’s going to where
Mike’s been shot. The shooter runs past her pretty
close. And the best she can do is earlier when he got
in a fight, he said, I’m going to be back. I’m going to
take care of this.
Don’t you think she would have gotten up here and
said I saw the shooter. He’s sitting right there. He
ran right past me. I know exactly who it was. If she’s
going to lie, she’d point him out. She’s not lying. Okay.
There are a lot of lies she could make up if she wanted
to lie. And they have no way to dispute it. She’s not
lying, unlike some other witnesses that you heard
from. She held her head up. She swore to tell the truth
and she did. If she
Page 520
wanted to lie, she would have been pointing her finger
right at him. Nobody was between them. They were
close to each other when he ran past.
So guilty man, his words, his actions. He’s smiling.
He’s arrogant. He’s knows he’s been beat up. He’s
knows he’s embarrassed. He’s not going to show that
he’s upset, because that wouldn’t be cool. But he’s
going to come back and do something. What was his
demeanor? He was in the rent a car. Big deal here.
He still needs a car. Okay. He’s scared. He still needs

214a
a car or he would have dropped it off and been done
with it. Or if he really just wanted to still need it, he
could have said, hey I just need it for another week.
They renewed the contract. That’s not what he does.
He drops it off and he does it in a hurry. And you
know that because he trades from a black car to a
white car. He goes from a Ford Grand Prix to a Toyota
Camry. He switches types of cars and colors of car and
he does it in a hurry. Pays with cash, thinking I don’t
want them to be able to track me if I use a credit card.
Pays with cash. He does it so quickly, he leaves
personal items in the car he trades in. He leaves a
phone bill, a personal check, all in evidence. And he
leaves a cell phone bill. He leaves
Page 521
all those things in the car. He does it in a hurry.
He doesn’t want to get caught. He’s thinking, what
am I going to do, how am I going to get out of this. He
knows he left his cell phone at the scene because he
couldn’t find it rustling around in the dark. So he
drops off the—he trades in a black car for the white
car. Then he realized, after talking to Terry Maston,
he heard from the Enterprise folks that it was Terry
Maston that led them to the white car, that Terry
Maston had indicated that Terrance wasn’t going to
turn the car in, but he could take car.
Okay. So he doesn’t turn in the white car. Because
he knows now he can be tracked through the rental car
people because Maston told him, the rental car people
know that you’re wanted and they want the car back.
So he doesn’t turn in the white car, either. He just
abandons it. He paid cash. Didn’t want to be tracked.
Abandons the second car.

215a
He’s on the run because he knows he did it and he
knows that they can track him by his cell phone. And
you can use his actions after that night against him in
finding him guilty, the actions of a guilty man. He’s on
the run. On the run for ten days. His face is on the
news, just the fact he’s on the run are actions of a
guilty man. His face is on the news
Page 522
Sunday by 3:00. And he’s on the run. He’s not turned
himself in. He’s hiding from the police and takes the
next step.
He knows braids were flopping. He knows people
saw him in the fight in the club, that he had his braids.
He gets his barber cousin, not unreasonable to think,
to cut his hair. Okay. No more braids. He was in his
black car when he drives away from the club. He
knows there’s 600 people that could have seen him in
that car. So he trades it in for the white car, abandons
the car, on the run and cuts off his braids. And there’s
a picture in evidence of what he looked like the day
that he turned himself in. No more braids. No more
braids. The hair’s been cut.
He’s changing his appearance. He’s dumping his
vehicle. He’s paying in cash. And he’s cutting his hair.
I asked what guilty people do. They have to try to hide.
He realizes he can’t hide. He knows the marshals are
after him.
It’s not just the Louisville Police
Department. It’s not just the Shively Police. It’s the
U.S. Marshals. And they have access to the fancy cell
phone towers. He knows that it’s the marshals that
are contacting his relatives.
And he is scared of the marshals. Okay. The
marshals are after him every day. They’re going to

216a
Page 523
homes of relatives. They’re getting tips. They think
he’s at the home. They go the home. They think
they’re going to bust in. Terrance is gone. Okay. He’s
contacting relatives. They know that the marshals are
after him. He’s on the run.
And he lies about what happened to his cell phone.
You know that has to be a lie because it is absolutely
such preposterous story. You would have to be the
unluckiest person on the face of the earth for the
murderer of the guy that beat him up to have stolen
his cell phone and then dropped it behind the club.
Okay. The most unlucky guy in the world.
And that’s what happens when you put folks up to
lie. You don’t have a chance to straighten out all the
story. He puts his cousin on the stand and a question
came one of you. What happened with the black car?
I don’t know anything about a black car. What else
did he say? Oh, what about the dumpster? I don’t
remember seeing a dumpster. And what about the cell
phone? I don’t remember anything about a cell phone.
That’s because he’s just lying. He’s just lying.
I mean, do you think if he was so sure his cousin was
with him all night long, he would let him sit in jail for
almost two years without even trying to tell
Page 524
the police? He didn’t have anything to lose. He’s his
close friend. They go to clubs every single weekend.
Doing the things at least they were doing at clubs
every single weekend and he didn’t call soul number
one. He didn’t call my office, the police, he didn’t come
to court. He had never been anywhere near this place,

217a
near this case until today. All right. Until today.
Nothing that he said was true.
You saw where he had his car parked. He’s right by
Frank Hill. If you’re going to believe that, Frank Hill
was from here to the front row from Terrance, who’s
standing outside his car. We know it’s not true. He
would have done something about his wrongfully
accused friend.
Witness number two, he’s a convicted felon. You can
hold that against whether you think he’s telling the
truth or not. In other words, you know he’s a convicted
felon, you can choose to disbelieve every word he said
because of that fact. You don’t have to disbelieve him
because of that fact. You can watch him testify and
disbelieve him.
He’s saying he was here. Shooter’s in between
tables. That’s what happens when somebody is telling
a lie. You start trying to get them to point out the
specifics and they just don’t have any. Which way did
Page 525
he run? Past me. How far away were you? From here
to that thing. Did you see—was his face facing you? It
was at first. What about when he was shooting? No,
no, it wasn’t. It was his back. Okay.
This is not entirely unreasonable to think that if
he’s where he puts himself, he actually is about in that
chair and the shooting takes place this far away.
Okay. If his back’s to him, the shooter’s facing this
way. Which would require the shooter to be right
against the chain-link fence that you can see in the
picture in front of the two cars and have no escape
route. It’s not true. It’s not true.

218a
So you have the actions of a guilty man and motive.
And he had a strong one. The identification matches.
And everything he did until he was taken into custody
by Officer Kelsey, were the acts of a guilty man.
The last thing he did, desperation, he gets others to
lie. Okay. He gets others to lie. But those guys are
lying. There can be no doubt. I want to talk about the
phone. If you have any question that phone found
back there was his, you can actually, from the evidence
you have, see how that we knew that. And I’m not sure
that was clear.
The phone number that he gave on his rental car
Page 526
agreement, one of them—he gave two or three. One of
them was the phone that matches the phone found
behind club. Okay. You know that it was the phone
number of the phone found behind the club because of
the forensic exam that was actually done on the phone.
You had to have a code to get into the phone. So the
officers couldn’t just turn it on and figure out what the
last ten numbers were.
So they did the forensic exam. It showed that’s the
numbers. Same number as the number that he
himself put on the rental car agreement. We know it’s
his phone. No question about that. So what do you
have? You got the hat. He wants to make a big deal
about that hat. Saying we want to distance ourselves
from the hat. I would, if I thought the hat played any
role at all. (Inaudible) this hat.
It’s covered in leaves. It’s covered in crusty old dirt.
Do you think the Old Gangsta Cat Daddy’s going to be
wearing this thing to the club? The police knew this
had nothing to do with it. They took dozens and

219a
dozens and dozens of pictures of things that may or
may not have something to do with it. There was a hat
there. They rightfully took a picture of and it collected
it. They did not think it was involved.
Page 527
You know that because they didn’t send it off. It was
nine months before I said, hey, send the hat off. We
better make sure, at least. I know you don’t think it’s
involved. But let’s make sure. We sent it off. They
were right, not his hat. You don’t have to have DNA
to know that somebody’s whose—has—his opinion of
himself is not going to be wearing this old crusty
muddy, leaf-covered hat. He wasn’t wearing it. It has
nothing to do with the case.
So what is this case about, when you put the
evidence together?
You’ve got the motive, the
identification, the actions of a guilty man. But it’s not
what it’s about. It’s about Mike Teasley. He’s a loving
father, husband, and son. And he was killed because
Cat Daddy got his feelings hurt. That’s why he was
killed. For no reason at all.
And ladies and gentlemen, when you take a look at
all the evidence, the three primary areas, that’s the
conclusion you’re going to come to. You’re going to
speak the truth, the highest aim of every criminal case
is the ascertainment of the truth.
Somewhere in every case, the truth survives. And
where truth is, justice steps in and tips the scale in the
favor of justice. In this case, you don’t have any enemy
to punish or any friend to reward. Okay.

220a
Page 528
Yours is a solemn duty to speak the everlasting truth.
And when you do that, you will know that the evidence
points to one place. It points to one place. Who? The
evidence points to the man with the black on, the man
that had the motive, the man that fits the
identification to a tee. Points to Cat Daddy. It points
to the Old Gangsta. Who done it? He’s sitting right
there.
THE COURT: Ladies and gentlemen, you will now
be—oh, Darlene, come out, please, and pick out two
alternates for us. Now I’ll let Darlene be the bad guy
or girl, or good girl, depending on how you look at it.
Sheriff, in the meantime, will both of you be sitting
with the jury? Do each of you swear or affirm you’ll
take charge of the jury, that you will not allow them to
speak to them about this case, and that you will not do
so yourself?
THE BAILIFF: I affirm, Your Honor.
THE COURT: Thank you. The sheriff will escort
you back to the jury room. Once you have reached a
verdict, knock on the door. The sheriff will be outside.
If you want to make sure that no one disturbs you,
there’s restrooms for you, a water fountain and there’s
double doors. Okay. She’s going to pick out two and
these two will come up to me and
Page 529
I’ll give further instructions then.
The alternates are 158527, Mr. Murray, where are
you? Sir, you will not go up—go back to deliberate.
You’ll come up here. Thank you. And juror 156766,
Mr. pence, is that you?

221a
JUROR: Spence.
THE COURT: Spence, I’m sorry. You can come up
as well. The rest of you may go with the sheriff then.
THE BAILIFF: All rise for the jury, please.
(The jury exited the courtroom.)
THE COURT: Well, gentlemen, thank you very
much. You’re alternates. So what that means is you’re
not going to make the decision, as you know. But you
can speak to anybody you want now. I mean, you’ll
have to be quiet about this case. But you don’t have to
speak to anybody if you don’t want to.
JUROR: What about (inaudible)
THE COURT: Keep them. Now do you all have any
questions or concerns? Are you going to want to find
out what the verdict is? You can call. I’ll give you my
card. You can call. Darlene will probably answer. Let
me turn the noise on.
(Recess taken.)
THE COURT: Ladies and gentlemen, before the
jury
Page 530
gets here, none of us know what the jury has decided.
I’d ask there be no outburst, no comments, no nothing
untoward. So think on that. Bring them in. We’re
ready.
THE BAILIFF: All rise for the jury, please.
(The jury entered the courtroom.)
THE COURT: Thank you, Sheriff. Thank you,
ladies and gentlemen. Everyone may have a seat. Has
the jury reached a verdict, then?

222a
THE FOREPERSON: Yes, ma’am, we have.
THE COURT: And would you hand that, please, to
the sheriff. Was this a unanimous verdict?
THE FOREPERSON: Yes, ma’am.
THE COURT: Ladies and gentlemen, was it, by nod
of heads? Yes. Okay. And I’ll take a poll after I read
the verdict as well.
Verdict under instruction No. 1, we the jury find the
defendant Terrance Miles guilty under instruction No.
1, which was murder. Ladies and gentlemen, is that,
in fact, a unanimous verdict?
THE PANEL: Yes.
THE COURT: I see that it was.
Verdict under instruction No. 2, we the jury find the
defendant Terrance Miles guilty under instruction No.
2, which is tampering with physical evidence. Was
Page 531
this a unanimous verdict, ladies and gentlemen?
THE PANEL: Yes.
THE COURT: I see that it was.
And verdict under instruction 3, we the jury find the
defendant Terrance Miles guilty in obstruction three,
first degree wanton endangerment. Again, was this a
unanimous verdict?
THE PANEL: Yes.
THE COURT: I see that it was. Any further polling
of the jury?
MR. OLASH: No.
THE COURT: Counsel, come on up.

223a
(The following was held at the bench, out of hearing
of the jury:)
THE COURT: You can look at the verdict forms.
They appear to be appropriate. They look appropriate.
We’ll probably do—we’ll start penalty in the morning.
MR. OLASH: Tomorrow morning?
THE COURT: Yeah.
MR. OLASH: How many witnesses?
MR. DAVIS: Just probation, parole and a clerk just
on priors. He has one prior felony and some prior
misdemeanors.
THE COURT: All right. All right. If you’ll—
***
Page 535
CERTIFICATE
I, MELISSA IADIMARCO, do hereby certify that I
was authorized to transcribe the foregoing recorded
proceeding, and that the transcript is a true and
accurate transcription of my shorthand notes to the
best of my ability taken while listening to the provided
recording.
Dated this 30th day of March, 2020.

s/Melissa Iadimarco
MELISSA IADIMARCO, CSR

224a

APPENDIX N

SUPREME COURT OF KENTUCKY
2007-SC-000298-MR
TERRANCE MILES

V.

APPELLANT

ON APPEAL FROM
JEFFERSON CIRCUIT COURT
HONORABLE JUDITH E.
MCDONALD-BURKMAN JUDGE
NO. 05-CR-000740

COMMONWEALTH OF
KENTUCKY

APPELLEE

BRIEF FOR APPELLANT

Respectfully Submitted,

s/Aubrey Williams________
AUBREY WILLIAMS
455 Forth Avenue
Suite 421 Starks Building
Louisville, KY 40202
502-581-1088
Counsel for Appellant

225a
CERTIFICATE OF SERVICE
I hereby certify that a copy hereof was served on this
4th day of September 2007 by U.S. Mail, postage
prepaid, on Hon. David Stengel, Commonwealth’s
Attorney, 514 West Liberty, Louisville, KY 40202, Hon.
Greg Stumbo, Attorney General, State Capitol, Suite
118, 700 Capitol Street, Frankfort, KY 40601, and Hon.
Judith McDonald-Burkman, Jefferson Circuit Court,
Division Eleven, 700 West Jefferson Street, Louisville,
KY 40202. I further certify that I did not remove the
record from the Clerk’s Office.
s/Aubrey Williams
AUBREY WILLIAMS

226a
INTRODUCTION
This is an appeal from Jefferson Circuit Court,
Division Eleven, Hon. Judith McDonald-Burkman
presiding. The Appellant, Terrance Miles, brings this
appeal challenging the judgment of the trial court
sentencing him to a period of 50 years following a jury
verdict finding him guilty of Murder in the First
Degree and being a Persistent Felon in the Second
Degree. Appellant contends that the trial court
committed reversible error in five areas: (1) failure to
grant a speedy trial in violation of the Sixth
Amendment to the United States Constitution and
Section Eleven of the Kentucky Constitution,
(2) failure to grant a speedy trial in violation of KRS
500.110, (3) improper impeachment of a witness by the
prosecutor, (4) misleading and false testimony before
the grand jury, and (5) the court’s limiting defense
counsel in the cross examination of the
commonwealth’s jailhouse witness.
STATEMENT CONCERNING
ORAL ARGUMENT
Due to the seriousness of this case, the confusion
surrounding the record, the failure of trial counsel to
protect the record, and the novelty of the issue relating
to the “totality of circumstances” of the whole trial,
Appellant believes it would be helpful to the Court if
oral arguments were held.
***

227a
I. STATEMENT OF THE CASE
Terrance Miles was indicted by the Jefferson
County Grand Jury on March 5, 2005 for the alleged
murder of Michael Teasley.
After several
continuances, all of which had been requested by the
Commonwealth, the case went to trial on
December 12, 2006. The case had previously been set
to be tried on December 5, 2005, April 11, 2006, and
September 26, 2006. At each call of the case prior to
December 12, 2006, Hon. Scott Davis, Assistant
Commonwealth’s Attorney in charge of the case,
moved for a continuance, claiming that DNA testing of
a critical piece of evidence, a toboggan, had not been
completed.
On each occasion he stated that the test would yield
evidence that was either inculpatory or exculpatory.
Persuaded by his assertions, the trial court on one
occasion expressed concern that the Defendant would
be deprived of a fair trial if she were to allow the case
to go forward without benefit of the DNA test results.
The Defendant announced ready for trial on each call
of the case and objected to the continuances. When the
case was finally tried, the prosecutor extracted
testimony from the investigating officer and argued to
the jury that the police never viewed the toboggan as
having any evidentiary value at all [Tape 1, 12/12/06at
12:50:00; Tape 2, 12/13/06 at 14:13:19–14:13:49]
[emphasis added].
A. STATEMENT OF THE RELEVANT FACTS
During
the
early
morning
hours
of
February 27, 2005, Michael Teasley, a bouncer at Club
502, was shot and killed outside the club. Earlier in
the evening, after another bouncer had removed the

228a
Appellant from the club for unruly behavior, he and
Teasley got into a fight. Frank Hill, an off-duty
Louisville Metro police officer who was working
security at the club, testified that the assailant’s
physical characteristics matched those of the
Appellant, whom he had seen fighting Teasley [Tape I,
12-12-06; 14:10:30–53]. On cross-examination, Hill
admitted that the shooter was wearing a toboggan [Id.
at 14:29:08].
He also admitted telling the
investigating officers on the night of the shooting that
the shooter was wearing a toboggan [Id. at 14:35:05].
Teasley’s widow, Crystal Teasley, also testified that
the shooter was wearing a toboggan [Id. at 15:38:20].
Another witness, Raymond Douglas, also testified that
the shooter was wearing a toboggan [Tape 2, 12/14/06
at 11:19:40]. A toboggan was found in the vicinity of
the shooting [Id. at 14:38:00]. It was collected by the
Evidence Technician Unit of the Louisville Metro
Police Department on the night of the killing [Tape 1,
Donna Stevenson, 12/12/06 at 10:21:10].
Furthermore, in a motion filed on February 9, 2006
requesting DNA samples from the Appellant, the
Commonwealth asserted that the assailant was
wearing a toboggan and that a toboggan was recovered
from the scene [Tr.R. Vol. III at 376–378].
On March 3, 2005, Miles was indicted by the
Jefferson County Grand Jury for murder, tampering
with physical evidence, first degree wanton
endangerment, and for being a persistent felony
offender in the second degree. He was arraigned on
the charges on March 11, 2005. On May 17, 2005, his
case was set to be tried on December 13, 2005.
According to Det. Chris Ashby, lead investigator of the

229a
crime, the toboggan was not sent to the lab for testing
until November 7, 2005, almost nine months after the
murder [Tape 1, Det. Ashby, 12/12/06 at 14:08:40].
At a pretrial of the case on December 5, 2005,
Mr. Davis made the following statement to the court:
“There’re two items in evidence.
One is very
substantial...not back from the lab yet” [Misc. Tape,
12/5/05]. At that point the court asked the question,
“What’s not back?” And Mr. Davis stated, “There’s a
toboggan found at the scene that the commonwealth
at this point the defendant or the shooter was wearing
at the time of the shooting and that toboggan is still
being tested....
It would be our motion for a
continuance. The results will be inculpatory or
exculpatory.” [Id. at 14:33:25–14:33:41].
At the first call of the case for trial on
December 13, 2005, the commonwealth moved for a
continuance “to wait for the results of the test,” and
stating further that it would be to the advantage of one
or the other of the parties [Misc. Tape, 12/13/05 at
10:18:26–10:22:42]. During the exchange, Miles made
an oral motion for a speedy trial, having previously
filed a written motion pro se [Id.]. The case was then
set for trial on April 11, 2006.
At the call of the case on April 11, 2006, the
commonwealth again moved for a continuance because
the DNA testing had not been completed
[Miscellaneous Tape, 4/11/06 at 10:01:03–10:03:12].
The
case
was
reassigned
for
trial
on
September 26, 2006. At the call of the case on that
date, the commonwealth again moved for a
continuance and the court sustained the motion, again
over the objection of the defense [Miscellaneous Tape,

230a
9/26/06 at 9:23:05–9:24:00]. The case was set to be
tried the final time on December 12, 2006.
Interestingly and disturbingly, Mr. Davis brings out
on direct examination of Det. Ashby that the hat was
of no relevance at all. Having him view a photograph
of the toboggan, he asks him this question: Did you
think that hat and the condition it was in was an item
of evidence that you needed to test?” The detective’s
response, of course, was obvious [Tape 1, 12/13/06 at
12:53:00–12:54:00].
Equally disturbing, in light of his representations to
the court concerning the significance of the toboggan,
were Davis’s remarks to the jury during closing
arguments:
... He wants to make a big deal about the hat. I
would if I thought the hat played any role in it at
all. Take a look at this hat. It’s covered in leaves.
It’s covered in crusty old dirt. The police knew
this had nothing to do with it. They didn’t think
it was involved. You know that because they
didn’t send it off. I told them: “I know you don’t
think it’s involved, but let’s make sure....” [Tape 2,
10/14/06 at 14:13:00–14:13:50].
The matter becomes even more unsettling in light of
the fact that the toboggan was not available for
viewing and examination by the Appellant, the jury or
the court at the trial of the case. Not only was it not
introduced into evidence, the record is deafeningly
silent on the DNA testing of the item and the
prosecutor’s explanation to the court on his
contradictory positions on the relevance of this “once
critical piece of evidence.” It is more than remarkably
curious that neither the prosecutor nor counsel for the

231a
Appellant felt it necessary to confront this obviously
very serious issue.
As a result of the delays, the Appellant lost a key
witness, namely, Steven James Edwards, who died on
June 25, 2006 from a motorcycle accident [Tr. R., Vol.
VI at 781]. 1 The delay also affected Appellant’s
classification, freedom of movement and other
privileges while he was serving time in Northpoint on
unrelated charges. This issue is addressed in his
motion for a bond reduction, which is discussed more
fully below.
Appellant’s counsel filed a written motion for speedy
trial and a motion to dismiss the indictment for failure
of same on December 13, 2005 [Tr. R., Vol. III at 342–
350]. Miles filed a pro se motion to dismiss the
indictment
for
failure
to
prosecute
on
September 25, 2006, grounding the motion in KRS
500.110, Section 11 of the Kentucky Constitution and
the Fourteenth Amendment to the United States
Constitution [Tr. R., Vol. IV at 538–561]. Previously,
he had sent letters to the court protesting the delay
and requesting a speedy trial [Tr. R, Vol. III at 416 and
419]. Moreover, he moved the court for a bond
reduction, which, if granted, would have affected his
classification and freedom of movement in the
penitentiary where he was serving time on an
unrelated offense [Tr. R, Vol. IV at 452–454].
The prosecution clearly and unequivocally misled
the court and unnecessarily delayed the trial of the
case. His tactics deprived Appellant of his rights to a
1

Appellant has tendered with this brief a motion to
supplement the record to include his affidavit and the death
certificate on Steven Edwards.

232a
speedy trial under the Sixth Amendment to the United
States Constitution and the Eleventh Amendment to
the Kentucky Constitution.
Additionally, the
prosecutor violated Appellant’s statutory right to a
speedy trial under KRS 500.110.
Other facts critical to a fair disposition of this appeal
involve a variety of incidents that occurred during the
trial, which either were not preserved or were
insufficiently preserved. The first deals with the
testimony of the commonwealth’s jail house snitch,
Bryce Bonner. His testimony creates an issue in two
respects. One was preserved and one was not. The
former involved the court’s refusal to allow defense
counsel to impeach Bonner’s credibility.
The
commonwealth moved in limine to prevent the
Appellant from cross-examining him about his motive
for assisting the prosecution. The court sustained the
motion on the grounds that his testimony did not
result from the inducement of receiving a deal from
the commonwealth. The defense argued that even if
he did not get a deal, his motivation for coming
forward was prompted by his thinking that he could
get a deal. [Tape 1, 12/13/06 at 09:39:09–09:47:10].
The second and most egregious was not preserved,
and constitutes the first of the unpreserved errors
alluded to above. It involves the prosecutor’s improper
tactics in the direct examination of Bonner, captured
by the following dialogue when the prosecutor’s initial
questions did not achieve the expected response:
Q.

When he’s telling you this information,
what is his demeanor?

A.

Calm, rational

Q.

When he’s talking to you?

233a
A.

Yeah.

Q.

Did he have any particular attitude about
what he thought would happen in this case?

A.

Angry because...

Court: Mr. Bonner, keep your voice up.
A.

Angry because he was being accused of
charges he didn’t commit

Q.

Mr. Bonner, you’re a convicted felon isn’t
that correct

A.

Yeah.

Q.

You remember having a conversation with
me and Mr. Mascagni?

A.

Yeah.

Q,

Right here in this courtroom?

A.

Yeah.

Q.

You remember when I asked you the same
question yesterday in this courtroom what
your answer was?

A.

No.

Q.

You remember me asking you the question
what his demeanor was when he was
giving you the information?

A.

Yeah.

Q.

You remember what you said?

A.

No. I do not?

Q.

You don’t remember saying that Mr. Miles
had arrogant demeanor and they would
never convict him?

A.

Yeah.

234a
………………………………………………….
Q.

Did Mr. Miles say he didn’t do it?

A.

Yes he did.

Q.

Do you remember having the same
conversation with me and Mr. Mascagni
yesterday?

A.

Yeah.

Q.

You remember us asking you if he ever
denied doing the shooting?

A.

No. He just said, ah, he wouldn’t be
convicted of it.

Q.

So he didn’t deny it He just said there’s no
way he could be convicted?

Q.

In the same conversation we had
yesterday, remember us asking you the
question about whether he said he was at
the scene during the shooting?

A.

Yeah.

Q

And do you remember what you said
yesterday?

A.

All I remember is him being there, ah, after
the shooting. I don’t don’t know about
during or before.

Q.

So he told you he was there after the
shooting?

A.

Yes.

[Tape 1, 12/13/06 at 10:06:09–10:08:36].
The second of these was the prosecutor’s eliciting
from Det. Ashby a statement that he had shown a
photo pack that included a picture of Appellant to

235a
Reggie Burney, who did not testify at the trial [Id. at
14:09:50–14:10:10]. That clearly was hearsay of a
serious nature and deprived Appellant of his right of
confrontation.
Another error involved the failure of the court to
declare a mistrial when it came to the court’s attention
that a juror had a professional relationship with and
had discussed the case with Officer Tim Crawford, one
of the lead investigators in the case. Officer Crawford
did contract work for the juror’s funeral home. Despite
the juror’s bringing these facts to the attention of the
court, near the conclusion of the trial, she was allowed
to remain on the jury [Tape 3, 12/14/06 at 10:15:17–
10:16:27].
Another area involved the incessant leading of his
witnesses by the prosecutor, too numerous to
catalogue here but present throughout the course of
the trial. Despite the failure of defense counsel to
object, it was fundamentally unfair to Mr. Miles.
Another involved the prosecutor saying to the jury
during his closing argument what Terry Masden
allegedly said and did when Masden did not testify at
the trial of the case [Tape 3, 12/14/06 at 14:04:30–
14:04:50].
Finally, the prosecutor argued to the jury that
defense witnesses were lying. This was clearly
improper and particularly egregious in light of the fact
that he himself had caused the delays in the trial of
the case, delays which naturally could have had an
effect on a witness’ memory [Id. at 14:07:56–14:11:30].
All of the foregoing errors, particularly in light of
the seriousness of this case, add up to a denial of a fair

236a
trial in violation of both the Kentucky Constitution
and the Constitution of the United States.
The final area of concern, properly and sufficiently
preserved, involves the presentation of the case to the
Jefferson County Grand Jury. Sgt. Laun of the
Shively Police Department testified that he showed a
photo pack to two individuals, Frank Hill and Reggie
Burney, who actually witnessed the shooting of Mike
Teasley. Hill did not see the shooting and had given
the following statement to Sgt. Laun:
I heard four or five shots ring out. I immediately
got out Of my car to look and see what was going
on... as I got there, I noticed Mike lying on.... I
said, “Where is the shooter? Who had the gun?”
Reggie Burney had made the following statement to
him: “I cleared out the last of the riff raff that was
inside and then all I hear is Mike’s been shot.” He
went on to state that he did not see the gun shots and
did not see what had happened. [Tr.R., Vol. III at 345–
349].2
Appellant submits that the foregoing facts clearly
show that he was deprived of his rights to a fair trial,
that reversible errors occurred, some of which were
preserved and others that were not, but should,
nonetheless, be reviewed under the doctrine of
palpable error. Accordingly, the case should be
reversed and returned to the trial court for a new trial.

2

The record is not clear on the exact location of this
document.

237a
II. ARGUMENT
A.

Whether The Prosecutor’s Intentional
Misleading Of The Court, Which Resulted
In Unnecessary Delays Of The Trial Of The
Case, Deprived Appellant Of His Rights To
A Speedy Trial Under The Sixth
Amendment To The United States
Constitution And Section Eleven Of The
Kentucky Constitution.

Section Eleven of the Kentucky Constitution and
the Sixth Amendment to the United States
Constitution, made applicable to the states by the
Fourteenth Amendment, guarantees an accused the
right to a speedy trial. In the case of Barker v. Wingo,
407 U.S. 514, 92 S.Ct. 2182, 33 L.Ed. 2d 101 (1972),
the United States Supreme promulgated four factors
to be considered in determining whether the right to a
speedy trial has been violated: (1) the length of the
delay, (2) the reason for the delay, (3) the defendant’s
assertion of the right, and (4) prejudice to the
defendant.
Under Barker the length of the delay must be
presumptively prejudicial in order to trigger an
inquiry into the other three factors. Miles was
indicted on March 3, 2005 but was not tried until
December 12, 2006. This delay of approximately 21
months clearly is sufficient to trigger the inquiry. See
Ringstaff v. Howard, 861 F.2d 644 (11 Cir. 1988)
(Delay of 23 months between defendant’s arrest for
murder and trial for capital murder was serious and
presumptively prejudicial for purposes of claim
defendant was denied constitutional right to speedy
trial); Arrant v. Wainwright, 468 F.2d 677 (5th Cir.)

238a
(Almost two-year gap between indictment for murder
and trial is clearly sufficient to require serious
consideration of petitioner’s claim that he was denied
his right to a speedy trial).
Miles satisfies the second prong of the test based on
the fact that the delays were caused by the prosecution
and for no legitimate reason.
As pointed out
hereinabove, the case was continued because of the
prosecution’s claim that the toboggan that was found
at the scene of the homicide was a critical, vital and
essential piece of evidence and that the testing of it
would establish either the guilt or innocence of the
Defendant. Acting on these assurances, the court
continued the case three times, stating on one occasion
that despite the Defendant’s protestations, she was
reluctant to try the case because it could result in the
deprivation of his right to a fair trial.
Yet, when the case was finally tried, the prosecutor,
using a photograph of the toboggan as a prop, elicited
direct testimony from his lead detective that the
toboggan was irrelevant and was never considered to
be of any evidentiary value to the case. Furthermore,
in his closing argument to the jury, he stated that
neither he nor the police ever believed that it belonged
to the killer of Michael Teasley.
Clearly, he
intentionally misled the court and intentionally
caused a delay in the trial for no legitimate reason.
Miles satisfies the third prong of Barker by
asserting his right to a speedy trial. As pointed out in
his “Statement of Relevant Facts,” he wrote two letters
to the judge protesting the delays in his trial. His
letter dated November 25, 2005 is particularly
relevant because it contains the following statement:

239a
This should serve as notice to the Court that I
wish to exercise my Sixth (6th) Amendment right
to a Fast and Speedy Trial (sic). I have discussed
this with my Attorney, Mr. Olash. It is I alone
who will suffer the fate. . . .
[Tr.R., Vol. III at 328–331].
Additionally, his attorney filed a written motion for
a speedy trial and on another occasion filed a motion
for a bond reduction. With respect to the latter, the
Sixth Circuit has held that a request for reduction of
bail is equivalent to a request for a speedy trial. Cain
v. Smith, 686 F.2d. 374, 384 (6th Cir. 1982).
The Barker court held that the defendant’s assertion
of his trial right is entitled to strong evidentiary
weight in determining whether the defendant is being
deprived of the right. 407 U.S. at 531–32, 92 S.Ct at
2192–93. The failure to assert the right, however, does
not demonstrate that there was no constitutional
violation. Id. at 528–29, 92 S.Ct. at 2192.
Turning to the fourth prong of the grid, i.e., whether
Miles was prejudiced as a result of the delay. It is
submitted that there can be no doubt that he was,
indeed, prejudiced because of the delay. As noted
hereinabove, a key witness, Steven James Edwards,
died in a motorcycle accident while the case was
pending. Secondly, he was serving time for an
unrelated conviction, he still suffered oppressive pretrial incarceration. The indictment caused him to be
housed at a more secure facility and prevented him
from participating in programs for rehabilitation and
self-improvement. In Moore v. Arizona, 94 S.Ct. 188
(1978), the United States Supreme Court held that
some of these factors may carry quite different weight

240a
where a defendant is incarcerated after conviction in
another state, but no court should overlook the
possible impact pending charges have on his prospects
for parole and meaningful rehabilitation. Citing
Strunk v. United States, 412 U.S. 434, 439, 93 S.Ct
2260, 2263, 37 L.Ed. 2d 56 (1973). See also Arrant,
supra which addresses the anxiety and worries of an
accused awaiting trial. More important, however, is
the impairment to a defendant’s case. Barker 407 U.S.
at 532, 92 S.Ct. 2182; United States v. White, 985 F2d
271, 276 (6th Cir. 1993).
It should be noted, however, that where the first
three prongs of Barker weigh heavily against the state,
the defendant need not demonstrate “actual prejudice.”
Moore, supra at 414 U.S. 25–26, 94 S.Ct.188–189,
38 L.Ed. 2d 183. The Kentucky Supreme Court
addressing the issue of the right to a speedy trial in
the case of Gabow v. Commonwealth, 34 S.W.3d 63
(2000), lifted the following language from Barker.
A defendant’s right to a speedy trial cannot be
established by any inflexible rule but can be
determined only on an ad hoc balancing basis in
which the conduct of the prosecution and that of
the defendant are weighed.
Id. at 514, 92 S.Ct. at 2184.
Appellant submits that the conduct of the parties
weighs heavily against the prosecution in the case at
bar, and for this reason the judgment below must
reversed.

241a
B.

Whether
The
Prosecutor’s
Conduct
Deprived Appellant Of His Right To A
Speedy Trial Under KRS 500.110

Appellant submits that in addition to his rights to a
speedy trial being violated under the United States
and Kentucky Constitutions, he was deprived of these
same rights in violation of KRS 500.110, which reads
as follows:
Whenever a person has entered upon a term of
imprisonment In a penal or correctional
institution of this state, and whenever during the
continuance of the term of imprisonment there is
pending in any jurisdiction of this state any
untried indictment, information or complaint on
the basis of which a detainer has been lodged
against the prisoner, he shall be brought to trial
within one hundred and eighty (180) days after he
shall have caused to be delivered to the
prosecuting officer and the appropriate court of
the prosecuting officer’s jurisdiction written
notice of the place of his imprisonment and his
request for a final disposition to be made of the
indictment…; provided that for good cause
shown… the court... may grant any necessary or
reasonable continuance.
Although it is not entirely clear from the record, it
is believed that the Commonwealth lodged a detainer
against Miles in September 2005. As pointed out in
the foregoing argument, both pro se and through his
trial counsel, Miles made his wishes for a speedy trial
known.
It is undeniable that in light of the
prosecutor’s conduct there was no good cause shown
for the court to continue the case. Nor, for the same

242a
reason, was it necessary or reasonable for the court to
grant the continuances.
Appellant submits that under the facts of this case,
it is beyond cavil that the commonwealth failed to
comply with the statute. See Rosen v. Watson, 103
S.W.3d 25 (2003) (writ properly issued to preclude
prosecution where the commonwealth failed to comply
with statutory speedy trial right granted in KRS
500.110).
Appellant further submits that the
dispositive or determinative question, as it were, is
whether the continuances that the prosecution
obtained were what is described as “ends of justice”
continuances under the Federal Speedy Trial Act,
18 U.S.C. § 3161(h)(8). United States v. Huff, 246
F.Supp.2d 721, 726 (W.D.Ky. 2003), citing United
States v. Cianciola, 920 F.2d 1295, 1298 (precludes a
district court from relying on the government’s lack of
preparation as a reason for granting an excludable
continuance).
In Cianciola, the court excluded the continuance
from the calculation because it found that there was
no evidence that the government committed chronic
discovery abuses or acted in bad faith. Id. at 1300. By
analogy, it is clear that the prosecutor at bar abused
the Rules and the judicial process by falsely claiming
that the toboggan was essential to a just treatment of
this case.
Accordingly, for the foregoing reasons and more this
case should be reversed.

243a
C.

Whether The Compilation Of Unpreserved
Errors When Viewed As A Whole And From
The Totality Of The Circumstances
Constitute Palpable And Reversible Error.

R.Cr. 10.26 reads as follows:
A Palpable error which affects the substantial
rights of a party may be considered by the court
on motion for a new trial or by an appellate court
on
appeal,
even
though
insufficiently
insufficiently raised or preserved for review, and
appropriate relief may be granted upon a
determination that manifest injustice has
resulted from the error.
Appellant has identified six errors, which, he
contends, if considered as a whole or from the totality
of circumstances constitute palpable error. They are
the prosecutor’ s direct examination of Bryce Bonner,
Det. Ashby’s hearsay testimony that Reggie Burney,
who did not testify, identified Appellant from a photo
pack; the court’s failure to declare a mistrial when it
came to her attention that a juror had discussed the
case with one of the investigating officers; the
prosecutor’s incessant leading of his witnesses; the
prosecutor’s comments about the statement of Terry
Masden, who did not testify; and finally, the
prosecutor’s comments that the defense witnesses
were lying.
It is a violation of fundamental fairness and due
process for a prosecutor to place his or her credibility
before a jury unless the prosecutor is a witness. Com.
v. Cook, 9 Ky.L.Rptr.829, 86 Ky.663, 7 S.W.155 (1888).
SCR 3.130-3.4(e) of the Kentucky Rules of Professional
Conduct provides that a lawyer shall not “assert

244a
personal knowledge of facts in issue except when
testifying as a witness, or state a personal opinion as
to the justness of a cause, the credibility of a civil
litigant, or the guilt or innocence of an accused.” The
prosecutor at bar violated this Rule in his direct
examination of Bonner by extracting from him the
alleged confession of the Appellant. His tactic, in
effect, placed the prosecutor in the position of
testifying himself.
His tactic was similar to the conduct of the
prosecutor in the case of Dean v. State, 615 S.W.2d 354
(Ark. 1981), which led to the following exchange
between the prosecutor and a witness:
Q.

You remember my telephone conversation
with you the other day?

A.

I was trying to recall it this morning. I
can’t recall the specific things that we
talked about.

Q.

Okay.... Do you recall telling me in our
telephone conversation that the Defendant
would be very likely to do this sort of thing
again?

In that case, unlike the case at bar, the defendant
objected and the trial court admonished the jury. The
Arkansas Supreme Court held, nonetheless, that the
prosecutor statement was a flagrant violation of the
appellant’s right to a fair trial under the Arkansas and
United States Constitutions.
The prosecutor at bar also violated the abovementioned Rule when he argued that the defense
witnesses and the defendant were lying. Unless
testifying as a witness, it was highly improper for him
to give his personal opinion about the credibility of the

245a
Appellant’s witnesses. He certainly should not have
commented that Miles was lying for the further reason
that he did not testify.
He also violated Rule 611 of the Kentucky Rules of
Evidence, which states, “Leading should not be used
on the direct examination of a witness except as may
be necessary to develop the witness’ testimony.” When
he was not putting words in Bonner’s mouth, he was
putting leading questions to him. Note the following
exchange:
Q.

So, he told you he was there after the
shooting/

A

Yes.

[Tape 1, 12/13/06 at 10:08:36].
And the following exchange between him and Det.
Ashby:
Q.

Did you think that hat and the condition it
was in was an item of Evidence that you
needed to test?

A.

No.

[Tape 2, 12/13/06 at 12:54:00].
The trial court enjoys some discretion in allowing
leading questions, such as when substantial time has
elapsed between an incident and the trial of a matter,
or when a case presents complex issues, or when
dealing with witnesses of a tender age, to name a few
(citations omitted). The case at bar does not fall in any
of those categories. There was simply no justification
for the incessant leading in this case. Even though
trial counsel did not object, the prosecutor’s violations
of the rule, when viewed from a totality of the

246a
circumstances point of view, constituted reversible
error.
D.

Whether The Commonwealth’s Witness’
False And Misleading Testimony To The
Grand Jury Constitutes Reversible Error.

Sgt. Teddy Lann’s testimony to the grand jury that
Frank Hill and Reggie Burney had witnessed the
Appellant shooting Teasley was clearly and
undeniably inaccurate. In the case of Comm. v. Baker,
Ky. App., 11 S.W.3d 585 (2000), the commonwealth’s
witness testified falsely about the type of instrument
that the defendant allegedly used in physically
punishing her children.
The Court stated that
dismissal of the indictment was necessary to ensure
the integrity of the criminal justice system. The Court
articulated the following principle:
A defendant must demonstrate a flagrant abuse
of the grand jury process that resulted in both
actual prejudice and deprived the grand jury of
autonomous and unbiased judgment.
Id. at 588.
Due process demands that the grand jury process
remain fair and undistorted by witness manipulation.
The right to indictment by grand jury was included in
the Bill of Rights to protect citizens against the
excesses of the government and against unfounded
criminal prosecution. The constitutional role of the
grand jury as a bulwark between citizens and the
government is severely undermined if the prosecution
is allowed to manipulate it with misleading and false
testimony. United States v. Dionisio, 410 U.S. 1, 23
(1973) (Douglas, J. dissent).

247a
It is clear that these principles were violated in the
instant case. Accordingly, the judgment of the trial
court should be reversed and remanded to the trial
court with instructions to dismiss.
E.

Whether The Trial Court’s Refusal To
Allow Appellant To Cross Examine Bryce
Bonner On His Motive For Testifying For
The Commonwealth Was A Violation Of
His Sixth Amendment Right

In response to the Commonwealth’s motion in
limine to prevent him from cross examining Bonner on
his motive for testifying against him, counsel for
Appellant pointed out that even if it were true that the
Commonwealth did not offer him a deal in exchange
for his testimony, the fact remains that Bonner
initiated the contact and sought a deal from the
Commonwealth [Tape 1, 12/13/06 at 09:40:11]. It is
obvious from the discussions with the court that
Bonner, a convicted felon, was not motivated by any
desire to win a good citizenship award.
His belief that he would profit from his testimony is
what prompted him to make the contact. The fact that
he did not get a deal, therefore, should not be the focus.
This is especially so in light of his demeanor on the
stand. That is to say, it cannot be ignored that when
he took the stand, he was less than cooperative. It is
not illogical to conclude that his lack of cooperation
was a result of not being able to get a deal. The
prosecutor cleverly, albeit improperly as Appellant
has argued, extracted from him the product that he
was peddling in the beginning. Put another way, the
prosecutor acquired through the back door what
Bonner had offered initially to supply through the

248a
front door. When examined in this light it seems clear
that the trial court should have allowed defense
counsel to probe into Bonner’s motive.
As this court noted in Davenport v. Com., 177
S.W.3d 763 (Ky. 2003), the Sixth Amendment right to
cross examine the prosecution’s witness is an essential
aspect of Sixth Amendment confrontation clause.
Douglas v. Ala., 380 U.S. 415, 418, 85 S.Ct 1074,1076,
13 L.Ed, 2d 934, 937 (1965). Additionally, “the
exposure of a witness’ motivation in testifying is a
proper and important function of the constitutionally
protected right of cross-examination. Davis v. Alaska,
415 U.S. 308, 316, 94 S.Ct. 1105, 1110, 39 L.Ed. 2d 347,
354 (1974).
The Sixth Amendment’s confrontation clause
guarantees effective cross-examination, Delaware v.
Van Arsdall, 475 U.S. 673, 679, 106 S.Ct. 1431, 1435,
89 L.Ed. 2d 674, 683 (1986). That Court stated further,
.... We think that a criminal defendant states a
violation of the confrontation clause by showing
that he was prohibited from engaging in
otherwise
appropriate
cross-examination
designed to show a prototypical form of bias on
the part of the witness and thereby “to expose to
the jury the facts from which jurors... could
appropriately draw inferences relating to the
reliability of the witness….
Id. at 475 U.S. at 680, 106 S.Ct. at 1435–36.
The Davenport court, while properly recognizing the
discretion that the trial court enjoys in imposing
limitations on cross-examination, stated that the
Kentucky Supreme Court in defining reasonable
limitations has cautioned that a connection must be

249a
established between the cross-examination proposed
to be undertaken and the facts in evidence. Citing
Commonwealth v. Maddox, 955 S.W. 2d 718, 721 (Ky.
1997). Appellant submits that the relevant facts, as
outlined
above,
were
those
involving
the
circumstances of Bonner’s coming forward offering to
testify and the conduct of the prosecutor.
As counsel for Appellant understands the case law,
the sum and substance of the inquiry is whether the
trial court prevented a reasonably complete picture of
Bonner’s veracity, bias, and motivation. Davenport at
770. Appellant submits that she did. Accordingly, the
judgment of the trial court should be reversed and
remanded far further proceedings.
CONCLUSION
The Appellant was deprived of his rights to a speedy
trial in violation of the Sixth Amendment to the
United States Constitution and Section Eleven of the
Kentucky Constitution as a result of the unreasonable
continuances of the case. He was also deprived of his
statutory right to a speedy trial in violation of KRS
500.110, which requires that a detained defendant be
tried within 180 days. He was deprived of his
constitutional rights to a fair trial because of
numerous unpreserved errors, which should be
reviewed for palpable error; false and misleading
testimony by the commonwealth’s witness to the
grand jury; and, finally, by the trial court’s limiting his
right to cross examine a witness for the
commonwealth.
Based on these errors, the judgment of the trial
court should be reversed and the case should be
remanded there for further proceedings.

250a
Respectfully Submitted,
s/Aubrey Williams
AUBREY WILLIAMS

251a

APPENDIX O

SUPREME COURT OF KENTUCKY
2007-SC-000298-MR
TERRANCE MILES

V.

APPELLANT

ON APPEAL FROM
JEFFERSON CIRCUIT COURT
HONORABLE JUDITH E.
MCDONALD-BURKMAN JUDGE
NO. 05-CR-000740

COMMONWEALTH OF
KENTUCKY

APPELLEE

REPLY BRIEF FOR APPELLANT

Respectfully Submitted,
s/Aubrey Williams________
AUBREY WILLIAMS
455 Forth Avenue
Suite 421 Starks Building
Louisville, KY 40202
502-581-1088
Counsel for Appellant

252a
CERTIFICATE OF SERVICE
I hereby certify that a copy hereof was served on this
15th day of April 2008 by U.S. mail, postage prepaid,
on Hon. David Stengel, Commonwealth’s Attorney,
514 West Liberty, Louisville, KY 40202, Hon. Jack
Conway, Attorney General, State Capitol, Suite 118,
700 Capitol Street, Frankfort, KY 40601, and Hon.
Judith McDonald­Burkman, Jefferson Circuit Court,
Division Eleven, 700 West Jefferson Street, Louisville,
KY 40202. I further certify that I did not remove the
record from the Clerk’s Office.
s/Aubrey Williams____
AUBREY WILLIAMS
***

253a
CORRECTED STATEMENT OF
THE RELEVANT FACTS
Counsel for the Appellee states that Appellant’s
trial counsel objected to only one of the
Commonwealth’s three requests for a continuance to
the trial of the case and that occurred on April 11, 2006
(Commonwealth’s Brief on Appeal at 1).1 Counsel
omits the very significant fact that the court made it
perfectly clear that she had no intention of trying the
case before the test was performed on the toboggan
[Misc. Tape, 4/11/06; 10:00:22–10:00:50].
Thus,
counsel is being hyper-technical by claiming that the
defense did not specifically object to the motion for a
continuance at the call of the case on September 26,
2006.
At the same time he acknowledges that counsel for
Appellant announced ready (Appellant’s brief at 7).
No disrespect is intended, but it is a tautological
absurdity to equate announcing ready for trial,
without more, as being insufficient to show an
objection to the trial’s being continued. Making the
Appellees’ argument even more disingenuous is the
fact that the Appellant was not even in court at the
call of the case. Why? Because the Commonwealth
had informed defense counsel on Friday that the
testing had not been completed and, therefore, the
case would be continued. This was an obvious
assumption based on the history of the case and the
court’s previous comments. Indeed, at the call of the
case, even though the Defendant was not present in
the courtroom, the court acknowledged that the

1

Counsel for the Appellee mistakenly states April 11, 2005.

254a
defense was announcing ready [Misc. Tape, 9/26/06;
9:22:32–9:24:00).
Although pointed out in Appellant’s brief in chief,
the Commonwealth’s statements to the court
concerning the toboggan prior to the trial and during
closing argument is worth repeating here. The
prosecutor made the following statement to the court
on December 5, 2005: “There’s a toboggan found at the
scene that the Commonwealth will allege the shooter
was wearing.” Referring to the toboggan, he goes on
to state that there are two pieces of evidence and that
one is substantial [Misc. Tape, 12/05/05; 14:33:37]. At
the call of the case on April 11, 2006, he repeated that
statement and added, “We feel like we need this
evidence in our case . . . .” [Id. at 10:01:30–10:01:47].
Furthermore, at a pretrial on March 3, 2006,
counsel for the Commonwealth informed the court
that he had obtained samples of the Appellant’s hair
to compare with the DNA evidence from the toboggan
[Misc. Tape, 3/3/06; 11:44:50–11:45:30]. These stark
contradictions between what is now being argued by
the Appellee over against what was represented to the
trial judge to urge continuances of the trial is selfevident and shows no less than bad faith on the part
of the Commonwealth during the proceedings below.
This is especially so when viewed in light of the
prosecutor’s closing argument to the jury.

255a
ARGUMENT
I.
THE APPELLEE HAS FAILED TO SHOW
THAT THE PROSECUTOR’S
INTENTIONAL MISLEADING OF THE
COURT, WHICH RESULTED IN DELAYS
IN THE TRIAL OF THE CASE, DID NOT
DEPRIVE APPELLANT OF HIS RIGHT TO
A SPEEDY TRIAL UNDER THE SIXTH
AMENDMENT TO THE UNITED STATES
CONSTITUTION AND SECTION ELEVEN
OF THE KENTUCKY CONSTITUTION.
1. Appellant Was Denied His Constitutional
Right To A Speedy Trial.
Counsel for the Appellee claims that the Appellant
“voiced no objection to the first two continuances
(Appellee’s brief at 7). That is simply not correct. The
case was first set to be tried on December 13, 2005. At
that time the Appellant made it clear that he was
ready for trial [Misc. Tape 12/13/05; 10:23:23]. The
case was re-scheduled to be tried on April 11, 2006. As
counsel for the Appellee correctly states, the Appellant
objected to the motion on that date. It was then
rescheduled for trial on September 26, 2006. The
Commonwealth again asked for a continuance over the
Defendant’s continuing objection.
Commenting on the paradigm prescribed in Baker
v. Wingo, 407 U.S. 514 (1972), counsel for the Appellee
argues that the delay in the trial was caused by a
neutral factor, i.e., the testing of the toboggan, over
which the Commonwealth had no control (Appellee’s
brief at 7). Mr. Teasley was killed on February 27,
2005. There is no denying that the Commonwealth

256a
had the evidence in its possession for over nine months
before bringing to the court’s attention, on the eve of
trial, that it represented a critical piece of evidence.
The Commonwealth represented that it was critical
without stating when he became aware of its
relevancy. He did not present the court with any
justification for the nine month delay, such as what
efforts he had made to have it tested, why his efforts
to get it tested were unsuccessful, etc.
Inasmuch as the evidence was collected at the time
of the shooting, the court must logically conclude that
the police thought it was relevant. Indeed, in light of
the statements that they took from witnesses, they
apparently believed it was critical to their case. They
have offered no argument or evidence to suggest that
anything occurred during the interim to change that
belief.
It is not insignificant that they do not indicate the
date that the item was delivered to the lab, or letters
or telephone conversations between them and the lab
so as to show due diligence in trying to get it tested. If
several months passed before they got it to the lab, it
can certainly be concluded that the delay was not
justified and, therefore, fails the neutral test. See
Payne v. Reese 738 F.2d 118 (6th Cir. 1984) (negligent
delay weighted against government because of its
responsibility to bring cased to trial even where a
defendant is incarcerated in another jurisdiction on
pending charges).
Finally, counsel for the Appellee claims that the
Appellant did not argue the anxiety issue in his brief:
This is simply not correct. Please see page 12 of
Appellant’s brief.
Second, he makes light of

257a
Appellant’s claim of prejudice under the second prong
of Barker v. Wingo, i.e., “minimization of anxiety and
concern of the accused,” arguing that Appellant
merely showed the type of concern that one could
ordinarily expect when facing prosecution (Appellee’s
brief at 9).
The fact of the matter is the Appellant pro se
emphasized the anxiety issue in his post-trial motion
[Tr.R., Vol. VI at 777–795]. It is submitted that his
anxiety, combined with the loss of a key witness,
Steven James Edwards, combined with the bad faith
of the prosecutor in causing the trial to be delayed, are
more than sufficient to satisfy the Barker v. Wingo test
that Miles’s constitutional right to a speedy trial was
violated. Accordingly, the charges should be dismissed
with prejudice. Strunk v. U.S., 412 U.S. 434, 93 S.Ct.
2260, 37 L.Ed.2d 56 (1973).
CONCLUSION
The Appellant was deprived of his right to a speedy
trial as a result of the bad faith conduct of the
prosecution. As a result of the delays, he lost a key
alibi witness and suffered severe mental anguish.
Accordingly, the judgment should be reversed and the
case should be dismissed with prejudice.
Respectfully Submitted,
s/Aubrey Williams_____
AUBREY WILLIAMS

258a

APPENDIX P
THE COMMONWEALTH OF KENTUCKY
Jefferson Circuit Court, Criminal Division
05CR0740-11
MARCH Term A.D., 2005
THE COMMONWEALTH ) MURDER
OF KENTUCKY
) KRS 507.020
) CAPITAL OFFENSE –
Against
) 20 YEARS TO 50
TERRANCE EUGENE
) YEARS; OR LIFE; OR
MILES
) LIFE WITHOUT
A.K.A. “CAT DADDY”
) PAROLE; OR LIFE
) WITHOUT PAROLE
) FOR 25 YEARS; OR
) DEATH
) UOR 09100
) ONE COUNT
) TAMPERING WITH
) PHYSICAL EVIDENCE
)
KRS 524.100
) CLASS D FELONY –
) 1 TO 5 YEARS
) UOR 50230
) ONE COUNT
)
) WANTON
) ENDANGERMENT I
) KRS 508.060
) CLASS D FELONY –
) 1 TO 5 YEARS

259a
)
)
)
)
)
)
)
)
)

UOR 13201
ONE COUNT
PERSISTENT FELONY
OFFENDER II
KRS 532.080
INDETERMINATE
UOR 73101
ONE COUNT

The Grand Jurors of the County of Jefferson, in the
name and by the authority of the Commonwealth of
Kentucky, charge:
COUNT ONE
That on or about the 27th day of February, 2005, in
Jefferson County, Kentucky, the above named
defendant, Terrance Eugene Miles, committed the
offense of Murder by intentionally or under
circumstances manifesting extreme indifference to
human life wantonly caused the death of Michael
Teasley.
COUNT TWO
That on or about the 27th day of February, 2005, in
Jefferson County, Kentucky, the above named
defendant, Terrance Eugene Miles, committed the
offense of Tampering With Physical Evidence when,
believing that an official proceeding may be pending or
instituted against him, he destroyed, mutilated,
concealed, removed or altered the physical evidence
which he believed was about to be produced or used in
such official proceeding, with the intent to impair its
verity or availability in the official proceeding.

260a
COUNT THREE
That on or about the 27th day of February, 2005, in
Jefferson County, Kentucky, the above-named
defendant, Terrance Eugene Miles, committed the
offense of Wanton Endangerment in the First Degree
when, under circumstances manifesting extreme
indifference to the value of human life, he wantonly
engaged in conduct which created a substantial
danger of death or serious physical injury to numerous
persons, when he fired a loaded pistol at people near
Michael Teasley.
COUNT FOUR
Further, that the defendant, Terrance Eugene
Miles, has previously been convicted of the following
felony and is now charged as being a Persistent Felony
Offender in the Second Degree as follows:
(1) That on or about the 1st day of November, 2001,
in Jefferson County, Kentucky, the above-named
defendant appeared in the Jefferson Circuit Court, a
court of general criminal jurisdiction, pursuant to
Indictment No. 99CR0668, charging him with
Trafficking in a Controlled Substance while in
Possession of a Firearm, a felony in violation of the
Kentucky Revised Statutes, and that said court
sentenced the defendant to a term of 10 years in the
Kentucky Department of Corrections;
AND
(2) (a) That the defendant was 18 years or older at
the time he committed the prior offense;
AND
(b) That the defendant is more than 21 years of age;
AND

261a
(c) That the defendant completed service of the
sentence imposed on at least one of the previous felony
convictions within five years prior to the date of the
commission of the offense charged in this indictment;
OR
That the defendant was on a form of legal release
from at least one of the previous felony convictions on
the date of the commission of the offense charged in
this indictment;
OR
That the defendant was legally released or
discharged from at least one of the previous felony
convictions within five years of the date of the
commission of the offense charged in this indictment.
AGAINST THE PEACE AND DIGNITY OF THE
COMMONWEALTH OF KENTUCKY
A TRUE BILL

Wit: Sgt. T. Laun, Shively PD
J. SCOTT DAVIS/plm
Assigned Assistant Commonwealth’s Attorney

262a

APPENDIX Q

November 25, 2005
Terrance E. Miles #151766 Dorm 6
Northpoint Training Center
P.O. Box 479
Burgin, Kentucky 40310
Judith McDonald Burkman
Jefferson Circuit Court
Division Nine (9)
700 West Jefferson Street
Louisville, Kentucky 40202
Dear Judge,
The Attorney for the Commonwealth, J. Scott Davis,
is withholding exculpatory evidence, specifically one
VHS tape of Club 502’s security cameras, collected
2/27/05, by the Shively Police. Mr. Davis also stated
to my Attorney, Mr. Olash that there wasn’t a video
tape from the off duty LMPD Officer Frank Lee Hill’s
Police Cruiser on the night in question, when in fact
Ms. Alisia M. Smiley, LMPD Public Information
Specialist has informed me that there is a tape in a
response to my Open Records Request. (enclosed).
The Commonwealth Attorney’s Office has a
continuing duty to disclose all exculpatory evidence
coming within his knowledge. The knowledge of the
Police is also the knowledge of the Prosecutor.
As you may know, my Trial date is set at
December 13, 2005. My Attorney Mr. Olash has not

263a
made any attempts to view, copy, or photo copy any of
the evidence in the custody of the Assistant
Commonwealth Attorney, the SPD or the LMPD. I am
sure you will agree that this is not Trial strategy.
This should serve as notice to the Court that I wish
to exercise my Sixth (6th) Amendment right to a Fast
and Speedy Trial. I have discussed this with my
Attorney, Mr. Olash. It is I alone who will suffer the
fate of a guilty verdict and I’m adamant about having
a Fast and Speedy Trial.
Finally, Mr. Davis is having a toboggan tested for
hair and DNA. I am asking the Court to Order Mr.
Davis to inform Mr. Olash by way of Affidavit when,
where and how the toboggan will be tested. According
to McGregor v. Hines, 995 S.W.2d 384 (Ky. 1999), if the
Commonwealth’s method of testing will destroy the
evidence and the defense’s method will not, the Court
must Order the Commonwealth to turn the evidence
over to the defense’s expert to test first. Defense
Attorneys are to be viewed just as trustworthy as
Attorneys for the Commonwealth to keep track of the
Chain of Custody. If both parties method of testing
will destroy the evidence it is up to the Court to decide
who does the testing. The non-testing party has a
right to have a representative present during all
testing, should the Court allow the Commonwealth to
conduct the test on the toboggan and or any other
evidence pertaining to the case in chief, I wish to have
a representative present for all testing, McGregor,
supra.

264a
Respectfully,
s/Terrance E. Miles___________
Terrance E. Miles
CC:
J. Scott Davis
Assistant Commonwealth Attorney
514 West Liberty Street
Louisville, Kentucky 40202
John Olash
Attorney for Defendant
121 South 7th Street
Louisville, Kentucky 40202

265a

APPENDIX R

No. 05-CR-00074

3-6-06

Dear Judge,
I just want to let you know how stressful it is for me
and my family by the Commonwealth Attorney’s stall
tactics.
For example, having .357 projectiles and a .22
caliber sent to the Lab on 11-21-05 to compare the two.
Any idiot can tell by looking the projectiles will not
even fit through the barrel of a .22. Also by collecting
a toboggan from the crime scene on 2-27-05 and not
sending it to the Lab until 11-3-05. Then taking the
toboggan back from that lab, collect my DNA and send
both, the toboggan and my DNA to the lab in Bowling
Green.
Our Justice System is not perfect but it is the very
best system in the world. I think I done the honorable
thing by turning myself in. I’m not afraid to say I do
not trust the SPD with my DNA. They already lied to
get an indictment, which is clearly on the record.
All I ask Your Honor with the utmost respect to you
and your court room is to have a fair trial.
Humbly,
s/Terrance E. Miles
Terrance E. Miles
CC: John Olash
J. Scott Davis

266a

APPENDIX S

May 22, 2006
Terrance E. Miles #151766 Dorm 5
Northpoint Training Center
P.O. Box 479
Burgin, Kentucky 40310
Judge, Judith McDonald Burkman
Jefferson Circuit Court Division (9)
700 West Jefferson Street
Louisville, Kentucky 40202
Your Honor,
On May 17, 2005 my trial date was set for
December 13, 2005. The Assistant Commonwealth
Attorney motioned the court for a continuance to await
the results of a toboggan being tested for possible DNA
evidence. The court continued my trial date until
April 11, 2006 and the commonwealth motioned the
court for another continuance for the same reason.
The toboggan that is being tested was recovered
from the crime scene on February 27, 2005 but was not
sent to the lab until November 3, 2005 almost nine
months later.
The defense was ready to proceed on both trial
dates. The delay by the commonwealth to send the
toboggan to the lab for testing was an obvious stall
tactic and is depriving my of my right to a fast and
speedy trial.

267a
I am currently serving a ten year sentnece for
trafficking in controlled substance. However, this
pending indictment prevents me from going to a
factility with less restrictions and is hendering me
from participanting in programs to better myself
within the institution. Therefore, I humbly request
the court to reduce my bond to 10% cash or property.
Sincerely,
s/Terrance E. Miles
Terrance E. Miles

CC: John Olash
121 South 7th Street
Louisville, Kentucky 40202
defense counsel
Hon. J. Scot Davis
514 West Liberty Street
Louisville, Kentucky 40202

268a

APPENDIX T
Inmate Name: Terrance Miles
Number: 151766
Reason for Referral/HPI: 33 y.o. BM reports being
severely depressed x 5 mo. over “murder case I’m
fighting”, lack of support from mo E.G.F. arrived @
RCC on Paxil. Social anxiety improvement @ this dose.
□ Psych Hx: tx’d by fp for social anxiety.
□ Suicide Attempts: ∅
□ Drug Abuse Hx: THC

∅ X 13 mo.

□ ETOH HX:

∅ X 13 mo.

DOC

Medical History:

Allergies:

NA & AA

1 Diabetes 1 Heart Disease
1 HTN
1 Lung Disease
X Hepatitis X Seizures
X CHI
Other: neck pain.

NKDA

Mental Status Exam:
A & O X 3. Cooperative mood depressed “7.5–8”
+ anxiety ↓ appetite c probably at loss. ∅ sleep though
he’s in bed continuously. ∅ SI, HI. Thoughts of harm
to others / easily agitated but is intent. ∅ paranoia,
Q sx one Insight / judgement good.
Axis I: MDD, recurrent, severe 3 / fx.
Axis II: depressed
Axis III: neck pain
Recommendation/Plan: ↑ Paxil, add Elavil for chr.
pain & sleep

269a
Med Orders: Elavil 75 mg po ghs.
Paxil 40 mg po ghs.
Exp: 12/5/05
Lab Orders:
Psychiatrist’s Signature s/Dr. Laura Moore
Dr. Laura Moore
Date: 7/20/05

270a

APPENDIX U
CC-1022

(REV. 03/02)

RECLASSIFICATION CUSTODY FORM
NAME TERRANCE MILES
NUMBER 151766
INSTITUTION RCC AC
CTO M Thompson
CTO CODE 584 CLASSIFICATION DATE 7/29/05
CUSTODY LEVELS
L 1 – Community: 8 or less
L 2 – Minimum: 8 or less
A – Restricted: 8 or less
L 3 – Medium: 9 – 18
L 4 – Close: 19 – 30
L 5 – Maximum: 31 or more
CUSTODY OVERRIDE
0 None
1. Nature/Severity of Crime
2. Void
3. Mental Health Needs
4. Detainer/Pending Charges
5. Documented Escape Risk
6. Lower Custody Indicated
7. No PSI at Time of Initial Reviews
8. Other – comments required!
A. Restricted – comments required!

271a
1. HISTORY OF INSTITUTIONAL VIOLENCE
(Calendar Years)
None ....................................................................... 0
Category III Violence during last year
(Cal. III.11) ............................................................ 1
Category IV Violence during last two years
(Cal. IV.1 or 23) ..................................................... 3
Category V Violence during last three years
(Cal. V.11 & 12) ..................................................... 4
Category VI Violence during last five years
(Cal. VI.1, 2, 3, 8, 9, or 12) .................................... 5
Any Category VII Violence during last
five years ............................................................... 7
0
Score
2. DID VIOLENCE OCCUR WITHIN THE LAST
6 MONTHS?
No………………………0 Yes ............................... 3
0
Score
3. SEVERITY OF CURRENT OFFENSE
Class D Nonviolent felony .................................... 0
Class D Violent felony ........................................... 1
Class C Nonviolent felony ..................................... 1
Class C Violent felony ........................................... 2
Class B Nonviolent felony ..................................... 2
Class B Violent felony ........................................... 3
Escape or Felony attempt escape ......................... 8
Highest ................................................................ 12
Death Penalty ..................................................... 34
1
Score

272a
4. SEVERITY OF OTHER FELONY
INCARCERATIONS
None ....................................................................... 0
Class D Felony ...................................................... 1
Class C Felony ....................................................... 2
Class B Felony ....................................................... 3
Highest .................................................................. 5
Highest category defined by Manual
as Sex Offender ................................................... 12
0
Score
5. ESCAPE HISTORY
No Escapes or Attempted Escapes ....................... 0
Escape or attempt from a non-secure
institution or furlough or arrest ........................... 4
Escape or attempt from a secure institution
not involving violence ........................................... 6
Escape or attempt from any inst. involving
violence or other additional felony ....................... 9
0
Score
6. NUMBER OF DISCIPLINARY REPORTS
None in the past twelve months .......................... -3
None in the past six months ................................ -1
Not in the system six months ............................... 0
One in the past six months ................................... 1
Two in the past six months ................................... 2
Three in the past six months ................................ 4
Four in the past six months .................................. 6
Five in the past six months .................................. 8
Six in the past six months .................................. 10
7+ in the past six months ................................... 12

273a
0
Score
7. MOST SEVERE DISCIPLINARY REPORT
RECEIVED
None ....................................................................... 0
Category III report ................................................ 1
Category IV report ................................................ 3
Category V report .................................................. 5
Category VI report ................................................ 7
Category VII report ............................................... 9
0
Score
8. CURRENT AGE
27.99 or less ........................................................... 3
28 – 37.99 .............................................................. 2
38 – 45.99 .............................................................. 1
46+ ......................................................................... 0
2
Score
TOTAL SCORE (Add items 1 – 8 )

3

FINAL CUSTODY SCORE

11

ORIG. CUSTODY LEVEL

3

OVERRIDE

Ø

FINAL CUSTODY LEVEL

3

INST. RECOMMENDED
[ILLEGIBLE]/NTC
EDUCATION LEVEL

[ILLEGIBLE]

099

CONVICTED UNDER YOUTHFUL OFFENDER
ACT (Y OR N) NO

274a
STATUS CODE

000

TOTAL GT LOSS (DAYS)
PAROLE ELIG.

000

1/2007 (18)

MIN. EXP. DATE

1/2009

==================STOP==================
9. ADMINISTRATIVE FACTORS TO BE APPLIED
ONLY IF THE INMATE SCORES 8 POINTS OR
LESS ON QUESTIONS 1 – 8 (Note: Only 1 of
these factors may be applied to each inmate for a
maximum of 8 points)
A. [X] None .................................................................. 0
B. [ ] Inmate has more than 90 days statutory
or any non-restorable good time loss ............... 8
C. [ ] Inmate has more than 48 months remaining
to parole eligibility or release ........................... 8
D. [ ] Pending Action for Highest Category,
Escape, Class B felony or Immigration
Detainer ............................................................ 8
ADMINISTRATIVE SCORE
FINAL SCORE

8
11

PARTICIPATION CODES
1. Currently enrolled
2. Program completed
3. Dropped out
4. Terminated – Behavior
5. Terminated – Administrative reasons
6. Program not available
7. Program full – Placed on waiting list
8. Refuses program
9. Program recommended – Currently not enrolled

275a
10. Denied by program staff
Waived 48 Hour Notice


Advised of Appeal Process



Advised of Escape Penalty



Advised of Visitation Policy

PROGRAM
AREAS
*Not required
for inmate in
Local Facility

PROGRAM
CODE

PARTICIPATION
CODE

131

09

Alcohol Abuse
Program
Drug Abuse
Program
Sex Offender
Treatment
Program
O J T Work
Program
Educational
Programming
Vocational
Programming
Individual or
Group
Counseling
Other:

276a
COMMENTS: Pending Charges – [ILLEGIBLE],
[ILLEGIBLE], [ILLEGIBLE] – [ILLEGIBLE]
Psyc. SERVICES
[ILLEGIBLE]
INMATE’S SIGNATURE [X] s/Terrance Miles
*Inmate signature not required for inmate in Local
Facility
CHAIRPERSON’S SIGNATURE

CODE

[ILLEGIBLE]

() PSI AVAILABLE
( ) PSI NOT AVAILABLE – REVIEW IN 90 DAYS

277a
CC-1022

(REV. 03/02)
RECLASSIFICATION FORM

NAME MILES, TERRANCE
NUMBER 151766
INSTITUTION
N
CTO
Cochran
CTO CODE 702 CLASSIFICATION DATE 6-1-06
CUSTODY LEVELS
L 1 – Community: 8 or less
L 2 – Minimum: 8 or less
A – Restricted: 8 or less
L 3 – Medium: 9 – 18
L 4 – Close: 19 – 30
L 5 – Maximum: 31 or more
CUSTODY OVERRIDE
0 None
1. Nature/Severity of Crime
2. Void
3. Mental Health Needs
4. Detainer/Pending Charges
5. Documented Escape Risk
6. Lower Custody Indicated
7. No PSI at Time of Initial Reviews
8. Other – comments required!
A. Restricted – comments required!
1. HISTORY OF INSTITUTIONAL VIOLENCE
(Calendar Years)
None ....................................................................... 0
Category III Violence during last year
(Cal. III.11) ............................................................ 1
Category IV Violence during last two years
(Cal. IV.1 or 23) ..................................................... 3
Category V Violence during last three years

278a
(Cal. V.11 & 12) ..................................................... 4
Category VI Violence during last five years (Cal.
VI.1, 2, 3, 8, 9, or 12) ............................................. 5
Any Category VII Violence during last five
years ...................................................................... 7
0
Score
2. DID VIOLENCE OCCUR WITHIN THE LAST 6
MONTHS?
No………………………0 Yes ............................... 3
0
Score
3. SEVERITY OF CURRENT OFFENSE
Class D Nonviolent felony .................................... 0
Class D Violent felony ........................................... 1
Class C Nonviolent felony ..................................... 1
Class C Violent felony ........................................... 2
Class B Nonviolent felony ..................................... 2
Class B Violent felony ........................................... 3
Escape or Felony attempt escape ......................... 8
Highest ................................................................ 12
Death Penalty ..................................................... 34
1
Score
4. SEVERITY OF OTHER FELONY
INCARCERATIONS
None ....................................................................... 0
Class D Felony ...................................................... 1
Class C Felony ....................................................... 2
Class B Felony ....................................................... 3
Highest .................................................................. 5
Highest category defined by Manual
as Sex Offender ................................................... 12

279a
0
Score
5. ESCAPE HISTORY
No Escapes or Attempted Escapes ....................... 0
Escape or attempt from a non-secure
institution or furlough or arrest ........................... 4
Escape or attempt from a secure institution
not involving violence ........................................... 6
Escape or attempt from any inst. involving
violence or other additional felony ....................... 9
0
Score
6. NUMBER OF DISCIPLINARY REPORTS
None in the past twelve months .......................... -3
None in the past six months ................................ -1
Not in the system six months ............................... 0
One in the past six months ................................... 1
Two in the past six months ................................... 2
Three in the past six months ................................ 4
Four in the past six months .................................. 6
Five in the past six months .................................. 8
Six in the past six months .................................. 10
7+ in the past six months ................................... 12
-1
Score
7. MOST SEVERE DISCIPLINARY REPORT
RECEIVED
None ....................................................................... 0
Category III report ................................................ 1
Category IV report ................................................ 3
Category V report .................................................. 5
Category VI report ................................................ 7
Category VII report ............................................... 9

280a
0
Score
8. CURRENT AGE
27.99 or less ........................................................... 3
28 – 37.99 .............................................................. 2
38 – 45.99 .............................................................. 1
46+ ......................................................................... 0
2
Score
TOTAL SCORE (Add items 1 – 8 )

2

FINAL CUSTODY SCORE

10

ORIG. CUSTODY LEVEL

3

OVERRIDE

0

FINAL CUSTODY LEVEL

3

INST. RECOMMENDED
N
EDUCATION LEVEL

099

CONVICTED UNDER YOUTHFUL OFFENDER
ACT (Y OR N) N
STATUS CODE

006

TOTAL GT LOSS (DAYS)
PAROLE ELIG.
MIN. EXP. DATE

000

1-07
1-19-09

==================STOP==================
9. ADMINISTRATIVE FACTORS TO BE APPLIED
ONLY IF THE INMATE SCORES 8 POINTS OR
LESS ON QUESTIONS 1 – 8 (Note: Only 1 of

281a
these factors may be applied to each inmate for a
maximum of 8 points)
A. [ ] None .................................................................. 0
B. [ ] Inmate has more than 90 days statutory
or any non-restorable good time loss ............... 8
C. [ ] Inmate has more than 48 months remaining
to parole eligibility or release ........................... 8
D. [X] Pending Action for Highest Category, Escape,
Class B felony or Immigration Detainer .......... 8
ADMINISTRATIVE SCORE
FINAL SCORE

8
10

PARTICIPATION CODES
1. Currently enrolled
2. Program completed
3. Dropped out
4. Terminated – Behavior
5. Terminated – Administrative reasons
6. Program not available
7. Program full – Placed on waiting list
8. Refuses program
9. Program recommended – Currently not enrolled
10. Denied by program staff
Waived 48 Hour Notice


Advised of Appeal Process
Advised of Escape Penalty



Advised of Visitation Policy

282a
PROGRAM
AREAS
*Not required for
inmate in Local
Facility

PROGRAM PARTICIPATION
CODE
CODE

Alcohol Abuse
Program
Drug Abuse
Program
Sex Offender
Treatment
Program
O J T Work
Program

131

1

Educational
Programming
Vocational
Programming
Individual or
Group Counseling
Other:
COMMENTS: pending chg – 05CR0740 murder,
tampering W/PE, WEI, PFC J
INMATE’S SIGNATURE X s/Terrance Miles
*Inmate signature not required for inmate in Local
Facility
CHAIRPERSON’S SIGNATURE

CODE

581

283a
(X) PSI AVAILABLE
( ) PSI NOT AVAILABLE – REVIEW IN 90 DAYS

284a

APPENDIX V

REGISTRAR OF VITAL STATISTICS
CERTIFIED COPY

***
1727770
COMMONWEALTH OF KENTUCKY
FORM VS
NO. 1-A
(Rev. 5/02)

CABINET FOR
HEALTH
SERVICES
REGISTRAR OF
VITAL
STATISTICS

116 2006 19624
FILE NO

CERTIFICATE OF DEATH
MUST 1. DECEDENT’S NAME
BE
(First, Middle, Last)
TYPED STEVEN JAMES
EDWARDS
3. DATE OF DEATH
(Month, Day, Year)
JUNE 25, 2006

2. Sex
MALE

285a
DECEDENT
4. SOCIAL SECURITY NO.
…|3410
5a. AGE last
Birthday (Years)
33
5b. UNDER 1 YEAR (Months)

(Days)

5c. UNDER 1 DAY

(Hours)

(Minutes)

6. DATE OF BIRTH
(Month, Day, Year)

7. BIRTHPLACE
(City/State or Foreign
Country)

…, 1972

LOUISVILLE, KY
8. WAS DECEDENT EVER IN THE U.S. ARMED
FORCES?
☒ Yes

☐ No

9a. PLACE OF DEATH (Check only one)
HOSPITAL
☐ Inpatient ☐ ER/Outpatient

☐ DOA

OTHER
☐ Nursing Home ☐ Residence ☒ Other (Specify)
9b. FACILITY NAME (If not institution give street
and number)
2654 ALGONQUIN PARKWAY
9c. CITY, TOWN, OR LOCATION OF DEATH
LOUISVILLE

286a
9d. COUNTY OF DEATH
JEFFERSON
10. MARTIAL STATUS
Married, Never Married, Widowed, Divorced
(Specify)
MARRIED
11. SURVIVING SPOUSE
(If wife, give maiden name)
TIMIKO BLAKEMORE
12a. DECEDENT’S USUAL OCCUPATION
(Give kind of work done during most of working life,
Do Not use retired)
FORKLIFT DRIVER
12b. KIND OF BUSINESS/INDUSTRY
SMURFIT STONE COMPANY
13a. RESIDENCE – State

13b. COUNTY

KENTUCKY

JEFFERSON

13c. CITY, TOWN, OR LOCATION
LOUISVILLE
13d. STREET AND NUMBER
1614 MAE STREET KIDD
13e. INSIDE CITY LIMITS?

13f. ZIP CODE

☒ Yes ☐ No

40211

14. WAS DECEDENT OF HISPANIC ORIGIN?
(Specify No or Yes – If yes, specify Cuban, Mexican,
Puerto Rican, etc.)
☒ No ☐ Yes

287a
15. RACE – American Indian, Black, White, etc.
(Specify)
BLACK
16. DECEDENT’S EDUCATION
(Specify only highest grade completed)
Elem/Secondary (0–12)

College (1–4 or 5+)

12th
PARENTS
17. FATHER’S NAME (First, Middle, Last)
JAMES F. FREEMAN SR.
18. MOTHER’S NAME (First, Middle, Maiden
Surname)
KATIE STRONG
INFORMANT
19a. INFORMANT’S NAME
TIMIKO EDWARDS
19b. MAILING ADDRESS
(Street and Number or Rural Route Number, City
or Town, State, Zip Code)
1614 MAE STREET KIDD
LOUISVILLE, KY 40211
DISPOSITION
20a. METHOD OF DISPOSITION
☒ Burial

☐ Cremation

☐ Removal from
State

☐ Donation

☐ Other (Specify) _______________

288a
20b. PLACE OF DISPOSITION (Name of cemetery,
crematory, or other place)
GREEN MEADOWS CEMETERY
20c. LOCATION (City, Town, or State)
LOUISVILLE, KY
21. SIGNATURE OF FUNERAL SERVICE
LICENSEE (Or person acting as such)

22. NAME AND ADDRESS OF FACILITY
G.C. WILLIAMS FUNERAL HOME INC.
1935 WEST BROADWAY LOUISVILLE, KY 40203
CERTIFIER
23a. To the best of my knowledge, death occurred
at the time, date, place and due to the cause stated
Signature and Title
s/James B. Wesley

Deputy Coroner

(MUST USE BLACK INK)
23b. DATE SIGNED
(Month, Day, Year)
07-11-06
24. NAME AND ADDRESS OF PERSON WHO
COMPLETED CAUSE OF DEATH (ITEM 28)
James B. Wesley, Deputy Coroner
Dr. Ronald M. Holmes, Coroner –
810 Barret Avenue,
Louisville, KY 40204

289a
25. TIME OF
DEATH

26 DATE PRONOUNCED
DEAD (Month, Day, Year)

3:57 P.M.

June 25, 2006

27. WAS CASE REFERRED TO MEDICAL
EXAMINER/CORONER?
☒ Yes ☐ No
CAUSE OF DEATH
28. PART I. Enter the disease, injuries, or
complications that caused death. Do not enter the
mode of dying, such as cardiac or respiratory
arrest, shock or heart failure. List only one cause
on each line.
IMMEDIATE CAUSE (Final disease or condition
resulting in death)
a. Multiple blunt force
injuries sustained in a
motorcycle v. automobile
collision

Appropriate
interval between
onset and death

DUE TO (OR AS A
CONSEQUENCE OF)
Sequentially list conditions, if any, leading to
immediate cause. Enter UNDERLYING CAUSE
(Disease or injury that initiated events resulting in
death) LAST
b.

Appropriate
interval between
onset and death
DUE TO (OR AS A
CONSEQUENCE OF)
***

290a
PART II. Other significant conditions contributed
to death but not resulting in the underlying cause
given in Part I.
28a. If female, was there a pregnancy in the past
12 months?
☐ Yes ☐ No
28b. Was autopsy performed?
☒ Yes ☐ No
28c. Were autopsy findings available prior to
completion of cause of death?
☒ Yes ☐ No
28d. Did the deceased have Diabetes?
☐ Yes ☒ No
28e. Was Diabetes an immediate, underlying, or
contributing cause of or condition leading to death?
☐ Yes ☒ No
29 MANNER OF DEATH
☐ Natural
☒ Accident
☐ Suicide

☐ Pending
Investigation
☐ Could not
be determined

30a. DATE OF
INJURY (Month,
Day, Year)
06-25-06

☐ Homicide
30b. TIME OF
INJURY

30c. INJURY AT WORK?
☐ Yes ☒ No

3:50 P.M.
30d. DESCRIBE HOW INJURY OCCURRED
Auto v. motorcycle

291a
30e. PLACE OF INJURY – At home, farm, street,
factory, office building, etc. (Specify)
street
30f. LOCATION (Street and Number or Rural
Route Number, City or Town)
Intersection of Algonquin Pkwy. & Beech street,
Louisville, KY
REGISTRAR
31. REGISTRAR’S SIGNATURE

32. DATE FILED (Month, Day, Year)
JUL 19 2006
***

I, Gary L. Kupchinsky, State Registrar of Vital
Statistics, hereby certify this to be a true and correct
copy of the certificate of birth, death, marriage or
divorce of the person therein named, and that the
original certificate is registered under the file number
shown. In testimony thereof I have hereunto
subscribed my name and caused the official seal of the
Office of Vital Statistics to be affixed at Frankfort,
Kentucky this 24th day of April 2007.
s/Gary L. Kupchinsky
Gary L. Kupchinsky, State Registrar
***

292a
EDWARDS,
STEVEN JAMES,

33, of Louisville, died Sunday, June 25, 2006. He
was an employee at Smurfit Stone Co. and a member
of Cornerstone Missionary Baptist Church.
Survived by a wife, Timiko Blakemore Edwards;
son, Jordan Polston; father, James F. Freeman, Sr.;
mother Katie M. Edwards; brothers Jimmie Edwards
(Sharonda), Leonard Edwards (Shoehorned) and
James Freeman, Jr.; sisters, Antionette Hickman,
Rosie Freeman and Yvonne Logan; grandmother,
Julia Strong, mother-in-law, Deborah Blakemore; host
of nieces, nephews other relatives and friends.
Funeral: 11 a.m. Friday at St. Stephen Baptist
Church, 1008 So. 15th St. Burial in Green Meadows
Cemetery. Vistiation from 6–9 p.m. Thursday at G. C.
Williams Funeral Home
___________
***

293a
Motorcyclist killed
Louisville man

in

crash

identified

as

The Courier-Journal
A Louisville man killed Sunday in a motorcycle
accident on Algonquin Parkway has been identified as
Steven J. Edwards, 33, of the 1600 block of Mae Street
Kidd Ave.
Edwards died of multiple injuries at the scene about
4 p.m., Deputy Coroner Jim Wesley said. He wasn’t
wearing a helmet.
Witnesses said Edwards was driving east on
Algonquin Parkway when a westbound sport utility
vehicle turned in front of him at Beech Street, police
said.
The SUV’s two occupants were not injured. Police
are still investigating.
***

294a
05-CR-000740

Jefferson Circuit Court
Davidson Nine (9)
Judge McDonald-Burkman

Commonwealth of
Kentucky
v.

Plaintiff

AFFIDAVIT OF TERRANCE MILES

Terrance Miles

Defendant

*** *** *** ***
Comes the Affiant, Terrance Miles, being first duly
sworn, and states that Steven James Edwards agreed
before his death to testify at my trial to the following:
1. That I rented him a car from Enterprise Rental
Car on February 21, 2005.
2.

That he was at Club 502 February 27, 2005.

3. That he saw me in Club 502 on February 27,
2005, and I was wearing an all tan outfit.
4. That he witnessed the shooting death of
Michael Teasley.
5. That the shooter ran eastbound and jumped the
fence, not southbound around the rear of the Club.
6.

That the shooter was not me.

7. That the shooter was out of sight by the time
Officer Frank Hill made his way through the crowed
to where the victim was laying on the ground.
8. That we returned the rental car when it was due
back on February 28, 2005 @ 1:00 p.m.
9. That he wanted a different car because the one
he was currently driving only had one working
headlight.

295a
10. That I was not wanted or on the run when we
exchanged the cars.
11. That he saw me on the news February 28, 2005
at 10:00 p.m. for the shooting death of Michael
Teasley.
12. That after seeing me on the news he tried to
contact me to give me the rental car back.
13. That when he could not contact me he gave the
rental car to Terry Masden to return because Terry
knew the manager of Enterprise Rental Car.
FURTHER THE AFFIANT SAYETH NAUGHT
s/Terrance E. Miles
Terrance E. Miles
Subscribed and sworn to before me by Terrance Miles
on this 4 day of April, 2017.

